<html>
<title> - ESEA REAUTHORIZATION: TEACHERS AND LEADERS</title>
<body><pre>[Senate Hearing 111-1100]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1100
 
                         ESEA REAUTHORIZATION: 
                          TEACHERS AND LEADERS

=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,

                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

      EXAMINING THE ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
           REAUTHORIZATION, FOCUSING ON TEACHERS AND LEADERS

                               __________


                             APRIL 15, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
56-088                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
JACK REED, Rhode Island
BERNARD SANDERS (I), Vermont
SHERROD BROWN, Ohio
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                                     MICHAEL B. ENZI, Wyoming
                                     JUDD GREGG, New Hampshire
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     JOHN McCAIN, Arizona
                                     ORRIN G. HATCH, Utah
                                     LISA MURKOWSKI, Alaska
                                     TOM COBURN, M.D., Oklahoma
                                     PAT ROBERTS, Kansas
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 15, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     5
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico.     5
Weingarten, Randi, President of the American Federation of 
  Teachers, AFL-CIO..............................................     6
    Prepared statement...........................................     7
Fesmire, Diana S., Teacher, Sierra Elementary School, Alamogordo, 
  NM.............................................................    10
    Prepared statement...........................................    11
Daly, Timothy, President, The New Teacher Project, Brooklyn, NY..    15
    Prepared statement...........................................    16
Kane, Thomas, Professor of Education and Economics, Harvard 
  Graduate School of Education, Cambridge, MA....................    27
    Prepared statement...........................................    28
Hirsh, Stephanie, Executive Director, National Staff Development 
  Council, Dallas, TX............................................    39
    Prepared statement...........................................    40
Moir, Ellen, Chief Executive Officer, New Teacher Center, Santa 
  Cruz, CA.......................................................    41
    Prepared statement...........................................    42
Valenzuela, Jose, Teacher, Techboston Academy and Boston Teacher 
  Residency Program Graduate, Boston, MA.........................    45
    Prepared statement...........................................    46
Benbow, Camilla P., Dean of Education and Human Development, 
  Vanderbilt University's Peabody College, Nashville, TN.........    48
    Prepared statement...........................................    49
Parmenter, Layne, Principal, Urie Elementary, Lyman, WY..........    54
    Prepared statement...........................................    55
Schnur, Jon, Chief Executive Officer, and Co-Founder, New Leaders 
  For New Schools, Washington, DC................................    58
    Prepared statement...........................................    59
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    62
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    65
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...    66
Bennet, Hon. Michael, a U.S. Senator from the State of Colorado..    68
Dodd, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    71

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    National Education Association (NEA), letter.................    85

                                 (iii)



                         ESEA REAUTHORIZATION: 
                          TEACHERS AND LEADERS

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Dodd, Bingaman, Murray, Reed, 
Brown, Casey, Hagan, Franken, Bennet, Enzi, Alexander, Isakson, 
and Murkowski.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    I would like to thank all of you for being here today for 
the fourth in a series of hearings focused on the 
reauthorization of the Elementary and Secondary Education Act.
    In our committee hearing on Tuesday, we focused on the 
challenge of turning around under-performing schools. Today we 
turn our attention to the professionals who are on the front 
line in our public schools: our teachers and our principals. We 
will explore some of the key challenges to be tackled in this 
reauthorization.
    How do we attract and retain a highly qualified teacher for 
every classroom, as well as talented leaders for every school? 
How do we best prepare them to be successful in the classroom 
and as leaders? How do we support them in their work and 
continually increase their effectiveness as practitioners. 
Lastly, how do we evaluate the skills and strategies that lead 
to student achievement?
    These questions are so central and multifaceted that we 
have chosen to use a roundtable format for today's hearing. I 
hope this will allow for more voices and discussion, as well as 
a more robust exchange of ideas.
    While many factors are important to a student's success in 
school, to state the obvious, when it comes to learning, a good 
teacher matters the most. And when we look at chronically 
under-performing schools across America, there are pervasive 
problems that these schools have too many teachers with 
inadequate training and skills. It is a cruel fact of life that 
too often our most needy and at-risk students are being taught 
by our least prepared and least able teachers. In core academic 
classes nationwide, teachers with neither certification nor a 
major in the subject they teach are twice as common in high-
poverty schools as they are in high-income schools. A key 
challenge is to identify strategies for ensuring that students 
who need the most help are being educated by our most effective 
teachers and principals.
    The only way to know for sure whether students have 
effective teachers and principals is by having in place a 
reliable evaluation system that takes into account student 
achievement, along with other important measures of success. 
That would allow us to identify educators who need help, to 
reward those who are doing a great job at improving student 
achievement. Because this is so important, today's roundtable 
includes leading experts on teacher evaluation. I look forward 
to hearing their views because it is something that has 
bedeviled me for a long time. How do you evaluate a teacher? Is 
it by the test scores of the students? Well, that could be just 
rote memory. Is that all we want to do is to impart rote memory 
on kids? Or do we want to really teach them how to learn and 
how to ask probing questions, how to analyze? Sometimes these 
are harder questions to get at the core of than just a simple 
answer on a test.
    Another key challenge is to increase the quality and 
relevance of teacher preparation programs and ongoing 
professional development. It is a dismal fact that nearly 50 
percent of our teachers leave within the first 5 years. I was 
asking Ms. Moir about that just before we started here. Who are 
these 50 percent? Who are they and why are they leaving in the 
first 5 years? Are these the best and the brightest going out 
or are these the ones that cannot hack it at all? Who are they? 
I tend to think it is the former just from my own anecdotal 
experience. It is those that are the most aggressive, the 
brightest who want to really see a career ladder, but they do 
not see it in the first 5 years and they are out because they 
have other choices.
    I think one big reason for the attrition rate is we are 
failing to adequately train teachers for the tough realities of 
the job and to ensure that they have a strong grasp of the 
content areas they are teaching.
    Of course, we cannot talk about support for teachers 
without emphasizing the importance of excellent instructional 
leadership. Teachers can be at their best when they have a 
principal who fosters a school culture where student learning 
is the common goal and where educators have ample time for 
collaboration.
    Again, anecdotally I remember one school in a city in Iowa 
had a lot of problems, truancy. It was in terrible shape. They 
got a new principal and literally within 2 years that school 
turned around. And the only change was the principal. That was 
the only change. I remembered that and I thought, boy, there is 
something here about leadership at that level.
    Finally, it is important to note that while teachers and 
principals on the front line are the most important factors 
helping our kids to succeed, they cannot do it by themselves. 
We must all be partners in the education and success of our 
children. Here I would emphasize our parents and how they are 
involved in this process.
    Well, these are tough questions. There are no simple 
answers. If there were, we would have done it a long time ago. 
But simply because it is tough does not mean that we cannot do 
something about it, and I think with the reauthorization of 
this bill, if nothing else, we have got to focus in this area 
of qualified teachers, professional development, career 
development, leadership training qualities for our teachers, 
and for our principals and getting those into our most under-
performing schools.
    Well, with that, I will now invite my colleague, Senator 
Enzi to share his opening remarks.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and thank you for 
doing the roundtable format. We get a little bit more 
information that way and in a little different manner that I 
think helps to bring out some of the problems.
    And teachers, principals, and administrators are the people 
we rely on to provide our children with a quality education in 
a safe school environment, and their roles cannot be overlooked 
or diminished as we work on fixing and improving the Elementary 
and Secondary Education Act.
    I believe that the underlying purpose we had in No Child 
Left Behind regarding highly qualified teachers was a good one. 
Of course, every parent in America wants their child to be 
taught by an educator that is considered highly qualified. 
However, there is a vast disconnect between a teacher who meets 
certain requirements on paper and one whose teaching has a true 
impact on students in the classroom and increases academic 
achievement.
    It is also important that the leadership in our schools 
supports good teaching and student achievement, encourages 
innovation with results, and creates a safe learning 
environment.
    I am part of a family of educators. I hear daily what life 
is like in the classroom. Some of the people who had the 
largest impact on my life were teachers and principals.
    I believe that teachers are provided with a toolbox of 
sorts when they walk into the front door of their school. 
However, that toolbox may not be fully stocked. Sometimes it 
takes years to practice, get professional development, 
collaborate with other veteran teachers in order to fill that 
toolbox.
    Similarly, school teachers bring certain experience and 
skills with them when they move into the leadership roles. 
These skills could be considered tools as well. As with 
teachers, these skills need to be encouraged, fine-tuned and 
advanced so that their toolbox is fully stocked to meet the 
needs of the students and teachers in the school.
    The reauthorization of ESEA provides us with an opportunity 
to do just that. However, we have moved beyond just looking at 
the qualifications of teachers and school leaders. We are now 
beginning to focus on the effectiveness of teachers, leaders, 
and school districts. Let me emphasize our ultimate goal has 
not changed. It continues to be improving student achievement. 
I support measuring teacher effectiveness, but we need to have 
the wherewithal to move as smartly as we do quickly. These 
systems need to be developed in an open and transparent method 
and they need to be developed with the people that they will 
affect. That would be the students, the parents, the teachers, 
and the school administrators. This should not be a top-down 
directive solely from Washington far removed from local school 
districts, teachers, and students. Teachers, principals, and 
parents need to understand and define what is meant by an 
effective teacher and principal, how that differs from 
qualified and how those measures will be used in teacher and 
principal evaluation systems, and we need to listen. There is 
no doubt that we are moving in the right direction, but this 
will take time and hard work in order to get it right. To rush 
in without thinking it all the way through would be reckless 
and endanger the momentum we enjoy today to shift policy and 
practice to the measures of effectiveness.
    I am so pleased that we have a person from Wyoming 
testifying this morning, that he could join us today and share 
some of his experiences as a principal in Wyoming. He has 
provided great leadership in the State and can talk to us about 
the needs of principals in rural schools, and that is often 
different from those in urban and suburban counterparts. He 
also plans to discuss some of the changes proposed by ESEA and 
the impact they would have on rural schools and districts 
across the country. And I thank you for making the journey out 
here. I know how far it is. I know how far removed a lot of our 
communities are from the major transportation.
    I want to thank all the participants for being here today 
and sharing their perspectives. While we will not all get a 
chance to ask each of you a question, we may have questions 
that we need you to answer anyway. So I hope that you realize 
that you volunteered to answer written questions that we might 
submit as well.
    And I look forward to this morning's conversation and 
listening and learning. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi, and thanks for 
proposing this roundtable format. I am beginning to like it 
more and more.
    What we are going to do here is introduce our witnesses 
with brief introductions, and I have asked our staff to set the 
clock for 2 minutes. That is not much time, but we want to get 
more into a discussion with you. So you have just a couple of 
minutes. Tell us what the bullet point is that you really want 
to drive home to us on those two questions that we sent out to 
you? And then we will leave the record open for 10 days for 
other questions that we might want to submit to you.
    Senator Enzi. And their whole statement and anything they 
want to add will also be put in the record.
    The Chairman. Oh, yes, you are right. I went through some 
of the statements last evening and all of your statements will 
be made a part of the record in their entirety, without 
objection.
    I would like to start then with a brief introduction of our 
witnesses, and I will now turn to Senator Enzi for purposes of 
an introduction.
    Senator Enzi. Thank you, Mr. Chairman, because it is my 
pleasure to introduce Layne Parmenter, the Principal of the 
Urie Elementary School in Lyman, Wyoming.
    The Chairman. Where is that?
    Senator Enzi. For those of you not familiar with Wyoming--I 
was hoping you would ask--Lyman is in the southwest portion of 
the State. It has a population of 1,938. We are able to keep 
track of it that way. And of course, today since Mr. Parmenter 
is here, it is 1,937.
    [Laughter.]
    He is the Principal at the Urie Elementary School. He has 
been for the last 10 years, and prior to becoming a principal, 
he taught high school English, Spanish, and Italian.
    A former President of the Wyoming Association of Elementary 
and Middle School Principals, Layne currently serves as the 
Federal relations coordinator. He did a lot of jobs in Wyoming.
    Welcome to the HELP committee. All of us are looking 
forward to hearing from you today, and thank you for presenting 
your testimony too.
    The Chairman. Since I spent a part of my early life in Rock 
Springs, Wyoming, I thought that is the center of the universe. 
Where is Lyman from the center of the universe?
    Senator Enzi. It is about 90 miles the other side of Green 
River.
    The Chairman. West of Green River.
    Senator Enzi. Yes. Oh, yes, far west.
    The Chairman. Down by Little America.
    Senator Enzi. It is past Little America.
    The Chairman. Well, you are out in the middle of nowhere.
    [Laughter.]
    Mr. Parmenter. I am.
    The Chairman. Next, I would turn to Senator Alexander for 
purposes of an introduction.

                           Senator Alexander

    Senator Alexander. I would be delighted to. I did not know 
I would have that privilege, but I am delighted especially to 
welcome Dean Camilla Benbow from Vanderbilt University who has 
a distinguished career in her own right. Peabody College. 
Peabody, those of us from Tennessee say, is the leading college 
of education in the United States. And some other people 
outside of Tennessee think that as well. So we are glad that 
she is here today.
    The Chairman. However, my notes tell me that Ms. Benbow 
spent 12 years at Iowa State University.
    [Laughter.]
    Senator Bingaman.

                            Senator Bingaman

    Senator Bingaman. Thank you very much, Mr. Chairman. I want 
to introduce Diana Fesmire who is one of New Mexico's very best 
teachers and one of the country's very best teachers. She is 
the recipient of the 2008 Presidential Award for Excellence in 
Mathematics and Science Teaching. She began teaching in 1987 
and has taught at the Sierra Elementary School in Alamogordo, 
New Mexico since 1996. She continues to challenge herself and 
her students and works tirelessly to improve opportunities and 
outcomes for those students. I want to particularly thank her 
for agreeing to participate in the hearing today, and the 
committee will benefit greatly from her perspective and the 
perspective of teachers like her who have demonstrated skills 
and dedication and have acquired the experience that is needed 
to really understand this set of issues.
    Thank you very much.
    The Chairman. Thank you, Senator Bingaman.
    I would like to just briefly introduce the rest of our 
guests. Then, we will start with our conversation.
    First, we have Timothy Daly who serves as President of The 
New Teacher Project.
    Stephanie Hirsh is the Executive Director of the National 
Staff Development Council.
    We have Thomas Kane, Professor of Education and Economics 
at the Harvard Graduate School of Education, and Faculty 
Director of the Center for Education Policy Research.
    Ellen Moir, Executive Director of the New Teacher Center.
    Jon Schnur is the Chief Executive Officer and Co-Founder of 
New Leaders for New Schools.
    And we have Jose Valenzuela--not the baseball player--that 
is who I thought it was.
    [Laughter.]
    A teacher at TechBoston Academy and a graduate of the 
Boston Teacher Residency Program, a nontraditional prep 
program.
    We are grateful to have Randi Weingarten, President of the 
American Federation of Teachers, AFL-CIO, representing over 1.4 
million teachers, paraprofessionals, and school personnel.
    I do not think I missed anyone. Did I? No. I think we got 
everybody.
    Well, with that, the two questions that we provided to all 
of you was, number one, what support and leverage can the 
Federal Government provide to States and school districts to 
allow them to implement policies that ensure that all students 
have high quality teachers and leaders? Number two, how have 
you used evaluations and other data within your strategies, 
programs, or policies to improve teacher and leader success?
    Again, I am just going to go from left to right. I will 
start with Randi over here, and if you would just take a couple 
of minutes, and then we will hear from the rest of our 
witnesses. Then we would like to get into an open discussion.

 STATEMENT OF RANDI WEINGARTEN, PRESIDENT, AMERICAN FEDERATION 
                  OF TEACHERS, WASHINGTON, DC

    Ms. Weingarten. Thank you, Chairman Harkin, and thank you, 
Ranking Member Enzi, and thank you, committee members, for 
allowing us the opportunity to testify on the ESEA 
reauthorization, particularly as it relates to teachers, but I 
also want to thank you, Chairman Harkin, for introducing the 
Keep Our Educators Working Act yesterday to help preserve jobs 
for educators and maintain core academic programs because 
nothing we are going to say today is going to be actually 
helpful if the rug is pulled out from under kids, as is 
happening because of the budgets.
    So what I want to focus on is the critical role that 
teachers play in educating our students and to challenge the 
notion that teachers alone can provide our children with all 
they need to succeed in schools.
    Students will not do well in school if they are not taught 
by a well prepared and engaged teacher. But at the same time, 
neither can they succeed if teachers are not supported by 
competent administrators who understand the value and necessity 
of collaboration and support, have an environment in which they 
are asked to learn and teach, where that environment is safe, 
appropriately staffed and equipped, and there is shared 
accountability, not top down, not bottom up, but 360-degree 
accountability.
    It is often said that great teachers are not born, they are 
made. However, our Nation's approach to teacher quality 
suggests that we believe that the converse is actually true, 
that great teachers are born fully prepared for that role. The 
truth of the matter is that good teaching is an art built 
around a firm foundation. We must begin by making sure teachers 
receive good preparation in the schools that they attend. New 
teachers also need time to develop the skills and experience 
necessary for their initial assignments. High quality induction 
programs for new teachers should be required for all districts, 
and once the teacher is in the classroom, she or he should 
receive ongoing, embedded professional development that is part 
and parcel of a valid evaluation system. As you all know, we 
have proposed the overhaul of evaluation systems that do not 
simply provide snapshots but can be used to continuously 
develop and inform teaching and learning.
    Let me just say two other things and then I will stop.
    These requirements are not divorced from what students need 
to succeed. They are an integral part, along with the out-of-
classroom factors, in determining how well our students 
perform, which is part of the reason we are pushing so hard for 
the wraparound program so that we can actually compete with 
poverty because we know kids or teachers cannot do it alone.
    This reauthorization of ESEA presents an opportunity to 
improve teacher development and evaluation programs, to 
appropriately address school environment issues that limit the 
efforts to attract teachers to hard-to-staff schools, and to 
help narrow the achievement gap, and to ensure--and this is 
probably the two most important things that I will say--that 
teachers have the tools, trust, and time they need to succeed. 
We need to create a school environment that allows students to 
be supported by a team of teachers and administrators, not just 
the one teacher standing in front of a classroom, which is why 
collaboration not confrontation is key in our profession.
    Thank you.
    [The prepared statement of Ms. Weingarten follows:]
                 Prepared Statement of Randi Weingarten
    Chairman Harkin, Ranking Member Enzi and committee members, I am 
Randi Weingarten, president of the American Federation of Teachers 
(AFT). Thank you for inviting me to testify on the reauthorization of 
the Elementary and Secondary Education Act (ESEA), particularly as it 
relates to teachers.
    Before I begin, I would like to thank Chairman Harkin for his 
leadership in introducing legislation to help local communities 
preserve jobs for educators and maintain core academic programs. The 
Keep Our Educators Working Act provides critical resources to State and 
local governments for these purposes in the face of severe fiscal 
crises.
    I welcome the opportunity both to shine a light on the critical 
role that teachers play in educating our students, 90 percent of whom 
attend our public schools, and to challenge the notion that teachers 
alone (as wonderful as they are) can provide our children with all they 
need to succeed in school.
    Students will not do well in school if they are not taught by well-
prepared and engaged teachers. At the same time, neither students nor 
their teachers can succeed unless (a) the teachers are supported by 
competent administrators who understand not simply the value but also 
the necessity of collaboration; (b) the environment in which they are 
asked to learn and teach is safe, appropriately staffed and equipped; 
and (c) there is shared responsibility--not top-down accountability.
    The AFT firmly believes in and is committed to the proposition that 
high standards and expectations must be set for students and teachers. 
We know, however, that it makes no sense to simply set standards. We 
have to provide students and teachers with the tools they need to help 
meet those standards.
    It is often said that great teachers are not born, they are made. 
Despite the frequency with which it is said, our Nation's approach to 
teacher quality suggests that we believe the converse is true--that 
great teachers are born fully prepared for the role. The truth of the 
matter is that good teaching is an art built around a firm foundation. 
We must begin by making sure teachers receive good preparation in the 
schools that they attend. This is something the AFT addressed more than 
12 years ago in our report, ``Building a Profession.'' Graduation from 
teacher education or alternative certification programs should not be 
considered the end of training for teachers. New teachers need time to 
develop the skills and experience necessary for independent practice in 
their initial teaching assignments, including the skills necessary to 
work effectively with paraprofessionals and other support staff. To do 
this, high-quality induction programs for new teachers should be 
required for all districts.
    These induction programs should provide for a reduced load, to 
allow time for professional development activities--activities such as 
observing master teachers, talking with colleagues about teaching and 
learning, and responding to the guidance offered by mentors who review 
the novice teachers' practice and recommend strategies to improve their 
classroom performance. Such programs should include a high-quality 
selection process to identify and train mentor teachers; adequate 
training and compensation for these mentors; and time for them to 
genuinely teach, support and evaluate beginning teachers. Induction 
programs should be developed collaboratively by teachers and 
administrators.
    And, once a teacher is in the classroom, she or he should receive 
ongoing, embedded professional development that is part and parcel of a 
valid evaluation system. We have proposed the overhaul of existing 
systems so they don't simply provide snapshots but can be used to 
inform teaching and learning.
    These requirements are not divorced from what students need to 
succeed: They are an integral part--along with out-of-classroom 
factors--in determining how well our students perform.
    This reauthorization of ESEA presents an opportunity to improve 
teacher development and evaluation programs; to appropriately address 
school environment issues that limit efforts to attract teachers to 
hard-to-staff schools and impede teaching and learning; and to help 
narrow the achievement gap between advantaged and disadvantaged 
students. ESEA should also help ensure that teachers have the tools, 
time and trust they need to succeed, including offering teachers and 
students an environment that sets everyone up for success. Professional 
learning environments should include small classes, solid curriculum, 
healthy and adequate facilities (including the most current 
technology), and opportunities for parental involvement--these are 
components that school systems should be held accountable for providing 
teachers and students so they can succeed.
    It is also critically important that teachers have the time to 
share, grow and work together so they can resolve student issues, share 
lesson plans, analyze student work, discuss and replicate what works, 
and avoid replicating what isn't working. We need to create a school 
environment that allows students to be supported by a team of teachers 
and administrators, not just the one teacher standing in front of the 
classroom.
    One AFT priority (others are included in our formal 
recommendations), is to establish through ESEA a discretionary grant 
program for teacher centers that provide comprehensive professional 
development, information on research and curricula, and assistance for 
new and veteran teachers. Teacher centers also would provide an 
opportunity for teachers to direct their own professional growth, as 
well as to collaborate with their colleagues, community groups, 
foundations and universities on school improvement efforts. Programs 
would be funded through local education agencies (LEAs) and developed 
in collaboration with teachers unions. In New York City, teacher 
centers were a critical part of the Chancellor's District, a program 
that resulted in significant gains in student achievement.
    The reauthorization should also refocus the law on improving the 
quality of instruction by incorporating research-based professional 
development as well as curricular supports for teachers and 
paraprofessionals. In addition, a separate class-size reduction program 
with a concentrated formula for sending funds to high-poverty schools 
should be restored. This is important to students and their parents--as 
well as to teachers. Teachers will tell you this is critical to help 
them differentiate instruction for students and, in general, to help 
them know their students and their needs.
    Much has been written about how to staff schools that struggle. 
Attracting and retaining qualified teachers for low-performing schools 
cannot be accomplished simply by forcing teachers to transfer or 
offering to pay them more. Report after report--including those that 
survey teachers, such as the recent Gates study--makes this point 
abundantly clear. Instead, ESEA should provide Federal funding to help 
districts make the schools attractive places for students to learn and 
for teachers to teach. How can this be accomplished? First, physical 
plant and other working conditions need to be addressed, including 
creating a safe environment for employees and students. Second, 
meaningful professional development with ongoing instructional supports 
must be in place. Finally, ESEA should guarantee that teachers have a 
voice and an established role in developing and implementing policies 
that affect their students, profession and schools.
    In addition to supporting efforts to attract and retain qualified 
teachers, the AFT believes we need to take a serious look at how to 
improve teacher evaluation systems. There is general and widespread 
agreement that these systems do not work as currently constructed. The 
AFT has spent a great deal of time on this, working with a task force 
of our members and local and State leaders. We were helped in this 
effort by an advisory group of top teacher-evaluation experts. The AFT 
task force concluded, as outlined in a speech I gave earlier this year, 
that the common ground on teacher quality is to create systems that 
continuously develop and accurately evaluate teachers on an ongoing 
basis. Unfortunately, poorly constructed evaluation systems miss a 
prime opportunity to systematically improve teacher practice and 
advance student learning. In addition, the current systems, despite 
their deficiencies, too often form the basis for many consequential 
decisions, such as whether a teacher is deemed to be performing 
satisfactorily, receives tenure, or is dismissed for what is determined 
to be poor performance.
    To begin to develop adequate teacher development and evaluation 
systems, the ESEA reauthorization should establish a pilot program for 
LEAs that allows for the collaborative development and implementation 
of transparent and fair teacher development and evaluation systems. 
These models should aim to continuously advance and inform teaching as 
a means to improve student learning. The focus of such systems should 
be on developing and supporting great teachers, not simply on 
evaluating them. Investing in teachers and providing them with 
requisite supports must go hand in hand with the development and 
implementation of evaluation systems. These systems should be 
negotiated with the collective bargaining representatives or exclusive 
recognized representatives of teachers, and should include multiple 
measures of teaching practice as well as multiple measures of student 
learning. And these systems should drive support for teachers 
throughout their careers by including induction, mentoring, ongoing 
professional development and career opportunities.
    The goal of such a pilot is to develop more dynamic evaluation 
systems and learn from them. Instead of relying on inadequate measures 
like a single student test score, the goal must be to develop systems 
to help promising teachers improve, enable good teachers to become 
great, and identify those teachers who shouldn't be in the classroom at 
all. To adequately do this, we must take the time, with teachers, to 
develop a system of professional growth and evaluation that reflects 
the sophistication and importance of their work. Any valid evaluation 
pilot will consider both outputs (test data, student work) and inputs 
(school environment, resources, professional development). And it must 
deconstruct what is working and should be replicated, as well as what 
isn't working and should be abandoned.
    ESEA should also provide a clearinghouse so that best practices 
gleaned and implemented in the pilot projects can be disseminated 
broadly, with the goal of widespread replication throughout America's 
public schools.
    We know that a natural outgrowth of teacher evaluation systems will 
be differentiated compensation systems. We know from the first-hand 
experience of our affiliates that differentiated compensation systems 
developed and implemented with the full support and collaboration of 
teachers can succeed. We have seen too many top-down plans fail because 
they lacked teacher buy-in and collaboration.
    If the goal of differentiated compensation systems is simply to 
compensate teachers differently, systems can be easily developed that 
sort teachers into ``effective'' and ``ineffective'' categories and 
compensate them accordingly. But if the goal is to improve teaching and 
learning, compensation systems must be one component of comprehensive 
teacher development and evaluation that supports and nurtures 
educators' growth as well as evaluates their performance and affects 
their compensation.
    As president of a labor union, it is my job to represent our 
members, and I succeed in that job only when I help them do their jobs 
well. They make it easy because of their extraordinary commitment to 
providing their students with the best education possible. Last summer, 
we asked our members the following question: When your union deals with 
issues affecting both teaching quality and teachers' rights, which of 
these should be the higher priority--working for professional teaching 
standards and good teaching, or defending the job rights of teachers 
who face disciplinary action? By a margin of 4 to 1 (69 percent to 16 
percent), AFT members chose working for professional standards and good 
teaching as the higher priority.
    No one should ever doubt that teachers want to do what's best for 
their students, and they want to be treated as professionals. No 
teacher--myself included--wants ineffective teachers working alongside 
them. Schools are communities where we build on each other's work. When 
a teacher is floundering, there are not only repercussions for the 
students, but also for the teachers down the hall. When it comes to 
those teachers who shouldn't be in the classroom, it is other teachers 
who are the first to speak up.
    They--and the AFT--want a fair, transparent and expedient process 
to evaluate teachers so that those who need help receive it, and those 
who don't improve after being provided with help can be counseled out 
of the profession. Simply talking about ``bad teachers'' may give 
comfort to some, but it does nothing to build a teacher development and 
evaluation system that will support and strengthen good teaching and 
great teachers. And that is why we will continue to speak out against 
those who believe that simply subjectively removing teachers is the 
answer, while they ignore the tough but important work required to 
develop a more comprehensive teacher development and evaluation system.
    Imagine a system in which teachers have time to work together to 
tackle issues around student learning, share lesson plans, analyze 
student work, discuss successes and failures, and learn through high-
quality professional development. Imagine a system in which students 
can't fall through the cracks--because they're backed by a team of 
teachers, not just the one at the front of the room. I just saw that 
this week at a school in Albuquerque, NM--Ernie Pyle Middle School--
which is turning around through collaboration among not just teachers 
but all stakeholders.
    In addition to tools and time, we must also foster a climate of 
trust. Teachers must be treated as partners in reform, with a real 
voice. Trust isn't something that you can write into a contract or 
lobby into law. Trust is the natural outgrowth of collaboration and 
communication, and it's the common denominator among schools, districts 
and cities that have achieved success.
    Teaching isn't magic. It's hard, rewarding work that requires 
skill, patience, experience, love of children and support from others. 
It can't be done well without all of the things I've talked about here, 
nor can it be done well if students don't have their needs met outside 
the classroom. We can't wish our way to quality teaching and an 
education system that gives every child, no matter her ZIP code, a 
great education. We have to legislate, implement and support our way to 
those goals. This reauthorization is an opportunity to do just that.
    Thank you again for this opportunity to present the views of the 
AFT and our 1.4 million members on this important matter.

    The Chairman. Thank you, Randi, very much.
    Now we will go to Diana Fesmire.

   STATEMENT OF DIANA S. FESMIRE, TEACHER, SIERRA ELEMENTARY 
                     SCHOOL, ALAMOGORDO, NM

    Ms. Fesmire. We are here today to examine how we can 
support the work of States and school districts to get a great 
teacher in every classroom and a great leader in every school. 
The good news is there are already many great teachers and 
great leaders in our schools, and most of America's 3 million 
teachers strongly desire to be great. They are spread 
throughout a continuum on their journey to greatness.
    My district's 6,800 students are highly mobile and 
linguistically, ethnically, and socioeconomically diverse. Yet, 
I often say it is a great day to be a student in Alamogordo 
public schools. Why? Our students are excelling because of good 
decisions and hard work. Over the past 23 years, I have seen 
the teaching profession transformed. We have moved from a 
content-centered practice to a student-centered framework of 
instruction. I have seen standards developed for reasoning and 
sense-making in mathematics and new assessments generate data 
to support and improve my instruction.
    While we still have a long way to go to ensure all students 
graduate high school ready for college or high-skilled work, 
the teaching profession and my teaching practice has 
significantly improved.
    Becoming a great teacher is a journey that requires ongoing 
support at the State, district, and school level. Thoughtful 
decision-making directly impacts my classroom, well-crafted and 
appropriate content and process standards, and assessments that 
reveal what students have learned inform my instruction. Great 
teachers are lifelong learners. The best support you can give a 
teacher is outstanding and effective professional development, 
paired with district and building level instructional support.
    Efforts like these are more effective with ample resources. 
Federal funds make a significant difference when fitted to a 
district's own journey.
    While the current Elementary and Secondary Education Act 
has its flaws, it is moving in the right direction, improving 
education for every child in America's schools. Like most of 
the teachers in America, ESEA is on a journey to becoming 
great. With the right support and a lot of hard work, we will 
soon be able to say it is a great day to be a student in 
America's public schools.
    Thank you.
    [The prepared statement of Ms. Fesmire follows:]
                 Prepared Statement of Diana S. Fesmire
    The invitation letter to this hearing stated, ``The purpose of the 
roundtable is to examine how we can support the work of States and 
school districts to get a great teacher in every classroom and a great 
leader in every school.'' The good news is that there are already many 
great teachers and great leaders in our schools. I am honored to be 
here today to represent them. Most of America's 3 million teachers 
strongly desire to be great and are spread throughout a continuum on 
their journey to reaching that goal. I'd like to share with the 
committee today some of the details of my own career path, focusing on 
how the support of my State, district, school and colleagues has helped 
me improve my practice.
    I teach in Alamogordo Public Schools, in Southern New Mexico, the 
proud home of Holloman Air Force Base. Our 6,800 students are highly 
mobile and linguistically, ethnically, and socio-economically diverse. 
We are facing the economic struggles challenging the rest of the 
country. Yet I often end conversations with, ``It's a great day to be a 
student in Alamogordo.'' Why? Our students are excelling because of the 
hard work and good decisions of the New Mexico Public Education 
Department, Alamogordo Public School District, and Sierra Elementary 
School teachers and leaders in response to Federal requirements to 
improve K-12 education.
    Becoming a great teacher is a journey that requires ongoing support 
at the Federal, State, district, and school level. That support takes 
the form of thoughtful decisionmaking that directly impacts my work in 
the classroom--well-crafted and appropriate content standards, and 
assessments that not only reveal what students have learned but inform 
my instruction so that I can help students meet the standards expected 
of them.
    Teaching is a commitment to one's own learning and to the learning 
of students in one's care. Great teachers are life-long learners. The 
best support you can give a teacher is outstanding and effective 
professional development paired with district and building level 
instructional support.
    Efforts like these are made more effective when there are ample 
resources to support them. My experience in my district has been that 
Federal funds can make a significant difference when fitted to a 
district's own journey.
    And finally, teaching and learning is hard work, but work that can 
be accomplished when the goals for students, teachers, districts and 
States are realistic. That hard work deserves celebrations of success.
My Early Years in the Classroom
    During my entire career there have been expectations for teacher 
performance. When I began teaching 23 years ago, I worked hard to 
understand and analyze the mathematics I taught. I started on the first 
page of my math textbook and followed a pacing guide so that I could 
finish the book by the end of the year. I created chants and mnemonic 
devices to help students memorize procedures for computation. 
``Dividing fractions, don't ask why, flip the second number and 
multiply.'' I would do a few examples and call on students who raised 
their hands to supply one word answers as I explained the traditional 
algorithm or procedure. Then the students worked individually at their 
desks on a set of similar exercises attempting to replicate my 
procedure as I circulated and answered questions.
    In the first half of my teaching career, our State assessments were 
norm-referenced and the multiple-choice questions covered topics 
several grade levels below and several grade levels above the student's 
grade. This was necessary to compare students and determine an accurate 
percentile rank. These comparisons were used to tell parents, ``Your 
child did better than 95 out of 100 others who took this test. We are 
going to place him in the top math class next year.'' My classroom 
assessments and communication with parents indicated a comparative, 
overall level of success for each student. I would say to a parent, 
``Your child is a B math student who consistently turns in all her 
homework.'' In these early years of my career, I had limited 
information about what my students knew or where I needed to focus my 
instruction.
    I was evaluated primarily on whether I had covered the curriculum, 
not whether my students actually learned it. Teacher evaluations were 
an isolated event. My principal would schedule my annual evaluation--a 
visit to one 45 minute class. I would extensively prepare for this 
lesson. She would come in and sit in the back with her clipboard 
checking off the 65 indicators on the triplicate form. The results 
would be placed in my mailbox and my personnel file. These results did 
not improve my instruction or my students' learning.
    My teaching, my testing, and my evaluation are all very different 
today and my students are the initial beneficiaries of these changes. 
My teaching colleagues need similar opportunities to grow, to reflect 
and to change and it is these opportunities that will result in ``great 
teachers in every classroom.'' The long term beneficiary is our country 
as we strive to ensure all our students graduate high school--ready for 
college or high-skill work.
Rigorous Standards and Assessments
    New Mexico teachers and leaders have developed and adopted rigorous 
academic standards in core academic content areas. Our math standards, 
recognized by the National Math Panel, focus on the ``doing of math'' 
as well as the content of math at age appropriate levels. Students 
solve problems, evaluate the reasonableness and justify the answers. 
The New Mexico Standards Based Assessment (SBA) items are carefully 
developed to assess student knowledge on grade level standards using a 
hybrid of multiple choice and open-ended questions.
    For students to be able to write about their thinking and answer 
the open-ended items on our State assessment, they need consistent 
experiences talking about their thinking during math instruction. 
Leading class discussions and helping students refine their 
understanding through communication is an important part of how I have 
improved my teaching. New Mexico's high-quality assessment 
appropriately measures my students' depth of knowledge of our process 
and content math standards.
    The New Mexico State academic assessments provide data at the 
standard level for individual students. In the initial years of the 
assessment, my colleagues and I spent hours hand-calculating this data 
before we could use it to impact instruction. Now, Alamogordo Public 
Schools uses Federal funding to provide access to a technology system 
called Alpine Achievement, which analyzes the data and presents it to 
teachers and administrators in a usable format, so we can use our 
collaborative time more effectively using the data to impact 
instruction.
    Teachers in my school use the results from the NMSBA in three main 
ways. First, we analyze school-wide data for strengths and weaknesses. 
For instance, we discovered that our students performed poorly in one 
area of Data Analysis. Students need to be able to ``formulate 
questions that can be addressed with data; and collect, organize, and 
display relevant data to answer those questions''--a critical skill for 
21st century citizens bombarded by data. Careful research showed us our 
curriculum was weak in this area. We then developed mathematical tasks 
appropriate to each grade level. Teachers used these tasks in their 
classroom on a biweekly basis and discussed results in grade level 
meetings. Our average score on this Benchmark has steadily improved 
since this intervention, so we now have evidence that our students are 
becoming more proficient in this important skill. Secondly, individual 
teachers look at the data from the prior year's class for strengths and 
weaknesses in instruction. Personally, I have reflected on my practice; 
searched out professional development, books, and resources; and 
utilized my colleague's expertise to make improvements. Finally, with 
the support of an instructional coach, the teacher can carefully 
analyze the individual results for current students. This data helps 
the classroom teacher make instructional decisions, work with students 
individually, and focus small group work to strengthen understanding.
    My school also uses benchmark (or ``formative'') testing throughout 
the year to make instructional decisions. This benchmark testing is 
also part of each teacher's professional development plan as we set 
goals to raise student achievement as measured by these quarterly 
assessments. These assessments gauge student growth and allow teachers 
the most benefit from analyzing results. Comparing this year's students 
with last year's students tells us nothing about student learning. I 
have to know my students' level of understanding when they enter my 
classroom, and it is my responsibility to move them along in their 
learning. If there is a desire to link teacher evaluation in some way 
with student results, we must use authentic assessment and a ``growth 
model.'' I view assessment data as an essential tool in my teacher 
toolkit to improve instruction. A thorough understanding of the 
Standards required of my students and analyzing data in the context of 
those standards has helped to focus my practice upon my students' 
academic needs instead of the sequence of a curriculum pacing guide. 
This instructional shift has shown positive results in the classrooms 
of Alamogordo Public Schools. Data (knowing our students as learners) 
can help us become better teachers.
Supporting Effective Teachers Through Professional Development
    During my teaching career, cognitive science has made important 
discoveries about how people learn. The National Council for Teachers 
of Mathematics has developed and refined standards for math instruction 
for Kindergarten through Grade 12 students. The Federal Government, 
through the National Science Foundation, provided funding to develop 
Standards-Based Mathematics Curricula for elementary and middle school 
students. This research and these resources have strengthened our 
understanding of the art and science of teaching. They are only useful, 
though, if they impact the daily instruction of America's classrooms. 
My experience is that the best support you can give a teacher is world 
class professional development, paired with district and building level 
instructional support. The pivotal experience in my own professional 
development came from Math Solutions. My district sent me to a 5-day 
summer course, About Teaching Math. That course changed my 
instructional practice more than any other single event in my career. 
When taking the About Teaching Math course, I realized students needed 
to make sense of the math, not just repeat exercises. The instructors 
helped me see my role as a facilitator of understanding. In subsequent 
courses and through the study of instructional resources, I have 
learned specific strategies for classroom discussion to help students 
communicate their understanding and, as importantly, their confusion. I 
continually strive to improve my teaching strategies, my understanding 
of how children learn, and my content knowledge. All good teachers 
strive to become better teachers, and I urge the Senate to support us 
in these efforts by funding effective professional development.
    What I have learned is that great teachers understand the direct 
link between their own learning to their students' success and that 
great teachers never stop learning. One thing I know for certain is 
that I will never ``know it all.'' I find myself, like my students, 
using technology to connect with colleagues and experts across the 
country and around the world. My current focus is on assessment: How do 
I find out what students know, how do I keep track and communicate this 
information, and how does it impact continuing instruction in my 
classroom?
Locally Supporting Change and Raising Quality
    In the last few years, Alamogordo Public Schools has developed a 
very supportive environment for reflective teaching. Wisely using 
Federal funding, we established best literacy practices and a local 
elementary math initiative. We have established instructional coaches 
to guide teachers and allowed classroom teachers many professional 
development opportunities. These included attending professional 
conferences and week-long summer programs, bringing experts to our 
district both live and through web-based interactions, and creating 
time for teachers to collaborate. At grade-level meetings, classroom 
teachers, the instructional coach, and the principal analyze student 
data and adjust our goals and plans using the Plan, Do, Study, Act 
model. We have monthly Continuous Improvement/Advisory days to 
collaborate within our school and with our partner schools through the 
Professional Learning Community model as we refine our Best Teaching 
Practices and implement a standards-based math curriculum. Through 
vertical articulation meetings, we determine how prepared the students 
are, identify gaps in prerequisite knowledge, and plan how to address 
those gaps. We utilize collaborative coaching, videotaping, and 
journaling, and we discuss professional resources to strengthen our 
practice. Alamogordo Public Schools is implementing Standards-Based 
Report Cards, annually adding one grade level. We are asking hard 
questions and taking steps toward increasing student achievement and 
accurately reflecting that achievement. Today my classroom assessments 
and conversations with parents focus in depth on what each individual 
student knows. ``Your child is great at computation. We are working on 
building his geometry skills. At home you might encourage him to play 
with building toys or try a game for his video system like Tetris.''
    Finally, the evaluation of teachers has also evolved over the years 
in which I have taught. Alamogordo Public Schools has worked to help 
principals understand their roles as instructional leaders in their 
building. My principal, Paul Sena, is a master at balancing the many 
roles of an effective elementary school principal. He often visits my 
classroom during instruction in a non-interruptive way. He visits with 
students and has a clear picture of the instruction happening in our 
building. Mr. Sena supports instructional changes as I work toward 
being a great teacher, in part because; he is an informed and active 
participant in this reform. My instructional coach observes my teaching 
and together we reflect on ways to increase my effectiveness. I believe 
the current evaluation process in my district allows me to be 
reflective and continually improve my practice.
    In other words, my colleagues and I are given opportunities to 
share, to grow and to interact about key issues of curriculum, 
instruction and student achievement. We make effective use of data, we 
focus on pedagogical practices, and we hold ourselves accountable for 
every student's success. Because our district has high expectations, we 
rise to and above those expectations and our students are the winners.
Engaging and Empowering Students
    If you walked into my classroom today and asked, ``Where's the 
mathematician in this room?'' all of my students would raise their 
hands. I believe that is the greatest evidence of the effectiveness of 
my teaching: my students see themselves as doers of math, as readers, 
writers, and members of a community working together towards a common 
goal of learning. They share ideas, listen to each other, and together 
build understanding. In my classroom, math is explored using 
worthwhile, engaging, and authentic mathematical tasks. I use explicit 
instruction and modeling to help students communicate understanding, 
clearly represent thinking, and justify reasoning using appropriate 
math vocabulary.
    My students have very diverse backgrounds. We celebrate the 
contributions of all students, but I am also careful to explicitly 
teach and reinforce mathematical and situational vocabulary. I employ a 
variety of concrete and technology tools to introduce and build 
concepts and allow the students continued access to those tools. I 
facilitate student work as individuals, partner pairs, cooperative 
learning groups, whole group, and homogeneous intervention groups.
                               conclusion
    Several years ago, as my class prepared for the State assessment, I 
reminded my students that the test was a chance for them to show how 
much math they had learned this year. A student interrupted stating, 
``And we know a lot of math!'' I chuckled, the class giggled, and we 
all relaxed as I began to read the directions. Although the student had 
interrupted me, she was right, and the reminder to everyone was well-
timed. Starting the year new to our school with skills below her grade 
level, this student had worked hard to rise to the level of 
expectations in my classroom. Now as the State test arrived, she felt 
confident and prepared. When results arrived, she earned a proficient 
score for the first time. School-wide, our students' scores in 
Alamogordo continue to rise each year. Our school is doing a great job 
of teaching the diverse children of our community. However, as 2014 and 
the 100 percent proficient requirements of the current legislation 
loom, even a highly successful school like mine begins to worry. As a 
mathematician and an educator, I believe that 100 percent proficiency 
is not only unrealistic but also counter-productive. On any assessment, 
no matter how well designed; there will be anecdotal reasons why a few 
students' performance does not realistically represent their 
understanding.
    While the current Elementary and Secondary Education Act (No Child 
Left Behind) has its flaws, it is moving in the right direction of 
improving education for every child in America's schools. Like most of 
our teachers, ESEA is on that journey to becoming great. And with the 
right support and a lot of hard work, we will soon be able to say, 
``It's a great day to be a student in America's Public Schools.''
    I am grateful for the opportunity you've given me to address the 
committee. I took time out of my classroom this week because I think it 
is critical for the leaders of our Nation to hear from the leaders of 
our future. Thank you very much.

    The Chairman. Thank you very much, Ms. Fesmire.
    And now we will turn to Timothy Daly.

STATEMENT OF TIMOTHY DALY, PRESIDENT, THE NEW TEACHER PROJECT, 
                          BROOKLYN, NY

    Mr. Daly. Thank you.
    I suspect we can all agree that our Nation's education 
system is not fully doing its job. Instead of opening doors of 
opportunity, too often we are slamming those doors in the faces 
of our students, especially poor and minority students. And 
this, I think we can agree, is shameful.
    I am the President of The New Teacher Project, a nonprofit 
organization dedicated to ending the injustice of educational 
inequality. We were founded by teachers, and we believe 
strongly that great teachers hold incredible power to solve 
this crisis.
    Why do we put so much faith in teachers? Because 2 decades 
of research has shown that nothing schools can do for students 
matters more than giving them great teachers, not reducing 
class size, not improving curricula, not anything else. Having 
excellent teachers instead of ineffective teachers can quite 
simply change a student's life.
    But as we documented in study last year called The Widget 
Effect, most school districts treat teachers like 
interchangeable parts, even though we know that they are the 
furthest from it. In the districts that we studied, less than 1 
percent of the teachers--less than 1 percent--were rated as 
unsatisfactory even in schools that had been failing students 
for years.
    To be clear, as Randi pointed out, teachers are not solely 
responsible for their students' success. All professionals that 
are working with schools must be accountable for this goal. For 
example, we should absolutely hold principals accountable for 
providing the feedback and support that teachers need to do 
their best work. But ignoring the differences between teachers 
disrespects the teaching profession and gambles with the lives 
of students.
    Today great teaching goes unrewarded. Poor teaching goes 
unaddressed, and tragically the most at-risk students are 
consistently and systematically denied access to the greatest 
teachers.
    Fortunately, the education community is increasingly united 
in its commitment to reverse the widget effect. Secretary 
Duncan and some of my fellow panelists, including Randi 
Weingarten, are among those calling for more rigorous 
evaluation systems that recognize these differences.
    Congress can do three things.
    First, require districts in the near term to have more 
legitimate evaluation systems. Evaluation should occur 
annually, place significant weight on student achievement, and 
have multiple rating levels.
    Secondly, demand progress on equitable distribution of 
effective nonqualified teachers.
    And third, fund strategically. Strategic funding means 
supplementing a base or formula funding with competitive 
funding that encourages districts and States to accelerate 
progress. The Race to the Top is a good example. While people 
of reasonable faith can disagree about aspects of the contest, 
it created an urgency that was sorely lacking for decades.
    Thank you.
    [The prepared statement of Mr. Daly follows:]
                   Prepared Statement of Timothy Daly
                                summary
    Thank you Chairman Harkin, Senator Enzi, and members of the 
committee. I appreciate the opportunity to speak with you today.
    I suspect we can all agree that our Nation's education system isn't 
fully doing its job. Instead of opening doors of opportunity, too often 
we are slamming those doors in the faces of our students--especially 
poor and minority students. This is shameful.
    I'm president of The New Teacher Project (TNTP), a nonprofit 
organization dedicated to ending the injustice of educational 
inequality. TNTP was founded by teachers, and we believe strongly that 
great teachers hold incredible power to solve this crisis.
    Why do we put so much faith in teachers? Because two decades of 
research has shown that nothing schools can do for students matters 
more than giving them great teachers--not reducing class size, not 
improving curricula, not anything else. Having excellent teachers 
instead of ineffective teachers can change a student's life.
    But as we documented in our 2009 study, The Widget Effect, most 
school districts treat teachers like interchangeable parts, as if they 
were all the same--even though we all know that's not true. In the 
districts we studied, less than 1 percent of teachers--1 percent!--were 
rated ``unsatisfactory,'' even in schools that have been failing 
students for years.
    To be clear, teachers are not solely responsible for their 
students' success. All professionals working with schools must be 
accountable for this common goal. For example, we should absolutely 
hold principals accountable for providing the feedback and support 
teachers need to do their best work. But ignoring the differences 
between teachers disrespects the teaching profession and gambles with 
the lives of students. Today, great teaching goes unrewarded, poor 
teaching goes unaddressed, and, tragically, the most at-risk students 
are consistently and systematically denied great teachers.
    Fortunately, the education community is increasingly united in its 
commitment to reverse the widget effect. Secretary Duncan and some of 
my fellow panelists, including Randi Weingarten, are among the many 
leaders calling for more rigorous evaluation systems that recognize 
differences between teachers and help them do their jobs better. I will 
quickly highlight three ways Congress can improve Federal policy when 
it reauthorizes ESEA:

    <bullet> First, require districts to implement more legitimate 
teacher evaluation systems in the near term. Credible evaluations have 
multiple rating levels, occur annually, and place significant weight on 
evidence of student academic growth. We cannot provide students with 
equitable access to effective teachers if we don't know how effective 
our teachers are. While it may be necessary to phase in better 
evaluations over a few years, the difficulty of the task cannot become 
an excuse.
    <bullet> Second, demand progress on equitable distribution of 
effective--not ``qualified''--teachers. Once we have better ways to 
measure performance, that information must be used to ensure that 
children living in poverty no longer are the last in line for getting 
great teachers.
    <bullet> Third, fund strategically. Strategic funding means 
supplementing a base of formula funding with competitive funding that 
encourages districts and States to accelerate progress. Race to the Top 
is an excellent example. While reasonable people can disagree about 
aspects of the contest, it generated urgency that was sorely lacking in 
most States for decades.

    With your help, we can take a giant step toward providing all our 
students the teachers they deserve.
    Thank you again for inviting me, and I look forward to your 
questions.
                                 ______
                                 
    Thank you Chairman Harkin, Senator Enzi, and members of the 
committee. I appreciate the opportunity to speak with you today about 
how the Elementary and Secondary Education Act can focus our schools on 
giving all students excellent teachers and a world-class education.
    As president of The New Teacher Project, a nonprofit organization 
founded by teachers, I am reminded daily of the incredible impact that 
great teachers have on their students, and how important it is that we 
find, develop and keep the very best.
    The New Teacher Project's mission is to end the injustice of 
educational inequality by providing excellent teachers to the students 
who need them most and by advancing policies and practices that ensure 
effective teaching in every classroom. Since 1997, we have recruited or 
trained approximately 37,000 teachers for over two dozen high-need 
urban and rural districts across the country using rigorous selection 
and training methods, and published a series of studies on the policy 
barriers that keep our public schools from building a thriving teacher 
workforce. In the past 4 years, we have surveyed more than 30,000 
teachers across almost 25 districts on matters ranging from hiring 
timelines to evaluation systems; their opinions are the basis for many 
of our research findings and policy recommendations.
    In our organization's work with high-poverty school systems across 
the country, we face stark reminders of the urgency of this effort. 
America's public schools should function as equalizers, giving poor and 
minority students a chance to overcome disadvantages and prepare for 
the future. Yet in districts across the country, our schools have often 
done little more than systematize failure.
    Our education system offers universal access, but falls far short 
of universal quality--especially when it comes to providing our young 
people with access to the one resource that makes all the difference: 
effective teachers. Decades of research prove beyond any doubt that 
teachers have a greater impact on student academic outcomes than any 
other school factor. Yet students in urban and high-poverty schools are 
less likely to have highly effective teachers than their more affluent 
peers. As a result, extraordinary numbers of students are effectively 
denied a quality education.
    The ramifications are dire. By the end of high school, African-
American and Hispanic students read and do math at virtually the same 
level as 8th grade White students. In the Nation's largest cities, 
where poor and minority students are most concentrated, the chance of 
graduating high school amounts to little more than a coin toss. And 
make no mistake--as the recession warps communities and shifts 
demographic patterns across America, the challenges our cities and 
rural areas face today will confront our inner-ring suburbs tomorrow.
    This shameful achievement gap is, we believe, the greatest civil 
rights issue of our generation. But, in addition to the tragic moral 
dimension to this problem, there is an equally compelling economic 
dimension: a recent study by the leading consulting firm McKinsey & 
Company found that the economic impact of our failure to properly 
educate millions of our students is akin to the economic value lost to 
our Nation during the Great Depression.
    Yes, it is true that students living in poverty face unique 
challenges, and it is foolish to ignore the broader needs of all 
children and their families. But we should not fall prey to the 
comforting fallacy that we are holding up our end of the bargain when 
it comes to providing good classroom instruction. We can do far more. 
We can get dramatically better results despite the obstacles we 
confront. How can I be so sure of this? Because there are literally 
thousands of schools and teachers helping their students achieve at 
high levels year after year in spite of the challenges of poverty. 
Failing to demand these results for all of our children is an insult to 
the dignity of poor and working families.
    It has become increasingly clear that effective teachers are the 
best and most practical solution to this quiet crisis. Nothing our 
schools can do for students matters more than giving them great 
teachers--not reducing class sizes, not improving curricula, not 
modernizing classrooms. Nothing. Give the same group of students three 
excellent teachers in a row instead of three low-performing teachers in 
a row, and you will put them on a wildly different path--one that leads 
to the doors of college or a career rather than the hard road of a 
dropout.
                    our challenge: the widget effect
    Tragically, while we all recognize that different teachers achieve 
very different results, we treat teachers as if they were all the 
same--as if one teacher were interchangeable with any other. Our 2009 
study, The Widget Effect: Our National Failure to Acknowledge and Act 
on Differences in Teacher Effectiveness, documents this widespread 
problem and its grave implications for teachers and students.
    The study examines 12 school districts across four States--
districts as diverse as Chicago, Illinois and El Dorado, Arkansas--and 
incorporates feedback from over 15,000 teachers and 1,300 principals. 
It describes how teacher evaluation systems fail to recognize either 
outstanding or poor teaching, instead lumping all teachers into the 
same category. Collectively, in the districts studied, less than 1 
percent of teachers were officially identified as ``unsatisfactory,'' 
even in schools that have been failing students for years.
    As the study shows, ignoring the differences between teachers has 
real consequences. If we don't know which teachers are doing a great 
job moving their students ahead academically, which teachers are doing 
a good job, and which are only doing a fair or poor job, then we have 
no way of holding on to our best teachers, giving all our teachers the 
feedback they need to improve, or addressing those few teachers who are 
actually pulling their students backwards with every class.
    And in fact, our study revealed that districts do not use teacher 
evaluations for decisions about pay, tenure, promotion or development 
and support. Instead, they tend to use evaluations only to determine 
whether a teacher is incompetent and should be fired--and they do a 
poor job even of that. At least half of the 12 districts studied have 
not dismissed a single tenured teacher for poor performance in the past 
5 years.
    These challenges and their repercussions extend to cities and 
school districts in many of the States represented by members of this 
committee. For example:

    <bullet> In Colorado, 99 percent of Denver teachers earned a 
``Satisfactory'' rating on their most recent evaluation and areas of 
improvement were identified for only 40 percent of teachers. The 
feedback given to the few teachers who have areas of performance 
identified as in need of improvement is so vague that the most common 
response when asked which area they were asked to improve was ``don't 
know.''
    <bullet> In Minnesota, the absence of credible information about 
teacher performance and the inability to use it in critical decisions 
means that 98 percent of Minneapolis principals reported having lost a 
teacher to layoff whom they wanted to keep, almost double the rate in 
other urban school districts.
    <bullet> In Ohio, not a single teacher in Cincinnati has been rated 
unsatisfactory in the ``Teaching and Learning'' category of the 
district's evaluation system over the past 5 years. In Akron, where 
over 90 percent of continuing contract teachers received one of the top 
two evaluation ratings during the last 3 years, only 38 percent of 
teachers and 25 percent of principals believe the evaluation process 
helps teachers improve their instructional performance. Even in Toledo, 
home to one of the most heralded teacher evaluation and support 
systems, the Peer Assistance and Review program, just 3 out of 1,105 
teachers received an ``Unsatisfactory'' evaluation rating over a 5-year 
period.
    <bullet> In Oregon, staffing policies that ignore the differences 
between teachers in Portland Public Schools until recently caused 
widespread forced-placement and bumping of teachers into and out of 
their positions. This in turn led to sky-high attrition, with almost 2 
in 5 new teachers leaving the district within 2 years--not because they 
did not like their jobs, but because they had more control over their 
school placement by leaving Portland than by staying.
    <bullet> In Washington, less than half of the more than 100 
administrators surveyed across three school districts are satisfied 
with the quality of math and science instruction in their schools; in 
high-poverty schools, that number drops to less than a quarter. 
Meanwhile, less than a third of the more than 1,000 teachers surveyed 
in the same districts agree or strongly agree that the evaluation 
process accurately differentiates teachers based on their 
effectiveness.
    How can this be happening in 2010? And what would lead us to 
believe that we can improve educational outcomes without changing these 
unacceptable trends?
    The education community is unanimous that the ``widget effect''--
this tendency to view and treat teachers as interchangeable parts--must 
become a thing of the past. It disrespects teachers and gambles with 
the lives of students. Upon the release of our report, both Dennis Van 
Roekel, President of the National Education Association, and Randi 
Weingarten, President of the American Federation of Teachers, joined 
Secretary Duncan, governors Bredesen and Ritter, Congressman George 
Miller, and many others calling for more rigorous evaluation systems 
that recognize the differences between teachers.
       the role of federal policy in reversing the widget effect
    Discussions about school reform are filled with talk about 
delivering on the promise of public education. But treating teachers as 
interchangeable parts not only demeans the teaching profession; it 
fulfills the wrong promise. The job of school districts is not simply 
to put teachers in every classroom, regardless of their effectiveness. 
It is to deliver an education. What matters is that students learn.
    Over the last several years, it has become clear that Federal 
policy plays a huge role in helping districts focus on the right 
promise. Regardless of its shortcomings, No Child Left Behind changed 
what it means to be a successful school. For years, a ``successful 
school'' in the eyes of State and Federal Governments was one that 
complied with the right regulations and checked the right boxes on the 
right forms. Today, it is almost universally accepted that a successful 
school is one that actually helps its students learn. The focus now is 
on educational outcomes, not inputs.
    This was a huge conceptual shift. Unfortunately, while it is now a 
matter of Federal policy to define a good school as one that helps 
children learn, it is not yet a matter of Federal policy to define a 
good teacher in the same way. When it comes to teachers, NCLB continued 
the focus on qualifications instead of effectiveness--inputs instead of 
outputs.
    For that reason, another conceptual shift is underway. To build a 
top teaching force, we believe that it is imperative that districts 
actively manage teacher effectiveness, and make it a focus of policies 
on recruitment, development, compensation, promotion, and dismissal. To 
be truly effective, these reforms cannot be incremental and tentative. 
They must be comprehensive and seismic. They must be transformative. We 
need to make a dramatic shift from essentially ignoring a teacher's 
impact on student academic growth to making accurate assessments of 
that impact the driving factor in every decision that affects the 
teacher workforce.
    Above all, success in the teaching profession must be defined 
largely in terms of student performance. Student achievement data, 
though imperfect, can provide strong objective evidence of teachers' 
abilities to help their students learn. Great teaching means more than 
a test score, yet even the most inspiring teacher cannot be deemed 
effective if his or her students show no measurable evidence of growth. 
So how do we realize this shift, and stop treating teachers like 
widgets?
    First and foremost, we must demand better teacher evaluation 
systems. We need multi-dimensional teacher evaluation systems that 
fairly, accurately and credibly measure how well teachers increase 
student achievement, and we need to use this information as a core 
factor in decisions about hiring, compensating, developing and 
dismissing teachers.
    It is a disgrace that more has not been done on this issue already. 
For decades, our teacher evaluation systems have relied on rote 
observations and checklists of teacher behaviors and other factors--
such as classroom neatness--that have little or nothing to do with 
student outcomes. But what makes teachers great is not the orderliness 
of their bulletin boards, the impressiveness of their credentials, or 
even their years of experience; it is their consistent ability to 
advance student learning.
    How we measure a teacher's impact on student academic growth will 
vary. For some teachers, value-added models based on standardized test 
scores will provide one useful source of information, particularly when 
multiple years of data show consistently outstanding or poor 
performance. For most teachers, however, we have to create other 
measures of their impact on academic growth, such as periodic 
examinations of student work according to standard rubrics and 
district- or school-designed assessment results.
    But no matter which tools we use, we must move beyond the tired 
arguments about whether teachers need more accountability or more 
support. We know that they need both, and we can only provide what 
teachers need if we can genuinely assess their performance and put this 
information to use.
    As a nation, we are poised at a unique moment of opportunity for 
real education reform. National policies that place a sharp focus on 
teacher effectiveness have the potential to reverse the ``widget 
effect'' crippling our school systems. We envision a future in which 
the institutions, policies and systems that are chiefly responsible for 
putting a quality teacher into every classroom are tightly aligned to 
just that objective.
    Now more than ever, we have evidence that this evolution is 
possible. In fact, we have made more progress over the last year than 
we have in decades.
    In the Race to the Top competition--arguably one of the most 
visionary education reform initiatives in our Nation's history--we have 
a powerful example of how carefully leveraged funding can jump start 
the engines of change. Even before a single dollar was awarded, 16 
States had enacted legislative or regulatory reforms to better align 
themselves with the administration's priorities. Top-scoring States, 
including the winners, did well in part because they successfully 
overhauled their outdated teacher evaluation policies, moving to new 
systems that allow schools to measure and respond to differences in 
teacher effectiveness more accurately than ever. These States are 
reversing the widget effect before our very eyes. It is worth noting 
that though this program is relatively modest in size, the fact that it 
is a competitive grant program with rigorous criteria focused on 
teacher and school leader effectiveness is producing the kind of deep 
reform that an incremental increase in formula funding never will.
    In the schools just beyond these chambers, we have another powerful 
example of the possibility of change. Last week, following more than 2 
years of difficult negotiations, the DC Public Schools and the 
Washington Teachers Union signed what is arguably the most progressive 
collective bargaining agreement in the country. This contract would not 
only make DC teachers among the highest-paid in the Nation, it would 
also empower schools to use evaluation data to assemble strong 
instructional teams, help all teachers do their best work, retain the 
best teachers, and remove persistently ineffective teachers. Chancellor 
Michelle Rhee, WTU President George Parker, and AFT President Randi 
Weingarten together demonstrated that bold reforms are possible, and 
that they can benefit both students and teachers. We commend them all 
for their vision and perseverance.
                recommendations for esea reauthorization
    Today, we find ourselves at a tipping point. We have broad 
agreement that doing more of the same will not suffice. We have models 
and momentum in the form of real changes that affect real schools and 
students. And now, as we look ahead to the reauthorization of the 
Elementary and Secondary Education Act (ESEA), we have a rare 
opportunity to align Federal policy and spending with the goal of 
providing every child with effective teachers.
    Put simply, ESEA can have the greatest impact if it is focused 
sharply on supporting effective teaching. In the past, States and 
school districts have largely failed to acknowledge or act on 
differences in teacher effectiveness. Federal policy should spur them 
to develop policies that reflect the variation in teacher effectiveness 
and to use targeted strategies to recognize and reward outstanding 
teachers, provide useful support and development to all teachers, and 
take action when it becomes clear that a teacher is simply not up to 
the job. This is especially important for high-poverty schools, which 
historically have faced greater challenges in attracting and keeping 
excellent teachers for students who start out at a disadvantage.
    More nuanced and accurate teacher evaluation systems will not only 
help teachers do their jobs better; they will also enable us to map the 
geographies of teacher effectiveness in our schools. These data will 
expose where our most and least effective teachers are working, so that 
we can redress inequities in teacher distribution. They will shine a 
light on districts and schools that are not doing anything about poor 
performance, or that are not doing enough to keep their best teachers. 
We will begin to see where our most effective teachers are coming from, 
so that we can build on best practices in teacher preparation, and what 
professional development seems to make good teachers better, so that 
districts stop wasting millions on one-size-fits-all support that 
teachers find irrelevant. This information is fundamentally empowering, 
and urgently needed.
    Congress can help reverse the widget effect through the ESEA 
reauthorization process. Specifically, we recommend the following:

    (1) Support competitive funding programs: The Administration's 
blueprint for ESEA reauthorization funds bedrock formula programs such 
as Title I and the Individuals with Disabilities Education Act (IDEA) 
at healthy levels, but it also calls for new funding to support 
competitive grant programs such as Race to the Top and the Investing in 
Innovation fund. Competitive programs allow the Department of Education 
to leverage Federal funding for maximum impact, to power innovation, 
and to focus Federal dollars on the highest-need schools and students. 
We believe that these initiatives are essential if we want to do more 
than stay on the same path we find ourselves on today.
    As we have already discussed, the Race to the Top competition 
provides an excellent case study in how competitive funding can 
catalyze change for the benefit of students and teachers nationwide. In 
only about a year's time, the competition has sparked a national 
dialogue on education reform, provided the impetus for States to 
resolve contentious disputes and untangle legislative logjams, and 
unleashed a torrent of new ideas about how to improve our schools.
    Moreover, it is undeniable that Race to the Top has already 
produced significant results, with many States having lifted charter 
school caps that have stifled innovation, or adopted teacher evaluation 
systems that align with student outcomes so we can begin to 
differentiate great teachers from good, good from fair, and fair from 
poor, and take action based on this critical information. The first-
round winners, Delaware and Tennessee, will enter the coming school 
year with an improved policy infrastructure. So too will a number of 
other States vying for funding in the second round, among them 
Louisiana, Florida, Rhode Island, Illinois, Georgia, and California. 
The ramifications for students are vast.
    Race to the Top is not perfect; just last week, our organization 
published an analysis criticizing elements of its scoring process. But 
it is well within the Administration's power to correct the 
deficiencies we have identified before the second round of winners are 
selected and announced, and overall the competition is admirably 
focused, transparent and thoughtfully structured. It would be a great 
shame if this initiative, which has already achieved so much in so 
little time, were not sustained.
    Likewise, it would be folly to require that all new funding be 
routed into formula programs, where its impact would inevitably be 
diluted. To accelerate change and put our students back on track to 
lead the world academically, we need an education policy with more than 
just one gear. It is essential that Race to the Top and competitive 
grant programs like it are continued as a supplement to robust Title I 
and IDEA funding so that districts have both the stability in formula 
funding and the encouragement and support for the dramatic reform 
efforts that we desperately need.
    (2) Use strategic preconditions to advance reform: Existing formula 
programs allocate billions of dollars to school districts and States 
nationwide. By tying this funding to reasonable reform preconditions or 
eligibility requirements, Congress could ensure that it not only meets 
the needs of school districts that have come to count on it, but also 
drives change.
    For example, States might be required to institute more rigorous 
and outcomes-based teacher evaluation systems in order to receive title 
II funding, as the Administration's budget proposes. Such a requirement 
would spur States to take action where they would not otherwise. A 
similar result could be achieved by requiring clear reporting of 
specific information as a precondition for funding; for instance, 
mandating that States and school districts report the number and 
percentage of teachers rated ``highly effective,'' ``effective,'' 
``developing'' and ``ineffective'' each year, or the percentage of 
high-need students taught by highly effective and effective teachers, 
compared to other students.
    In many cases, greater outcomes will result from mandating the 
public reporting of teacher effectiveness data rather than mandating 
specific strategies that States or districts must employ. Thoughtfully 
structured preconditions can bring this information to the surface.
    (3) Focus on student academic outcomes: Taxpayer money goes to 
waste when it funds programs that have little or no impact on student 
learning. Especially in the current economic climate, it is crucial 
that Federal funding is spent wisely. For this reason, Congress should 
hold States and school districts accountable for demonstrating the 
effectiveness of their strategies.
    Funding through programs like title II, which is explicitly 
intended to increase student achievement by improving teacher and 
principal quality, should not be spent on strategies that do not have a 
demonstrably positive impact on teacher effectiveness or student 
academic growth. For instance, more than a third of all title II 
funding (39 percent) is spent on professional development for 
teachers--a massive outlay of this funding. However, there is no 
requirement that professional development provided through title II 
funds be linked to any assessment of a teacher's skills, or that 
districts show evidence of improvement after a teacher has received 
development.
    In short, there is almost no way of showing that these investments 
of hundreds of millions of dollars have any positive outcomes for 
teachers or students. It should come as no surprise that the 
professional development that school districts are able to offer is 
notoriously unhelpful, and empirical evidence of its effectiveness 
improving student achievement is scant. This use of funding perpetuates 
the widget effect by treating teachers as interchangeable components 
whose individual professional needs are not relevant, not considered 
and not met. By establishing accountability structures that focus 
States and school districts on the results of their strategies on 
student achievement, Congress can facilitate the continuing shift from 
inputs to outcomes and encourage schools to seek out and redirect 
funding to proven programs and strategies.
               doing the right thing at a difficult time
    Now, some will claim that the changes I have urged you to consider 
today are too risky, too untimely, too fast.
    You are sure to hear that now is not the time to dedicate funding 
to competitive grant programs, for example, when the Nation's economy 
is so fragile. Yet never has the need for innovation been greater. The 
recession that continues to send shockwaves throughout the country is 
only a harbinger of difficult times to come if we keep failing to 
prepare our students to be successful in the 21st century and the 
global economy.
    Furthermore, your leadership and that of the Obama administration 
has already resulted in an unprecedented infusion of resources for our 
school districts in the past fiscal year. The $100 billion in stimulus 
funding provided to States and districts saved literally hundreds of 
thousands of jobs in education and cushioned the blow of the recession 
on our schools--and it was allocated to States primarily in formula 
grants. Title I funding received a $10 billion boost. The Individuals 
with Disabilities Education Act got $12.2 billion, and $3 billion went 
to school improvement grants. Fully $39.8 billion came in the form of 
State Fiscal Stabilization Fund education dollars.
    The reality is that Federal funding will not and cannot replace 
State and local resources over the long term. But Federal funding of 
Title I and IDEA can provide stability while Race to the Top and other 
competitive grant programs provide the impetus for change in States and 
districts that are willing to undertake reform. Events over the past 6 
months tell us that, even in the midst of the worst fiscal crisis since 
the Great Depression, there are States and districts that are willing 
to undertake dramatic change even as they deal with painful budget 
reductions. Just look at the legislation passed on teacher evaluation 
in States like California, Washington, Michigan, Tennessee and 
Illinois, and the new policies on teacher layoffs in Indianapolis and 
Arizona. Now more than ever we have to ensure we spend smart and on 
high-impact strategies by supporting the important work going on at the 
State and local levels.
    Let me be clear: we cannot expect different outcomes if we continue 
doing the same thing. Over the last 40 years, formula spending has 
nearly doubled in inflation-adjusted dollars, yet student achievement 
in reading, math and science has been flat. Competitive funding 
programs offer us a way to incentivize States and school districts to 
do things differently, and to get different results.
    You are also sure to hear that focusing so intently on teacher 
effectiveness blames teachers for our schools' failures. But this is 
not about assigning blame; it is about finding a new way forward.
    Decades of research tell us that teachers matter most. Encouraging 
States and school districts to align their policies and practices with 
the prime objective of maximizing teacher effectiveness is about 
restoring the primacy of teaching in our education system, and giving 
teachers the information and support they need to grow and improve as 
professionals. It's about holding teachers accountable, but also 
holding everyone around teachers accountable for giving them the 
support they need to do their jobs, from principals to Human Resources 
staff to superintendents. The Administration's blueprint for ESEA 
reauthorization makes clear that all educators must be accountable for 
performance--not just teachers.
    What we need are school systems that no longer take teachers for 
granted, but that recognize teachers' singularly important role in 
improving student achievement and do everything possible to ensure they 
can fulfill this role effectively. Our goal is not to blame teachers 
but to elevate them.
    Finally, you are sure to hear that these strategies are unproven 
and should be undertaken only in cautious, limited ways, if at all. We 
believe, however, that our Nation's shameful legacy of failure should 
shift the burden of proof. Supporters of the status quo should be asked 
to make the case that their approach should prevail over new ideas and 
strategies that promise better outcomes for our children. The most 
irresponsible gamble in education is not trying new and unproven 
strategies, but continuing to do more of what has resulted in our 
Nation being leapfrogged by our international competitors in Asia and 
Europe, and suffering from the achievement gap that robs so many 
children of a fair shot at success in life.
    In closing, at this time of unprecedented challenges, we have an 
unprecedented opportunity and a moral obligation to finally make the 
difficult choices that will ensure that all of our children have great 
teachers. This is no time for incremental changes or half measures; 
it's time to make teacher effectiveness matter. We must come together 
to recognize that the key to providing all our children with the 
education they need is to provide them with the teachers they deserve. 
And we must commit ourselves to the hard work that this task requires.
    Thank you very much for your attention to this extraordinarily 
important issue, and for your time today. I look forward to your 
questions.
          The New Teacher Project Policy Brief (February 2010)
       how federal education policy can reverse the widget effect
transforming esea title ii to improve teacher effectiveness and student 
                                outcomes

Background: The Widget Effect

        [widget effect: The tendency to treat teachers like 
        interchangeable parts rather than individual professionals, 
        based on the false assumption that one teacher is the same as 
        another. www.widgeteffect.org]

    In June 2009, The New Teacher Project's study, The Widget Effect: 
Our National Failure to Acknowledge and Act on Differences in Teacher 
Effectiveness, drew national attention to the issue of ineffective 
teacher evaluation systems. The study documents how teacher evaluation 
systems ignore variations in performance, giving virtually all teachers 
positive ratings despite the fact that teachers and principals both say 
poor performance is common. As a result, excellence goes unrecognized, 
poor performance goes unaddressed, and a teacher's instructional 
effectiveness almost never factors into critical decisions such as how 
teachers are hired, developed or retained. To reverse the ``widget 
effect,'' the study recommends that States and school districts:

    1. Adopt a comprehensive performance evaluation system that fairly, 
accurately and credibly differentiates teachers based on their 
effectiveness in promoting student achievement and provides targeted 
professional development to help them improve.
    2. Train administrators and other evaluators in the teacher 
evaluation system and hold them accountable for using it fairly and 
effectively.
    3. Integrate the performance evaluation system with critical human 
capital policies and functions such as teacher assignment, professional 
development, compensation, retention and dismissal.
    4. Address consistently ineffective teaching through dismissal 
policies that provide lower-stakes options for ineffective teachers to 
exit the district and a system of due process that is fair but 
efficient.

    Based on survey data from over 16,000 teachers and administrators 
across 12 districts in four States, as well as the insights of nearly 
80 district, State and teachers union representatives, The Widget 
Effect drew widespread support. Among others joining in the call for 
change were Secretary of Education Arne Duncan; Congressman George 
Miller, Chairman of the House Education and Labor Committee; and the 
presidents of both national teacher unions. The study's findings and 
recommendations have since been reflected in the Federal Race to the 
Top initiative's focus on effective teacher evaluation systems and 
appear in numerous States' applications for Race to the Top funding. 
Its push for including evidence of student achievement in teacher 
evaluations has been echoed by American Federation of Teachers 
President Randi Weingarten.
    The New Teacher Project believes that the widget effect represents 
the single greatest challenge to improving teacher effectiveness and 
eliminating educational inequality. Until a teacher's effectiveness is 
accurately measured and matters in decisionmaking, the Nation's schools 
will never be able to build a thriving teacher workforce capable of 
realizing sustainable improvement or closing the achievement gap. 
Shifting Federal education policy to focus on measuring and responding 
strategically to differences in teacher effectiveness is essential, and 
the upcoming reauthorization of the Elementary and Secondary Education 
Act (ESEA) creates an opportunity to realize this shift.
                   esea title ii: ripe for rethinking
    Title II(A) of the Elementary and Secondary Education Act is 
expressly intended to fund school district and State efforts to 
increase student achievement by improving teacher and principal 
quality. This is a critical objective, particularly in light of the 
unacceptable gap in achievement that has put poor and minority students 
at a disadvantage for decades. Unfortunately, the bulk of title II 
funding is currently being expended in ways that do little to advance 
this worthy goal.
    Approximately $3 billion is allocated for title II, which amounts 
to about 5 percent of Federal education spending. Nearly all school 
districts are recipients. Used as general funding to supplement 
district budgets, title II is too modest to have a significant impact. 
However, if used strategically to fund innovative teacher effectiveness 
initiatives or improvement efforts that districts might otherwise be 
unable to undertake, title II could become a powerful lever for 
addressing issues of teacher effectiveness highlighted in The Widget 
Effect and more meaningfully advance the goal of improving student 
achievement. The upcoming reauthorization of ESEA offers policymakers a 
valuable opportunity to transform title II in this way.
    Currently, nearly 80 percent of title II funding is used by 
districts for reducing class sizes (38 percent) or providing 
professional development (39 percent). Both uses are problematic, as 
described below.
Class Size Reduction: Popular but Impractical
    The debate over class size is one manifestation of the widget 
effect in that it ignores teacher effectiveness as the most critical 
school-level variable in student success. Schools should not have 
unmanageable class sizes, but initiatives solely intended to limit 
class sizes are generally high-cost and low-impact.
    Though drastic class size reductions may produce meaningful gains 
for students, especially in the early grades,\1\ title II funding is 
not nearly sufficient for this purpose. Researchers have estimated that 
reducing class sizes to 18 students in grades 1-3 nationwide, for 
instance, would cost up to $6 billion annually and necessitate the 
hiring of 100,000 new teachers.\2\ At current funding levels, title II 
affords only insignificant class size reductions--far below what would 
be required to change student outcomes nationally.
---------------------------------------------------------------------------
    \1\ Tennessee Department of Education (1990). The State of 
Tennessee's Student/Teacher Achievement Ratio (STAR) Project: Summary 
Report. http://www.heros-inc.org/star.htm.
    \2\ Brewer, Dominic J.; Cathy Krop, Brian P. Gill and Robert 
Reichardt (1999). ``Estimating the Cost of National Class Size 
Reductions Under Different Policy Alternatives.'' Educational 
Evaluation and Policy Analysis, Volt. 21, No. 2, 179-192.
---------------------------------------------------------------------------
    Moreover, mounting research suggests that we have far more powerful 
tools at our disposal. The academic impact of reducing class sizes 
pales in comparison to the impact of providing students with highly 
effective teachers. For example, increasing the effectiveness of the 
teacher by one standard deviation (e.g., from ``average'' to ``very 
good'') would have approximately the same impact on a fifth grade 
classroom as reducing the class size by 13 students.\3\ As University 
of Washington professor Dan Goldhaber notes, ``A very good teacher as 
opposed to a very bad one can make as much as a full year's difference 
in learning growth for students. Indeed, the effect of increases in 
teacher quality swamps the impact of any other educational investment, 
such as reductions in class size.'' \4\
---------------------------------------------------------------------------
    \3\ Rivkin, Steven G.; Eric A. Hanushek, and John F. Kain (2005). 
``Teachers, Schools, and Academic Achievement.'' Econometrica, Volt. 
73, No. 2 (March, 2005), 417-458.
    \4\ Goldhaber, Dan (2009). ``Teacher Pay Reforms: The Political 
Implications of Recent Research.'' Center for American Progress.
---------------------------------------------------------------------------
    An outsized focus on class size reduction perpetuates the widget 
effect by overlooking and failing to act upon the differences in 
effectiveness among teachers. Such an approach presumes that teacher 
effectiveness is fixed, not variable, and that the solution to low 
student achievement is more teachers, not more effective teachers. A 
stronger Federal policy would couple manageable class sizes with a 
deeper emphasis on teacher performance.
Professional Development: An Opportunity for Greater Impact
    Similarly, high-quality professional development is a worthy 
expenditure that could help teachers and principals improve, as The 
Widget Effect makes clear. In practice, however, today's offerings are 
largely undifferentiated and unhelpful.
    Without fair and accurate evaluation systems, it is impossible for 
school districts to provide effective professional development, because 
they cannot discern teachers' individual strengths or weaknesses. As 
documented in The Widget Effect, just 26 percent of teachers surveyed 
across 12 districts were told that any aspect of their performance was 
unsatisfactory or in need of improvement. The remainder reported 
receiving what were essentially perfect evaluations. An overwhelming 
majority of teachers studied were awarded the highest possible rating 
on their district's performance evaluation system, even those working 
in chronically failing schools.
    Consequently, the professional development that school districts 
are able to offer is notoriously one-size-fits-all, and empirical 
evidence of its effectiveness improving student achievement is 
scant.\5\ Of the teachers surveyed for The Widget Effect who had 
development areas identified on their most recent evaluations, less 
than half (45 percent) agreed or strongly agreed that they received 
useful support to improve.
---------------------------------------------------------------------------
    \5\ As Chait and Miller note in ``Ineffective Uses of ESEA Title II 
Funds'' (Center for American Progress, 2009), A recent review of 1,300 
studies conducted by researchers at the Southwest Regional Educational 
Laboratory found only nine studies that were sufficiently rigorous to 
include in their analysis. These nine studies did find positive 
effects, but they also found that ``no professional development 
training lasting 14 or fewer hours had a positive impact on student 
achievement; in contrast, professional development of extended duration 
(an average of 49 hours) boosted student achievement by about 21 
percentile points.''
---------------------------------------------------------------------------
    Currently, there is no requirement that professional development 
provided through title II funds be linked to any assessment of a 
teacher's skills, or that districts show evidence of improvement after 
a teacher has received development. In short, there is almost no way of 
showing that these investments of hundreds of millions of dollars have 
any positive outcomes for teachers or students. This use of 
professional development funding perpetuates the widget effect by 
treating teachers as interchangeable components whose individual 
professional needs are not relevant, not considered and not met.
              refocusing title ii on teacher effectiveness
    The research is clear: No school factor has a greater impact on 
student achievement than teacher effectiveness. While the purpose of 
title II is to increase student achievement by improving teacher and 
principal quality, it inadvertently reinforces the notion that teachers 
are interchangeable. The impact of title II could be increased 
dramatically if it were focused far more sharply on the prime objective 
of ensuring all children are taught by effective teachers.
    Therefore, we propose a new vision for title II. As part of the 
reauthorization of ESEA, Title II should be restructured as an Equity 
Fund specifically disbursed to help States and districts reverse the 
widget effect. By ensuring that teachers are properly evaluated and 
developed, and that poor and minority students have fair access to the 
most effective teachers, the Nation's schools stand to make tremendous 
progress toward increasing educational equity.
Equity Fund Goals and Metrics
    The Equity Fund should be structured around four overarching goals 
that school systems need to meet in order to improve student academic 
outcomes and close the achievement gap:


------------------------------------------------------------------------
             Equity fund goal                          Metric
------------------------------------------------------------------------
1. Enhanced supply of effective new         Number and percentage of new
 teachers.                                   teachers who meet an
                                             effectiveness standard
                                             based predominantly on
                                             student growth.
2. Differential retention of top-           Retention rate of highly
 performing teachers.                        effective and effective
                                             teachers compared to
                                             retention rate of
                                             ineffective teachers.
3. Improved effectiveness of retained       Average improvement in
 teachers over time.                         teachers' effectiveness
                                             from year to year.
4. Equitable access to effective teachers   Percentage of high-need
 for high-need children.                     students taught by highly
                                             effective and effective
                                             teachers, compared to peer
                                             groups.
------------------------------------------------------------------------

    We recommend that districts and States be required to set specific 
objectives for each of the four Equity Fund goals--with particular 
attention to the Equitable Access goal. Funding should be awarded 
according to formulas and recipients should be free to select specific 
uses from a broad list, as long as they lead to measurable progress 
against all four Equity Fund metrics.
    Each of the goals depends on strong systems for assessing teacher 
effectiveness. Districts and States that do not adopt and faithfully 
implement effective teacher evaluation systems, with multiple rating 
categories and significant weight placed on student academic growth, 
should not be eligible for Equity Fund grants. This requirement is in 
keeping with the recommendations from The Widget Effect, which pointed 
to credible, accurate evaluation systems as a prerequisite for 
improving teacher effectiveness; it also aligns with recent Federal 
initiatives such as the Race to the Top competition.
    Qualifying districts should be required to show progress on the 
four Equity Fund metrics or have their funding reduced over time. It is 
simply not enough to pay lip service to overcoming the widget effect; 
we must focus resources to demand change. Additionally, to ensure that 
States and districts place sufficient focus on improving equity, many 
current purposes for title II funding, including insignificant class 
size reductions, should be prohibited or capped far below current 
spending levels.
    What kinds of expenditures would align with the recommendations 
from The Widget Effect and the four Equity Fund goals listed above? The 
following list provides several examples:

    <bullet> Professional development, but only in instances where it 
is aligned to needs identified in individual teacher evaluations and 
where the particular strategy results in demonstrable improvements in 
teacher effectiveness. Spending on professional development should be 
capped at approximately 20 percent of expenditures to ensure that 
districts focus on the entire range of Equity Fund goals.
    <bullet> Teacher recruitment, especially from programs with a 
demonstrated record of producing effective teachers (as measured by 
student academic growth). These new teachers should be required to 
demonstrate their effectiveness in order to continue in the classroom.
    <bullet> Training for administrators on how to conduct high-quality 
evaluations of teachers, as measured by the ability of administrators 
to differentiate teachers based on effectiveness.
    <bullet> Design of objective, reliable student achievement measures 
for subjects and grade levels not currently subject to State tests.
    <bullet> Integration of evaluation outcome data into major 
personnel decisions, such as tenure conferral and compensation.
    <bullet> Research and program evaluation to track and report 
relative effectiveness of teachers from local teacher preparation 
pathways (similar to the existing Louisiana system).
    <bullet> Incentive systems, such as recognition programs to 
identify and reward the most effective teachers; salary differentials 
for highly effective teachers who make a multi-year commitment to 
transfer to or remain in a high-need school; or group incentives for 
clusters of highly effective teachers who commit to turning around a 
failing school.
    <bullet> Peer evaluators to observe and monitor struggling 
performers, with an expedited dismissal process when performance does 
not improve to standards.
                               conclusion
    Federal policy plays a unique and critical role in promoting equity 
in education. Title II has the potential to serve as one of the most 
powerful tools for this purpose, driving $3 billion annually--more than 
the Obama administration's Race to the Top initiative--to the cause of 
improving student achievement. Yet today, much of title II funding is 
squandered on expenditures that do little to improve teachers' practice 
or students' outcomes. That can change with the reauthorization of 
ESEA, which offers policymakers the chance to realign title II with the 
research base on teacher effectiveness and support school district and 
State efforts to make long overdue reforms. It's time to modernize 
title II by transforming it into an Equity Fund that improves 
educational equality for millions of American students while bolstering 
the foundations of the teaching profession.

About The New Teacher Project

    The New Teacher Project (TNTP) helps school districts and States 
fulfill the promise of public education by ensuring that all students--
especially those from high-need communities--get excellent teachers. A 
national nonprofit organization founded by teachers, TNTP is driven by 
the knowledge that although great teachers are the best solution to 
educational inequality, the Nation's education systems do not 
sufficiently prioritize the goal of effective teachers for all. In 
response, TNTP develops customized programs and policy interventions 
that enable education leaders to find, develop and keep great teachers 
and achieve reforms that promote effective teaching in every classroom. 
Since its inception in 1997, TNTP has recruited or trained 
approximately 37,000 teachers--mainly through its highly selective 
Teaching FellowsTM programs--benefiting an estimated 5.9 million 
students. TNTP has also released a series of acclaimed studies of the 
policies and practices that affect the quality of the Nation's teacher 
workforce, most recently including The Widget Effect: Our National 
Failure to Acknowledge and Act on Differences in Teacher Effectiveness 
(2009). Today TNTP is active in more than 40 cities, including 
Baltimore, Chicago, Denver, New Orleans, New York, and Oakland, among 
others. For more information, please visit www.tntp.org.

    [Editor's Note: Due to the high cost of printing, previously 
published material is not reprinted. To view ``The New Teacher Project: 
The Widget Effect,'' in its entirety go to: http://widgeteffect.org. To 
view ``The Real Race Begins. Lessons From the First Round of Race to 
the Top (April 2010) go to: http://tntp.org/filed/RealRaceBegins.pdf.]

    The Chairman. Thank you very much, Mr. Daly.
    And now we turn to Thomas Kane.

STATEMENT OF THOMAS KANE, PROFESSOR OF EDUCATION AND ECONOMICS, 
                  HARVARD GRADUATE SCHOOL OF 
                    EDUCATION, CAMBRIDGE, MA

    Mr. Kane. Chairman Harkin, Ranking Member Enzi, members of 
the committee, my name is Tom Kane. I am a professor of 
education and economics at Harvard, and I am also working with 
the Bill and Melinda Gates Foundation directing the Measures of 
Effective Teaching Project that I will describe here in a 
second.
    With the help of the NEA and the AFT and local union 
leadership, we have recruited almost 3,000 teacher volunteers 
in six school districts around the country to reinvent the 
process of teacher evaluation. Randi Weingarten deserves a lot 
of credit for supporting that effort, even when it was not 
easy.
    In each of these teacher's classrooms, we are measuring 
student achievement gains both on the State test, as well as on 
some supplemental assessments that are intended to measure the 
open-ended constructive response type items that, Chairman 
Harkin, you were mentioning in the opening comments.
    Second, in each of these classrooms, we are trying to 
reinvent the way classroom observations are done. Rather than 
have your old buddy or, as the case may be, your old enemy, the 
principal, standing in the back to the classroom going through 
a checklist, we are asking trained experts who are not from the 
school who have no particular personal axe to grind--many of 
them are teachers elsewhere--to provide feedback on what they 
are seeing in the classroom. We are trying to do that with 
digital video.
    Finally, we are having students provide feedback on 
specific aspects of a teacher's practice. This is the way I get 
evaluated in higher education every semester. So we are asking 
students questions like do you agree/disagree. We use time well 
in this class. We never waste time. When I am confused, my 
teacher always has multiple ways of explaining things. When I 
turn in homework, my teacher gives me useful feedback that 
helps me improve. In the end, we will be asking how each of 
these things help identify the classrooms with big student 
achievement gains.
    Now, at this point, I do not think it makes sense for the 
Federal Government to be specifying exactly how States evaluate 
teachers. However, remember, this is a sector that has always 
resisted differentiation. So it is important to bear two 
principles in mind. First, in those tested grades and subjects 
where it is feasible, evaluations should include student 
achievement growth as part of it, but then second, any non-
test-based measure needs to be shown to be related to student 
achievement growth or else it cannot be part of the measure. 
And that ought to be verified annually as States implement 
these systems.
    So teachers have a huge impact on student achievement. Yet, 
for years, we have designed systems to ignore that fact. And 
until we start to acknowledge the role that individual teachers 
play in student achievement, we could waste a lot of taxpayers' 
money.
    [The prepared statement of Mr. Kane follows:]
                   Prepared Statement of Thomas Kane
    Chairman Harkin, Ranking Member Enzi, members of the committee, 
thank you for inviting me to address the committee today. My name is 
Tom Kane. I am a Professor of Education and Economics at the Harvard 
Graduate School of Education. I am currently on leave from Harvard, 
working with the Bill & Melinda Gates Foundation on the Measures of 
Effective Teaching project, which I will be describing today. My 
testimony will emphasize the importance of better teacher evaluation 
systems, which everyone agrees are perfunctory and meaningless. These 
days, we all say ``teachers matter.'' If we began acting like we 
believed that, we would be telling teachers how they are doing, what 
they can do to improve and giving principals the objective data they 
need to make better personnel decisions.
                                summary
    Analysis of student achievement data over the last four decades has 
repeatedly confirmed what we all know: Without the right people 
standing in front of the classroom, school reform is a futile exercise. 
Everything else--educational standards, testing, class size, greater 
accountability--is background, intended to support the crucial 
interactions between teachers and their students.
    And, yet, almost everywhere, teacher evaluations are meaningless 
and perfunctory. From the moment they are assigned their first 
classroom, teachers receive almost no feedback on their performance. 
The failure to meaningfully differentiate among teachers and their 
teaching practices has enormous costs: teacher performance plateaus 
after just 2 or 3 years on the job; principals grant tenure to 
virtually any teacher willing to remain after just 2 or 3 years; many 
of the best and brightest teachers abandon the classroom for other 
occupations and industries with better opportunities for growth. 
Meanwhile, we all lose: student learning is stunted; effective teachers 
are saddled with ineffective colleagues; the profession loses status; 
and the Nation continues to slowly bleed economic productivity and 
competitiveness.
    We need to begin building a teacher performance evaluation system 
that allows teachers to grow and allows principals to make better 
decisions. Given the complexity of teaching, there is no single 
statistic which will tell the whole story. Rather, we need to assemble 
a small package of indicators--student achievement gains on State 
tests, objective feedback on classroom practice by trained external 
observers, student feedback on specific aspects of a teacher's practice 
(e.g. were their comments on homework assignments helpful?, do they 
have multiple ways of explaining a given topic?, was time managed well 
in class?)--and put it in the hands of teachers and principals.
    Of course, there needs to be some discipline to the search for 
``multiple measures of teacher effectiveness,'' lest that system become 
``multiple excuses for teacher ineffectiveness.'' To guide our own 
efforts at tool development, we have adopted the following two 
principles:

    1. Whenever feasible, the measure should include student 
achievement growth for all the students for whom a teacher is 
responsible;
    2. Any other measures--for instance, those based on classroom 
observations, supervisor ratings, student evaluations, teacher 
assessments--must be demonstrated to help identify the teachers with 
the strongest student achievement growth. That evidence needs to be 
updated annually, based on the latest student achievement growth data, 
to guard against grade inflation and gaming.
    Although a few States have the key ingredients to start, most 
States would need to build the infrastructure to support such a system: 
creating a workable definition of ``teacher of record'' for each tested 
student; ensuring accurate data on teacher-student links at the State 
level; calculating student achievement growth for students and linking 
those to teachers; piloting new classroom observations and other non-
test-based tools to be validated against student growth. States 
choosing to go down that path could do so within 3 years.
                              introduction
    Throughout four decades of education research, researchers have 
repeatedly confirmed three findings: First, there are huge differences 
in student achievement gains in different teachers' classrooms. Year 
after year, some teachers lead their students to remarkable gains in 
academic achievement, while others lag behind. Second, the data suggest 
these teachers can be found throughout our education system, not just 
in wealthy suburban schools. Most schools--public and private, urban 
and suburban (and rural), high- and low-income--have such teachers 
sprinkled within their ranks. Third, a teacher's effectiveness has only 
a weak relationship with his or her paper qualifications. Despite the 
focus on teaching credentials in State and Federal law, a ``highly 
qualified'' teacher is little more likely to produce exemplary gains in 
student achievement than others.
    And yet, almost everywhere, teachers receive meaningless and 
perfunctory feedback on their performance on the job. A recent survey 
of teacher evaluation systems in 12 school districts across 4 States 
found that most systems provide for only 2 possible ratings 
(``satisfactory'' and ``unsatisfactory''). In those districts, more 
than 98 percent of teachers received the same rating of 
``satisfactory''.\1\
---------------------------------------------------------------------------
    \1\ Weisberg, Daniel, Susan Sexton, Jennifer Mulhern and David 
Keeling. The Widget Effect: Our National Failure to Acknowledge and Act 
on Differences in Teacher Effectiveness. The New Teacher Project, 2009.
---------------------------------------------------------------------------
    The failure to meaningfully differentiate among teachers and 
teaching practices has enormous costs: in the absence of feedback, 
teachers plateau after just 2 or 3 years on the job \2\; without 
objective evidence to support their decisions, principals grant tenure 
to virtually any teacher willing to remain after just 2 or 3 years \3\; 
without the feedback to help them learn, many of the best and brightest 
teachers abandon the classroom for other occupations and industries 
with better opportunities for growth. Meanwhile, we all lose: student 
learning is stunted; effective teachers are saddled with ineffective 
colleagues; the profession loses status; and the Nation continues to 
slowly bleed economic productivity and competitiveness.
---------------------------------------------------------------------------
    \2\ Kane, Thomas J., Jonah Rockoff and Douglas O. Staiger ``What 
Does Certification Tell us about Teacher Effectiveness? Evidence from 
New York City,'' Economics of Education Review, December 2008. Many 
other studies report similar findings.
    \3\ Less than 3 percent of new teachers (with 1-3 years of 
teaching) report having involuntarily moved between schools or out of 
teaching. Luekens, Michael T., Deanna M. Lyter, and Erin E. Fox. 
Teacher attrition and mobility: Results from the teacher follow-up 
survey, 2000-2001. Washington, DC: National Center for Education 
Statistics, Department of Education, 2004 Deanna Lyter provided some 
additional tabulations from the School and Staffing Survey generate 
these estimates.
---------------------------------------------------------------------------
    The No Child Left Behind Act (NCLB) required States to track 
performance and provide feedback to students and their parents, as well 
as to schools and districts. Regrettably, teachers were left behind. 
Teachers were simply obliged to have the right credentials.
    The phrase, ``teachers matter,'' now appears frequently in the 
public discourse. Despite its popularity, the statement glosses over 
the truth--teachers (and teaching practices) not only matter, they 
differ. Teachers deserve to know how their students' growth in 
achievement compares to the students assigned to their peers. Moreover, 
they deserve to know what they could be doing to improve their 
practice. To do so, they need professional feedback from objective 
experts observing them in their own classrooms. They deserve feedback 
on how students perceive their classrooms. Obviously, they need to 
understand the concepts they teach. However, we also need to be sure 
teachers recognize the most common ways in which students will 
misunderstand the content they will teach, and have specific strategies 
for responding.
      defining ``effective teaching'': an evidence-based approach
    Over the years, educators have proposed a number of alternative 
approaches to defining and recognizing effective teaching practice. For 
instance, the National Board for Professional Teaching Practices 
(NBPTS) has developed an application process and set of rubrics for 
scoring videos and essays submitted by teachers. In 1996, Charlotte 
Danielson published her Framework for Teaching, a general framework for 
evaluating teaching. Many States already publish their own set of 
standards for evaluating teachers.
    Rather than choose one view of effective teaching as ``the 
standard'' against which all teaching everywhere is measured, we adopt 
a practical, evidence-based approach. A measure of effective teaching 
should be a summary of what we know about a teacher's impact on 
children. Whenever a teacher is working in a grade or subject where it 
is possible to track their students' achievement growth, then past 
performance should be helpful in identifying those teachers most likely 
to have a positive impact on children in the future. But other, non-
test-based measures of a teacher's practice and skills may also help 
identify the teachers producing student achievement gains. For 
instance, classroom observations may identify specific practices linked 
to student achievement gains. Student feedback on the quality of 
teacher comments on their submitted work, the pace of classroom 
lectures, a teacher's ability to provide multiple explanations for any 
given topic may also help identify those teachers. Therefore, a measure 
of effective teaching should be limited to the combination of two 
categories of measures:

    1. Direct evidence of student growth on an objective measure of 
student achievement, whether on a State's end-of-year or end-of-grade 
assessment or some other externally scored measure of student work 
(such as a benchmark assessment). Such measures are often referred to 
as ``value added'' measures.

    And

    2. Other non-test-based measures (such as classroom observations, 
student feedback, assessments of teacher content knowledge or 
pedagogical content knowledge) which have been shown to identify those 
teachers with exemplary student achievement growth.

    Under the above principles, teacher effectiveness would be measured 
by direct measures of student achievement gains and any other measure 
which can be shown to identify those teachers most likely to produce 
student achievement gains.
    When measures of effective teaching have been proposed in the past, 
skeptics on various sides of the debate have raised the following 
concerns:
    ``How will this work in the non-tested grades and subjects?'' Many 
grades and subjects are not currently subject to mandatory State 
testing. By some estimates, only about a quarter of teachers currently 
work in grades and subjects where value-added estimation is feasible. 
The above framework suggests a way to incorporate those non-tested 
grades and subjects in the evaluation system. A district could 
supplement the testing currently required under NCLB with additional 
externally scored measures of student work and extend to additional 
grades and subjects. Moreover, if a State or district can provide 
evidence that a particular classroom observation protocol, or a 
particular student evaluation form helps identify teachers in the 
tested grades and subjects with demonstrable gains in student 
achievement, then that same protocol or form could be used in the non-
tested grades and subjects to provide feedback to teachers. In other 
words, one could assume that the process of student learning is similar 
in the tested and non-tested grades and subjects.
    ``Aren't value-added measures too volatile to be used?'' Because 
elementary school teachers may have only 15 to 25 students per year and 
middle and high school teachers 40 to 150 students per year, the value-
added measures can fluctuate. Especially for sample sizes typically 
seen for elementary school teachers, a few particularly rowdy or 
attentive students can lead to changes in student achievement gains. 
However, to the extent that the non-test-based measures (such as 
feedback from classroom observations or student evaluations) are less 
subject to volatility or where those fluctuations are independent of 
the volatility in student test performance, the inclusion of these 
other measures will dampen the volatility and lead to more stable 
measures.
    ``Aren't `multiple measures' just a dodge, a way to avoid holding 
teachers accountable for student results?'' Because of the long history 
of perfunctory teacher evaluations in education, many are skeptical of 
any measure which does not include student achievement directly. This 
is understandable. However, the above framework would provide some 
discipline to the search for non-test-based evaluation tools: if a 
teacher evaluation tool (as implemented in a particular locale, and not 
based on one unrelated study in the research literature) cannot be 
shown to identify those teachers producing exemplary student 
achievement gains, that measure could not be a part of the teacher 
evaluation system.
    ``If teacher evaluation is limited to student gains on tests and 
those factors related to student gains on tests, isn't the logic 
circular? Won't we end up just encouraging `teaching to the test' ?'' 
No. Virtually every rubric which external raters would use to score 
their classroom observation emphasizes the importance of teaching 
concepts, and the ideas underlying course material. The teaching of 
``rote skills'' and simple procedures leads to poor scores on those 
rubrics. There's good reason for that, since research in cognitive 
science suggest that without conceptual understanding, students find it 
difficult to remember their lessons and extend and generalize what they 
have learned. As long as the State test includes some items requiring 
conceptual understanding, a teacher's scores from the classroom 
observations will remain ``predictive'' of their students' achievement 
gains. Moreover, the juxtaposition of respectable test-based scores and 
poor non-test-based measures raises a possible red flag. Thus, the 
teacher evaluation system provides an opening for a frank discussion 
between the teacher and the supervisor about the nature of their 
instruction--highlighting possible ``teaching to the test'', not 
disguising it.
    Similarly, student evaluation forms, such as that developed by The 
Tripod Project (see the Appendix), can ask students to agree or 
disagree with statements such as: ``My teacher tells us what we are 
learning and why'', ``My teacher wants us to use our thinking skills, 
not just memorize things'', ``My teacher has several good ways to 
explain each topic that we cover in this class.'' Poor student 
responses on such items, especially when contrasted with moderate or 
high student achievement gains, would flag possible instances of 
``teaching to the test'', rather than hiding them.
               the measures of effective teaching project
    The Bill & Melinda Gates Foundation is supporting the rapid testing 
of new and existing tools for providing feedback to teachers. The 
Measures of Effective Teaching (MET) project involves nearly 3,000 
teacher volunteers in 6 school districts around the country (NYC, 
Charlotte-Mecklenburg in NC, Hillsborough County (Tampa) in FL, Memphis 
in TN, Dallas TX, Denver CO). The national offices and local affiliates 
of both the AFT and NEA actively helped recruit teachers for the 
project.
    Research partners include the RAND Corporation, Harvard University, 
Stanford University, University of Michigan, Dartmouth College, 
Educational Testing Service, the Danielson Group and the University of 
Virginia. Private contractors, such as Teachscape, Westat and Cambridge 
Education are providing vital logistical support. The National Board 
for Professional Teaching Standards (NBPTS) is providing the scores of 
any sample members who applied to them for certification.
    The study is currently focusing on grades 4-8 (math and English 
language arts) and Algebra I, ninth grade ELA and biology at the high 
school level. The findings of the project (and many of the tools) will 
be shared widely and made available to States and districts who want to 
use them. Data collection is under way and initial results will be 
available in Fall 2010.
    A Teacher Advisory Panel (20+ practicing teachers, grades 4-9, from 
across the United States) has been convened to provide feedback on the 
project design, to ensure that it captures what is most important to 
excellent teachers, is feasible in the classroom, and provides 
opportunities for teachers to improve their practice.
    The project is collecting a variety of data:

    <bullet> Student achievement gains;
    <bullet> Classroom observations using innovative, low-cost digital 
video collection tools;
    <bullet> Teacher reflections on their videotaped lessons;
    <bullet> Student feedback;
    <bullet> Teachers' perceptions of the quality of instructional 
support in their schools; and
    <bullet> Teachers' ability to recognize and diagnose student 
misperceptions.

    I discuss each in somewhat more detail below:

    Student achievement gains: Student achievement will be measured two 
ways--using the mandated State tests as well as supplemental tests (the 
latter made up of open-ended, constructed response items to probe 
higher order conceptual understanding). The goal is to evaluate the 
widespread concern that those teachers posting large gains on the State 
tests are merely teaching test-taking skills at the expense of higher-
order conceptual understanding.
    An innovative approach to classroom observation: Meaningful 
observations require input from external observers. The project is 
exploring new ways to drive down the cost of having external observers 
provide feedback on instruction using digital video. Digital video will 
be used to record four lessons per year in each teacher's classroom. 
Scorers will be trained via a web-based certification regimen to score 
those videos using rubrics designed for classroom observations. 
(Several commonly used rubrics, such as Charlotte Danielson's 
Frameworks for Teaching, the CLASS measure from the University of 
Virginia will be used, as well as content-based rubrics for observing 
math, English language arts, and science classrooms). The goal is not 
simply to test whether a select panel of experts can identify effective 
teaching, but whether qualified scorers could do so after a finite 
course of training.
    Teacher reflections on their videotaped lessons: Teachers will 
provide audio commentary and any relevant supporting materials to 
provide context about the videotaped lessons, and to share their self-
reflections.
    Confidential Student Feedback: Students will also provide feedback 
on their experiences in each classroom, their level of engagement, 
their perception of teachers' expectations of them, their perception of 
the quality of the feedback they receive from their teacher, etc. (An 
example of the questions on the student evaluation form developed by 
Professor Ron Ferguson at Harvard's Kennedy School of Government are in 
the appendix.)
    Teachers' Pedagogical Content Knowledge: ETS is developing a new 
assessment to measure teachers' ability to recognize and diagnose 
common student misperceptions in their grade level and subject. That 
assessment, which builds on work started at the University of Michigan 
for assessing teacher's pedagogical content knowledge in mathematics, 
will be ready in the spring of 2011. (An example of several items from 
such a test are included in the appendix.)
    Teacher surveys of the school environment: Teachers will complete a 
survey about working conditions and the instructional support they 
receive in school. (Representative items from the survey are included 
in the attached appendix.)
    how could a state build its own system for evaluating teachers?
    Below, I sketch out a 3-year process by which a State could develop 
a new teacher evaluation system. This is merely intended as 
illustrative of the hurdles to be cleared. Some States could move 
faster; some slower.
Year 1:
    Planning: The first task is to agree upon an approach to assigning 
a ``teacher(s) of record'' for each tested student by subject. A number 
of large school districts--such as Houston and Dallas in Texas, 
Hillsborough County in Florida--have shown that it's possible to get 
accurate data on which students are assigned to specific teachers and 
to resolve the thorny issues which arise when students are taught by 
teams of teachers or when students receive special help in certain 
subjects. Indeed, the many districts that are using ``benchmark'' or 
``interim'' assessments during the school year already have such links 
in place--that is how they know which teachers should receive the 
results for which students. Therefore, States and districts would need 
to plan how they would transfer such data from districts to States.
    Choosing a Value-Added Model: There have been a number of different 
approaches proposed for estimating the impact of a given teacher on 
students' achievement growth. For example, William Sanders of SAS has 
provided scores using the proprietary Education Value-Added Assessment 
System (EVAAS) to hundreds of school districts, including Houston in 
Texas and Hillsborough County in Florida. The Wisconsin Center for 
Education Research provides value-added reports to principals in 
Chicago Public Schools and New York City. Massachusetts, Colorado and 
New Haven, Connecticut have adopted an approach to measuring student 
growth proposed by Damian Betebenner at the Center for Assessment, 
which can be calculated for individual teachers. Each of these 
approaches involves a different trade-off between transparency and 
statistical reliability, which States and districts will have to weigh 
on their own.
Year 2:
    Piloting Some Non-Test-Based Approaches to Teacher Evaluation: 
During the second year, any State intending to build its own measure of 
teacher effectiveness would begin to pilot some non-test-based 
measures, such as having external observers provide feedback on 
instructional practice in schools, or having students provide feedback 
on their own experiences. In order to test the predictive power of 
these measures for identifying teachers with exemplary student 
achievement growth, such piloting should include teachers in the grades 
and subjects where value-added estimates could be generated.
    Calculate Value-Added and Test Predictive Power: The State would 
spend the second year implementing the definition of ``teacher of 
record'' developed during the first year and creating teacher-student 
links at the State level. It would be important in that process to 
provide each teacher with the list of their students for whom they are 
responsible so that they could correct any errors in the data. Then, 
once student achievement data become available, a State could identify 
the subset of teachers for whom both value-added estimates and the 
other teacher evaluation data are available, and then identify which of 
the non-test-based measures are demonstrably correlated with value-
added. A State might adopt a minimum acceptable level of correlation in 
order to be accepted as a predictor of teacher effectiveness.
Year 3:
    Year 3 would represent the first full year of implementation. In 
tested grades and subjects, teachers would be evaluated on the basis of 
both value-added and non-test-based predictors of student achievement 
growth. In non-tested grades and subjects, teachers would be evaluated 
on the basis of the validated predictors of value-added from the tested 
grades and subjects.
Year 4+:
    As teachers and principals adapt to the new evaluation system, 
there may be the equivalent of ``grade inflation'', with teacher 
evaluations becoming more compressed or rampant gaming of the system. 
Moreover, once an evaluation system has been scaled statewide, the new 
tools may not be implemented with the same fidelity as observed during 
the pilot phase. In those cases, the predictive power of some teacher 
evaluation tools may degrade over time. Moreover, new approaches to 
assessment student achievement may become available--particularly if 
States adopt new assessments to accompany the new common standards. As 
a result, the predictive power of the non-test-based approaches will 
need to be re-evaluated at regular intervals (e.g. annually) in order 
to ensure that the evaluation system continues to improve and evolve.
Bang for the Buck
    How large are the potential payoffs to investing in teacher 
evaluation systems? Gordon, Kane and Staiger (2006) studied elementary 
teachers in Los Angeles Unified District, calculating value-added 
scores for a set of teachers who remained teaching for at least 3 
years.\4\ They first sorted teachers into quartiles using their value-
added during their first 2 years of teaching. They then observed the 
student achievement gains for the new crop of students they were 
assigned during their third year. They found that the average student 
assigned to a teacher whose value-added was in the bottom quartile of 
new teachers lost on average 5 percentile points relative to students 
with similar baseline scores and demographics.
---------------------------------------------------------------------------
    \4\ Gordon, Robert, Thomas J. Kane and Douglas O. Staiger, 
Identifying Effective Teachers Using Performance on the Job, Hamilton 
Project White Paper 2006-01, Brookings Institution, April 2006.
---------------------------------------------------------------------------
    In contrast, the average student assigned to a top-quartile teacher 
gained 5 percentile points relative to students with similar baseline 
scores and demographics.
    They then simulated the effect of a new tenure review system, in 
which those in the bottom quartile of effectiveness during their first 
2 years of teaching would not receive tenure and would have to leave 
teaching. Even taking into account the need to hire more novice 
teachers, they estimated that such a policy would raise student 
achievement by the time of high school graduation by roughly 14 
percentile points.
    Still, that figure may understate the potential impact of an 
improved teacher evaluation system. For instance, it assumed no 
improvement in the effectiveness of any teacher in response to the 
feedback. The gains resulted from better selection at tenure time 
alone. If teachers were to use the feedback to improve their practice, 
the impacts could be larger.
    In contrast, a random assignment evaluation of a classroom size 
reduction in Tennessee found that schools could improve achievement by 
half as much--5 percentile points--by shrinking class size in early 
grades.\5\ (As a cautionary note, these impacts were considerably 
larger than the impacts that were experienced following California's 
classroom size reduction policy beginning in 1997. They may 
substantially overstate the actual impact of such a policy.) But class 
size reduction of the magnitude tried in Tennessee would be 
extraordinarily expensive: shrinking average class size from 22 to 16 
students per class would require nearly a 40 percent in the number of 
teachers and the amount of classroom space in those early grades! In 
other words, a policy of tenure reform is estimated to generate an 
improvement in student achievement three times as large as class size 
reduction--and would almost surely cost less than a 40 percent increase 
in instructional salaries in the early grades.
---------------------------------------------------------------------------
    \5\ Krueger, Alan B. ``Experimental estimates of education 
production functions''. Quarterly Journal of Economics (1999) Volt. 
114, No. 2, PP. 497-532.
---------------------------------------------------------------------------
Conclusion
    Ultimately, the success of education reform depends upon the skills 
of the 3.1 million teachers managing classrooms in elementary and 
secondary schools around the country. Everything else--educational 
standards, testing, class size, greater accountability--is background, 
intended to support the crucial interactions between teachers and their 
students. Without the right people standing in front of the classroom, 
school reform is a futile exercise.
    Our educational system has never acknowledged that fact. If it did, 
we would be rigorously evaluating teachers during their first few years 
of teaching, and ensuring that only the most effective are granted 
tenure. We would be providing feedback to teachers on the specific 
areas where they are falling short, so that they could improve. We 
would be identifying the most effective teachers and making every 
effort to retain them. We would be ensuring that the students who are 
most far behind have the teachers they need to catch up.
    Successful education reform requires having the right people with 
the right skills in the classroom. We will never do so without a robust 
system for evaluating and providing feedback to teachers.
    Thank you again for this opportunity to discuss this important 
issue with the committee. I would be pleased to serve as an ongoing 
resource to the committee as the results from the Measures of Effective 
Teaching project begin to emerge this summer and fall. I look forward 
to your questions.
                                Appendix
                 sample items from student evaluations
              source: tripod project & cambridge education

Sample Items: Elementary Student Survey

The teacher in this class encourages me to do my best.
Our class stays busy and does not waste time.
My teacher has several good ways to explain each topic that we cover in 
this class.
In this class, we learn to correct our mistakes.
My teacher pushes us to think hard about things we read.
My teacher wants me to explain my answers--why I think what I think.
In this class, you must pay attention all the time in order to keep up.
My teacher gives us time to explain our ideas.
My teacher tells us what we are learning and why.
My teacher asks questions to be sure we are following along when s/he 
is teaching.
In this class, I stop trying when the work gets hard.
I have done my best quality work in this class.

Sample Items: Secondary Student Survey

The teacher in this class encourages me to do my best.
My classmates behave the way my teacher wants them to.
If you don't understand something, my teacher explains it another way.
My teacher explains difficult things clearly.
My teacher wants us to use our thinking skills, not just memorize 
things.
My teacher makes us think first, before he/she answers our questions.
In this class, my teacher accepts nothing less than our full effort.
My teacher makes lessons interesting.
I understand what I am supposed to be learning in this class.
My teacher knows when the class understands, and when we do not.
In this class, students take it easy, and do not try very hard to do 
their best.
In this class we have to think hard about the writing we do.
This class makes me a better thinker.
          sample items from teacher working conditions survey
                     source: the new teacher center
Teachers have time available to collaborate with colleagues.
Teachers are allowed to focus on educating students with minimal 
interruptions.
Teachers are protected from duties that interfere with their essential 
role of educating students.
Teachers * have sufficient access to appropriate instructional 
materials.
Teachers have access to reliable communication technology, including 
phones, faxes and e-mail.
The school environment is clean and well maintained.
Teachers have adequate space to work productively.
The physical environment of classrooms in this school supports teaching 
and learning.
This school maintains clear, two-way communication with the community.
This school does a good job of encouraging parent/guardian involvement.
Parents/guardians know what is going on in this school.
The community we serve is supportive of this school.
Students at this school follow rules of conduct.
Administrators support teachers' efforts to maintain discipline in the 
classroom.
The faculty works in a school environment that is safe.
Teachers are recognized as educational experts.
Teachers are trusted to make sound professional decisions about 
instruction.
The faculty and leadership have a shared vision.
Teachers feel comfortable raising issues and concerns that are 
important to them.
Teachers are held to high professional standards for delivering 
instruction.
Teacher performance is assessed objectively.
The procedures for teacher evaluation are consistent.
An appropriate amount of time is provided for professional development.
Professional development deepens teachers content knowledge.
Teachers are encouraged to reflect on their own practice.
State and local assessment data are available in time to impact 
instructional practices.
Teachers at my school are assigned classes that maximize their 
likelihood of success with students.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    26. Mrs. Davies' class has learned how to tessellate the plane with 
any triangle. She knows that students often have a hard time seeing 
that any quadrilateral can tessellate the plane as well. She wants to 
plan a lesson that will help her students develop intuitions for how to 
tessellate the plane with any quadrilateral.
    Which of the following activities would best serve her purpose? 
(Circle ONE answer.)

    (a) Have students cut along the diagonal of various quadrilaterals 
to show that each can be broken into two triangles, which students know 
will tessellate.
    (b) Provide students with multiple copies of a non-convex kite and 
have them explore which transformations lead to a tessellation of the 
plane.
    (c) Provide students with pattern blocks so that they can explore 
which of the pattern block shapes tessellate the plane.
    (d) These activities would serve her purpose equally well.
    27. Ms. Abdul is preparing a unit to introduce her students to 
proportional reasoning. She is considering three versions of a problem 
that are the same except for the numbers used. Which version of the Mr. 
Short and Mr. Tall problem below is likely to be the most challenging 
for students? (Circle ONE answer.)

    (a) A picture depicts Mr. Short's height as 4 paper clips and as 6 
buttons. The height of Mr. Tall (not shown) is given as 6 paper clips. 
How many buttons in height is Mr. Tall?
    (b) A picture depicts Mr. Short's height as 4 paper clips and as 7 
buttons. The height of Mr. Tall (not shown) is given as 5 paper clips. 
How many buttons in height is Mr. Tall?
    (c) A picture depicts Mr. Short's height as 2 paper clips and as 9 
buttons. The height of Mr. Tall (not shown) is given as 5 paper clips. 
How many buttons in height is Mr. Tall?
    (d) All three of the problems are equally challenging.

    The Chairman. Thank you very much, Mr. Kane.
    Ms. Hirsh.

  STATEMENT OF STEPHANIE HIRSH, EXECUTIVE DIRECTOR, NATIONAL 
             STAFF DEVELOPMENT COUNCIL, DALLAS, TX

    Ms. Hirsh. Good morning, Senators.
    For over 30 years, NSDC's more than 12,000 members have 
kept a laser-like focus on improving the quality of 
professional development (PD) and its impact on teaching and 
student learning. Professional development is truly the only 
strategy to improve teacher effectiveness that, in one way or 
another, touches every educator, involves every school district 
in every year.
    I know that the Federal Government also understands the 
importance of professional development (PD)because it has 
appropriated more than $20 billion to support professional 
development and effective teacher activities since the 
enactment of NCLB. Sustained school-wide, team-based, and job-
embedded professional development is the most powerful strategy 
available to ensure that the teachers in the current workforce 
have the knowledge and skills necessary to increase student 
achievement. And unfortunately, too often school systems fail 
to use PD to its potential.
    Therefore, I propose three actions that Congress may take 
to increase the availability, as well as the impact of 
effective professional development.
    Congress can begin by establishing a new definition for 
professional development by replacing the current one in 
section 9101. A more compelling Federal definition of 
professional development begins with principals and teachers 
using their own student and teacher performance data to 
establish the school's learning agenda. From their learning 
teams focused on addressing the specific student needs, work 
together to apply more effective practices in their classrooms, 
and they share responsibility for student achievement. As a 
result, all teachers within a school are engaged in a 
continuous cycle of improvement that informs and strengthens 
teaching and learning.
    Through this approach, we will transform the role of 
teacher from sole practitioner to collaborative partner, 
leveraging the expertise of all teachers to address the needs 
of all students. Innovation will spread from classroom to 
classroom and school to school. Superintendents in Duvall 
County, Florida; Long Beach, California; and Montgomery County, 
Maryland would attribute their districts' success to this 
professional development approach. And Senator Reed has 
provided leadership in Congress in advancing it as well.
    Secondly, I ask Congress to require that States and 
districts conduct regular evaluations on the impact of 
federally funded professional development, specifically on 
teacher practice and student achievement. This information is 
essential to revealing where there are problems that require 
attention, as well as successes that can be shared and 
replicated. By requiring an evaluation, you will be asking many 
States and schools to do something that they may say is 
difficult. Do not be dissuaded by individuals that say it is 
too challenging. There are a few States that can provide 
guidance to other States on how to accomplish this, including 
the chairman's Iowa, Maryland, Florida, and Georgia.
    And finally, I ask Congress to ensure that States and 
districts use an adequate portion of existing Federal funding 
to implement more effective PD and evaluate its impact. Blue 
Valley, Kansas; College Community School District in Iowa; 
Johnson County, Tennessee--these are just a few of the school 
systems that have already taken steps to implement this new 
definition for professional development. This year you can make 
possible for teachers and students everywhere what these 
districts have already discovered is key to great teaching.
    Thank you.
    [The prepared statement of Ms. Hirsh follows:]
                 Prepared Statement of Stephanie Hirsh
    For over 30 years, NSDC's more than 12,000 members have kept a 
laser-like focus on improving the quality of professional development 
and its impact on teaching and student learning. Professional 
development is truly the only strategy to improve teacher effectiveness 
that, in one way or another, involves every educator, every year, in 
every school system. I also know that the Federal Government 
understands that investing in professional development is so important 
that it has appropriated over $20 billion to support professional 
development and teacher effectiveness activities since the enactment of 
the No Child Left Behind Act.
    Sustained, school and team-based, and job embedded professional 
development is the most powerful way available to ensure that all 
teachers in the current workforce acquire and apply the knowledge and 
skills necessary to increase student achievement. Unfortunately, too 
often school systems and schools fail to use professional development 
in a way that fulfills its potential.
    Therefore, I propose that the Congress take three specific actions 
to increase the availability as well as the impact of effective 
professional development for every teacher in this country.
    The Congress can begin by establishing a new framework for 
professional development for educators in Federal law by replacing the 
current definition of professional development in Section 9101.
    Senator Reed is a leader in this conversation and will soon 
introduce a more powerful definition of professional development in an 
upcoming bill. A compelling Federal definition of professional 
development focuses on engaging educators at the school level. 
Principals and teachers will use their students' performance data to 
establish the school's learning agenda. It will promote collective 
responsibility for student achievement by establishing teams of 
teachers who regularly learn and work together to apply more effective 
practices in all classrooms. Through this approach, we will transform 
the education profession from a solitary job to one that leverages the 
combined expertise of all teachers to overcome persistent barriers that 
exist in reaching students. Innovation will spread from classroom to 
classroom and school to school.
    Successful superintendents in Duval County, Florida; Johnson 
County, Tennessee; Long Beach, California; and Montgomery County, 
Maryland, attribute their increases in student achievement and closing 
achievement gaps to professional development systems like the one I am 
proposing. This more tightly focused definition of professional 
development ensures that every teacher improves and every student 
benefits.
    Secondly, I ask the committee to require that States and districts 
using Federal funds for professional development conduct regular 
evaluations of the impact on student achievement. This will ensure that 
districts and States are regularly examining the effects of 
professional development on teacher practice and student achievement. 
It will reveal where there are problems that require attention as well 
as successes to be recognized and shared.
    By requiring an evaluation of professional development you will be 
asking many States and school systems to do something new and 
challenging. Do not be dissuaded by individuals that say it is too 
challenging. There are a few States that have taken this step and 
provide direction for others. Among these States are the chairman's own 
State of Iowa as well as Florida, Maryland, Missouri, and Georgia.
    Finally, I ask the committee to ensure that States and districts 
use an adequate portion of existing Federal funding to implement more 
effective professional development and document the impact of the 
investment. By establishing an investment baseline you can ensure that 
the resources necessary are allocated so every student experiences 
great teaching every day.
    Thank you for your attention and your invaluable service to our 
Nation's children.

    The Chairman. Thank you very much, Ms. Hirsh.
    Now we go to Ellen Moir.

 STATEMENT OF ELLEN MOIR, CHIEF EXECUTIVE OFFICER, NEW TEACHER 
                     CENTER, SANTA CRUZ, CA

    Ms. Moir. Good morning, Chairman Harkin and Ranking Member 
Enzi and members of the committee. Thank you very much for this 
opportunity.
    Let me begin by saying that our Nation must dramatically 
change the way we bring our newest educators into our schools 
and into the teaching profession. The traditional sink-or-swim 
approach to new teacher induction exacts a high price on new 
teachers, their students, and the entire education community.
    Our philosophy on teacher effectiveness is much like what 
you heard from Randi Weingarten, that we believe that great 
teachers are made and not born.
    A Federal policy on new teachers is critical for 
demographic reasons. By most estimates nationally we will 
replace more than 50 percent of our teaching working force over 
the next 7 years. This means over 1.5 million new teachers in 
our schools.
    And a focus on new teachers is also important from an 
equity standpoint. New teachers are disproportionately assigned 
to classrooms serving the most disadvantaged students and to 
schools more likely to be low-performing with rampant staff 
turnover and poor working conditions.
    An up-front investment in these new teachers is far more 
cost effective to ensure that not only do they stay in 
teaching, but that they get on that path to excellence early 
on.
    Our data from States like California and Alaska and urban 
school districts including Boston, Chicago, and Durham, show 
that if new teachers receive the right support, they will be 
successful in the classroom and be more likely to remain in 
teaching.
    But all too often, even when States have policies that 
require new teachers are supported, they are implemented 
sporadically and too many educators are not given support that 
they need to be effective.
    At the New Teacher Center, we have collected data on over 
300,000 teachers across 10 States in just the past 3 years 
through our Teaching and Learning Conditions Survey, and I can 
tell you that many, many first- and second-year teachers report 
that they were not assigned a mentor. And even those that did 
have a mentor, they were often reporting that the mentor never 
planned instruction with them, they never once were observed in 
their classroom, and they never once received support analyzing 
student work. These results actually come from a State that is 
consistently one of the country's top in teacher quality and 
which has existing mentoring legislation in place.
    I want to move to say that the recommendations that are in 
President Obama's Blueprint for Reform are well on the way to 
making a difference for America's students. The three areas 
that I want to emphasize that we would like to see written in 
would be that ESEA would ensure that States establish standards 
for induction and mentoring programs. Program standards should 
include rigorous selection of mentors, professional 
development, ongoing learning for mentors, and dedicated time 
for mentoring new teacher interactions.
    Number two, ESEA should provide dedicated funding for 
induction and mentoring for all new teachers across this 
country. And the funding stream should require accountability 
from States to ensure mentor program standards are being met.
    And the third recommendation and final one is that ESEA 
should hold States and districts accountable for giving new 
teachers the mentoring, support, and teaching conditions they 
need to be successful.
    Let me just close by saying that America's teachers and 
students are counting on us, and I would be eager to help in 
any way that we can to build a better profession so that kids 
can have the greatest opportunities in life.
    [The prepared statement of Ms. Moir follows:]
                    Prepared Statement of Ellen Moir
                                summary
<bullet> I believe our Nation must dramatically change the way we bring 
our newest educators into our schools and into the teaching profession. 
The traditional ``sink or swim'' approach to new teacher induction 
exacts a high price on new teachers, their students, and the entire 
educational system.
<bullet> NTC philosophy: Great teachers are made--not born.
<bullet> (1) Changes in the demographics of the teacher workforce and 
(2) ensuring equity for students demands a renewed Federal policy focus 
on how new teachers are supported.

      <bullet> 1.5 million new teachers will enter the Nation's schools 
in the next 7 years which means by 2017, 50 percent of the teaching 
workforce will be replaced.
      <bullet> New teachers are disproportionately assigned to 
classrooms and schools that serve the most disadvantaged students.

<bullet> Even the best prepared teachers need intensive, 
instructionally-focused, on-the-job support. That is why national 
leaders must raise standards and expectations for new teacher induction 
including:

      <bullet> Carefully-selected, trained and supported mentors who 
receive adequate time to regularly interact with and observe new 
teachers; and
      <bullet> State-level teacher evaluation systems that not only 
assess classroom effectiveness, but also capture the complexity of 
teaching and ensure that all teachers are provided the regular 
feedback, learning opportunities, and supportive environments they need 
to maximize their effectiveness and impact on student learning.

<bullet> Research shows that new teachers must receive quality support 
if they are to be effective and remain in the profession. 
Unfortunately, it appears that this type of support is not reaching all 
novices.

      <bullet> NTC research reveals that too few States have 
comprehensive policies that require new teacher support--and the State 
policies that do exist are implemented only sporadically.
      <bullet> Among 300,000 teachers NTC has surveyed across the 
country through our statewide Teaching & Learning Conditions Surveys in 
the past 2 years, many first- and second-year teachers report that they 
were not even assigned a mentor.
      <bullet> Many who were assigned a mentor never planned 
instruction with them, observed them or received support analyzing 
student work from them.

<bullet> The Blueprint for Reform already includes an impressive and 
important focus on teaching. To ensure new teacher success, the NTC 
believes the ESEA also should:

      <bullet> Require States establish standards for induction and 
mentoring programs that include rigorous mentor selection requirements, 
foundational mentor training, on-going support for mentors, and 
dedicated time for mentor-new teacher interactions.
      <bullet> Provide dedicated funding for the induction and 
mentoring of all new teachers for at least their first 2 years and 
require accountability from States to ensure mentoring program 
standards are being met; and
      <bullet> Include provisions that hold States and districts 
accountable for giving new teachers the mentoring, professional 
support, and teaching conditions they need to be successful.

<bullet> Senator Jack Reed's Teacher and Principal Improvement Act 
addresses many of these recommendations and is a necessary ingredient 
to strengthen the ESEA Blueprint and ensure new teacher success.
<bullet> In conclusion, with the Federal funding commitment, the 
appropriate focus on teachers and school leaders and the provision of 
the conditions, development opportunities and tools they need to be 
successful, the ESEA reauthorization will be on track for success.
                                 ______
                                 
    Thank you, Mr. Chairman and members of the committee, for this 
opportunity to provide input to inform reauthorization of the 
Elementary and Secondary Education Act.
    The New Teacher Center (NTC) is a national non-profit organization 
whose mission is to provide all new teachers in the Nation with the 
type of high-quality induction and mentoring, instructional support and 
collaborative learning opportunities that will allow them to thrive as 
professionals and maximize their classroom effectiveness on behalf of 
their students.
    Our philosophy on teacher effectiveness rests on an understanding 
that great teachers are made--not born. Regardless of the quality or 
source of their preparation, teachers in their first classroom face an 
overwhelming number of distinct challenges. Too many new teachers in 
each of your States struggle in isolation and navigate a steep learning 
curve as a result of a ``sink or swim'' approach to induction. It 
exacts a high price on new teachers, their students, and the entire 
school community.
    A Federal policy focus on new teachers is critical for demographic 
reasons.

    <bullet> By some estimates, nationally, we will replace more than 
50 percent of our teaching workforce over the next 7 years. This means 
over 1.5 million new teachers in our schools.
    A focus of new teachers also is important from an equity 
standpoint.

    <bullet> New teachers are disproportionately assigned to classrooms 
serving the most disadvantaged students and to schools more likely to 
be low performing, with rampant staff turnover, and poor working 
conditions.
    <bullet> An up-front investment in these new teachers is far more 
cost effective to ensure they stay in teaching and receive induction 
support to accelerate their effectiveness in the classroom from day 
one.

    Our Nation must dramatically change the way we bring our newest 
educators into our schools and the teaching profession. Our data from 
work in States like California and Alaska and in urban school districts 
including Boston, Chicago and Durham show that if new teachers receive 
the right support that we know makes them better, they will be more 
successful in the classroom and be more likely to remain in teaching.
    But too often, even when States have policies that require new 
teachers are supported, they are implemented sporadically and too many 
educators are not given the support they need to be effective. At NTC 
we have collected data from over 300,000 teachers across 10 States in 
just the past 3 years alone. As just one example:
    We have data from one of our statewide administrations of our 
Teacher & Learning Conditions Survey in 2009--to which over 42,000 
educators responded--that shows:

    <bullet> One third of the States' first- and second-year teachers 
report that they were not assigned a mentor; and
    <bullet> Of those that were officially assigned a mentor, 
approximately one third report that they:
      <bullet> Never once planned instruction with their mentor,
      <bullet> Never once were observed in their classroom, and
      <bullet> Never once received support analyzing student work.

    These results are from a State which is consistently one of the top 
in the country on teacher quality . . . and which has existing State 
laws and policies on teacher mentoring!

    Our research on these results consistently demonstrates that new 
teachers receiving more frequent and higher quality induction and 
mentoring support are significantly more likely to report wanting to 
remain in their current teaching position. Although Secretary Duncan 
has publicly stated his interest in being ``tight on ends, and loose on 
means,'' new teacher support is an area where the means are critically 
important. Lesser approaches do not achieve the desired results.
    What does high-quality support for new teachers look like?
    First, we are not talking about a ``buddy system''. We are talking 
about concerted, targeted mentoring that advances teaching practice and 
accelerates new teacher effectiveness.
    <bullet> Mentors should be experienced and effective teachers.
    <bullet> Mentors should receive training and on-going support to 
help new teachers:
      <bullet> Plan daily instruction,
      <bullet> Analyze student work to assess learning,
      <bullet> Manage their classrooms, and
      <bullet> Differentiate instruction to individual learners.
    <bullet> Mentors and new teachers should be provided adequate time 
to work together
     so that the new teacher continually develops.
    <bullet> School and district leaders should be trained in what it 
takes to support a mentoring program and in understanding its overall 
benefits and cost effectiveness.
    Second, States need to have systems in place that not only identify 
more effective and less effective teachers, but also support and guide 
all teachers--especially new teachers--giving them feedback and 
learning opportunities for professional growth.
    A good example of a State that has recently done this is North 
Carolina. It requires all principals and teachers to be evaluated with 
a new instrument which is based on using data to improve their 
effectiveness and provides them with specific feedback for continuous 
improvement.
    The current national policy conversation about teacher 
effectiveness is too narrowly defined, because focusing only on the so-
called ``best'' or ``worst'' teachers will be a missed opportunity to 
strengthen the effectiveness of the vast majority in the middle who can 
achieve greater success if provided the right support.
    At the New Teacher Center, we are pleased with President Obama's 
recently released Blueprint for Reform for ESEA reauthorization.
    1. The Blueprint finally puts the Federal Government's ``money 
where its mouth is.'' With unprecedented funding to support States in 
their efforts to continually improve education, each State will now be 
required not only to focus on improving student test scores, but also 
take a broader lens to the multiple factors that impact student 
achievement--the classroom teacher, chief among them. And rightly so: 
Research and the experience of millions of educators prove that 
teachers are the most powerful school-based influence on student 
learning.
    2. The new focus on teacher effectiveness and principal leadership 
will help strengthen the building blocks of school improvement--world-
class educators. The teacher and principal evaluation tools being used 
in the States are in dire need of revision to reflect 21st century 
education and practices. At NTC, we believe teachers and principals 
should be evaluated with multiple measures, one of which should be 
growth in student learning.
    3. Supportive working conditions: It is important to remember that 
what works to attract new teachers also works to retain experienced 
teachers. We are pleased that President Obama's Blueprint requires 
States and districts to collect and report teacher survey data on 
working conditions in schools. This is a key data set for school 
improvement that policymakers previously have never had. That, too, is 
why the NTC is proud to be part of the Bill & Melinda Gates Foundation 
``Measures of Effective Teaching'' project. As part of the MET project, 
NTC is administering a teacher working conditions survey in identified 
large urban schools and districts.
    The Blueprint is a good start and sets us on the right path toward 
reauthorization. However, I want to share THREE recommendations for 
what I believe the ESEA reauthorization should also include in order to 
help new teachers become quality career professional educators.

    1. ESEA should ensure that States establish standards for induction 
and mentoring programs.
    Program standards should include:
      <bullet> Rigorous requirements about who is selected to mentor.
      <bullet> Foundational training and on-going support for mentors.
      <bullet> Dedicated time for mentor-new teacher interactions.
    2. ESEA should provide dedicated funding for the induction and 
mentoring of all new teachers for at least their first 2 years.
    This funding stream should require accountability from States to 
ensure mentor program standards are being met.
    3. ESEA should hold States and districts accountable for giving new 
teachers the mentoring, support and teaching conditions they need to be 
successful.
    One legislative proposal that would address several of our 
recommendations is Senator Jack Reed's Teacher and Principal 
Improvement Act. NTC is proud to support this legislation and we 
believe it is a necessary ingredient to strengthen the ESEA blueprint. 
We commend Senator Reed for his support of and dedication to America's 
teachers.
    I want to end my comments with a sincere ``thank you'' for this 
opportunity to strengthen and support America's teachers and chart a 
course for excellence in teaching. With the funding commitment, the 
appropriate focus on teachers and school leaders, and the provision of 
the conditions, development opportunities and tools they need to be 
successful, I believe ESEA reauthorization is on the right track for 
success.
    America's teachers--and students--are counting on us. Please let me 
know if there is anything that NTC can do to assist this committee in 
its efforts. Thank you.

    The Chairman. Thank you very much.
    Now Mr. Valenzuela.

 STATEMENT OF JOSE VALENZUELA, TEACHER, TECHBOSTON ACADEMY AND 
     BOSTON TEACHER RESIDENCY PROGRAM GRADUATE, BOSTON, MA

    Mr. Valenzuela. I am humbled to be in attendance here as 
the simple first-year teacher. I knew it was important to not 
only come to Washington to share my experiences, but also to 
represent my students in room 204. They have learned to not 
just see the world as it is, but as it should be. So I thank 
the entire HELP Committee for affording me this tremendous 
opportunity.
    I would just like to give some talking points.
    So where I come from--I was born in the Dominican Republic, 
but I have lived in Boston most of my life. I am a product of 
the Boston public schools.
    My first experience with teaching was as a teaching 
assistant between my junior and senior year of high school. I 
taught summer school math to English language learners at UMass 
Boston.
    I decided that I wanted to teach, partly because my mother 
says I like to explain things, and also because I felt I needed 
to return to my community. I felt when I came back to Boston in 
2007, the high murder rate and the sort of separation and 
segregation I saw in my community was not how I left it in 
2003.
    So I am here to speak about my experiences in the Boston 
Teacher Residency Program. There are some things that I think 
make it unique and important to note in this hearing.
    So the first is the strong mentorship and mentor-resident 
relationship in the first year. I had the fortune of having an 
excellent mentor who was not only young but had 9 years of 
veteran experience. I got to work alongside her. She afforded 
me many opportunities to experiment and try new things that I 
had learned in my graduate coursework that I could just try out 
in the classroom. So that experimentation gave me a lot of 
chances to see what worked and what did not.
    I also had an excellent methods instructor in history.
    I think one of the things that makes the residency 
experience extremely unique is the opportunity to spend an 
entire year with students. As a teacher in the Boston public 
schools today, I can say that I have been prepared for what I 
can expect my students to experience throughout a whole school 
year because I remember what it was like last year. So when my 
ninth graders started acting a little crazy in January, I knew 
to tighten up my routines and make sure my structures were in 
place because I knew it was just part of going through what 
ninth graders all go through.
    So at school this year, I know I am prepared because of 
what BTR taught me. One of the things is what we call ``pockets 
of change'' where teachers are part of making the change inside 
of school communities to make them better. Part of my efforts 
have been as eighth grade team leader. Some might say there is 
a lot of bravado in a first-year teacher taking on that role, 
but I have been fortunate enough to have a great team of mostly 
first-year teachers in fact, and we have done a great job.
    I have also started a wrestling team. It is only the third 
middle school wrestling team in the entire Boston public 
schools. It was not easy, but I had one kid place fourth in the 
State overall.
    And the cohort model that BTR espouses is another great 
thing.
    So having other residents in my school building--we had 
eight total--makes it an easy year, and I think the transition 
has been great.
    Thank you.
    [The prepared statement of Mr. Valenzuela follows:]
                 Prepared Statement of Jose Valenzuela
    My name is Jose Eduardo Valenzuela. I was born in the Dominican 
Republic, but moved with my mother and father to the United States at a 
young age, and have been living in Boston ever since. I am a product of 
the Boston Public Schools, having graduated from Boston Latin School in 
2003. Following high school, I attended Williams College and graduated 
with a Bachelor of Arts in History and Latina/o Studies in 2007. Prior 
to applying to the Boston Teacher Residency, I had no formal education 
training, but I had spent three summers as teacher's assistant in the 
Talented and Gifted, an enrichment program for Latino, Cape Verdean, 
and Brazilian students. I taught summer school math to English Language 
Learners, many of whom had just arrived from the Dominican Republic, 
Puerto Rico, and Guatemala, among other places. These students faced 
significant challenges in learning a new culture, language, and 
spending time in a formal education system.
    I learned a lot about myself in those summers, and not just about 
how I would teach math in Spanish, a discipline I had learned in 
English. I also learned to see a group of kids that were eager to spend 
their summer learning Algebra in a setting that valued their culture, 
background, and language, something many of them had confided to me had 
been lacking in their Boston public high schools. This made me sad, but 
I knew all too well the lack of respect my Latinidad received in my own 
experience at Boston Latin School, outside of my group of friends and 
several dedicated and conscientious teachers. I know several of those 
students that have gone on to graduate from college after spending time 
in the summer school program offered at TAG (through UMass Boston).
    I decided to teach partly because my mother likes to say that I 
enjoy explaining things to other people. The other part comes from a 
(growing) conviction to work in my community and make it better than 
when I attended school. I chose to work in the Boston Public Schools 
because I felt that I had been disconnected from the community that I 
had called home for over 20 years. When I returned to Boston in 2007, 
it did not feel like home, with a growing murder rate, and with many of 
my friends working in consulting and finance, it was like there were 
two separate cities, and I wanted to get back to the one I remembered 
from my elementary school days, when being Dominican in my classroom 
wasn't peculiar or odd, it was an asset. I thought that working in 
public schools would give me my humanity back.
    I am here to speak about my experiences in the Boston Teacher 
Residency, both in my training year, last year, and my first year out 
of the program as a full-time teacher in the Boston Public Schools. I 
chose BTR over other programs, including an acceptance to the New York 
City Teaching Fellows, for one simple reason: I would have the 
opportunity to work closely with an experienced veteran teacher. After 
completing my residency year and nearly completing my first year 
teaching on my own, I am still convinced that I made the correct 
decision. I am really fortunate to have had a terrific match with my 
mentor, who guided me through a 10-month school year experience that 
allowed me to grow, mature, and become comfortable with the idea of 
being ``Mr. V.'' Although not all matches with mentors were perfect, 
all residents would agree that the mentor-resident relationship was the 
single most critical factor to the experience of BTR. Some of those 
experiences were negative, but most were positive.
    In my case, I had a mentor who was young, energetic, but had spent 
9 years teaching in urban settings, including Malden, Cambridge, and 
Boston. She had also extensive knowledge of her content, from all of 
the years teaching multiple subjects, ranging from ELA to history to 
electives like Global Issues. It was not all luck though. I had sought 
this out when I chose BTR. I wanted the mentor experience. I had the 
chance of working alongside a mentor professor at Williams College, 
when back then my dream had been to be a college professor. I enjoyed 
the experience of working closely with knowledgeable individuals. I 
knew that it would be important to learn more from just my assigned 
mentor, and BTR gave me opportunities to learn from others as well. One 
of the strongest mentoring relationships I had was with my History 
Methods instructor. I really gravitated to her style of teaching, her 
social activism bend, and above all, her commitment to the students of 
Boston. She truly loves her children, and works tirelessly to making 
them better students, better citizens, and better people. Now that she 
and I teach the same subject, Civics, we have continued to work even 
more closely, as I work through the challenges of prepping for two 
different subjects (9th grade U.S. History and 8th grade Civics). BTR 
has made these relationships the cornerstone of their program, and my 
experience this year has shown that effectiveness increases with the 
successes that are built upon these mentor-resident connections.
    My experience in my residency year allowed me to experiment as 
well. When I came upon the concept of differentiating instruction in 
one of my courses in BTR, I had a breakthrough. I became inspired by 
this concept, and I approached my mentor to discuss my hopes of 
implementing some of these strategies right away. By the beginning of 
June, my mentor and I had reorganized the classroom into something of a 
laboratory of differentiated experimentation, and I was given the keys 
to try whatever I wanted. I do not believe that this would have 
happened in a traditional teaching program setting.
    Above all, the most important quality of BTR, the one that I preach 
to the current cohort of residents (especially when they ask me the 
question, ``Do you feel prepared in your first year?'') is that 
spending an entire year with actual Boston Public School students is an 
unmatched experience offered by any traditional route to teaching. This 
alone would make BTR stand out above the rest. And it truly does 
prepare you. When I taught ninth grade history last year, I watched as 
my students began to unwind in January, their behavior becoming 
increasingly more disruptive than it had been in September. I teach 
ninth grade this year, and I was prepared for what I expected would 
happen in January. I knew that my routines and structures needed to be 
tight in order to meet the particular challenges that ninth grade 
poses. I knew this, though, because I had spent an entire year with a 
group of students very similar to the ones I currently have this year. 
You learn a lot from spending so much time with kids, how they think, 
what they might react to. It's a tremendous confidence boost in a year 
with very few of them.
    My experience at TechBoston Academy has continued to give me hope 
for my ongoing development in the years ahead, as well as reinforced my 
argument that BTR has successfully prepared me for my first year. Of 
course, no program can prepare you for every challenge that one might 
face in that year. No two experiences are alike, and no two students 
are exactly alike either. I do feel confident that BTR has helped me in 
two ways in my first year. First, it has given me the confidence, the 
bravado even, to take on leadership opportunities in the building. The 
program taught us to create ``pockets of change'' within our community, 
wherever we might end up, and I took that to heart. That is why I said 
yes when asked if I would take on the role of 8th grade team leader. 
Even despite all of the extra responsibilities and challenges of the 
job, I am happy with the work that our team has been able to do, and 
the chances to learn and grow from doing some administrative work. I 
also started the first wrestling program at the school, one of only 
three middle school wrestling programs in the entire district. This had 
been a goal of mine since graduating from college. Wrestling for 12 
years had a positive influence on my life, and I knew that creating 
more wrestling opportunities in the city was a common sense decision.
    Although I had a limited operating budget and no equipment, I was 
able to take wrestlers to several competitions and tournaments, 
including the Massachusetts State Youth Championships, where one of my 
wrestlers placed 4th overall (the only Boston resident to do so, I 
might add). This accomplishment would not have happened without 
significant contributions from other area coaches, all of who assisted 
me in my first year as head coach. These are just a couple of examples, 
but BTR residents in my school have all taken on leadership roles, 
whether it was organizing Black History Month, the school Spring Dance, 
or acting as 6th grade team leader (yes, of the six team leaders, two 
are BTR/first year teachers).
    BTR has also been helpful in another aspect at TBA. The program has 
always dreamed of placing graduating residents in cohorts at schools. 
My school decided to take on 8 total BTR graduates this school year (7 
from my cohort). This critical mass of like-minded teachers has had a 
tremendous impact for me. Not only do I work with individuals who share 
the same values that I do, but also remember what it was like to 
experience the program. I am grateful that just across the whole, I can 
share my thoughts and feelings about my day, a lesson, or even a 
particular student with a colleague who also graduated from BTR. I know 
that in time, BTR will be able to work with more schools to create 
these cohorts. I do not believe this shuts out teachers that have taken 
a traditional route because all residents must go through the same 
hiring process. Even outside of my school, the BTR connection is 
strong, whether it is speaking to current residents, gathering with my 
cohort for graduate courses in Special Education, working with 
graduates from all years on the concept of turnaround schools, or just 
hanging out, I know that I am part of a strong and active network, one 
that works tirelessly for the students and families of Boston.

    The Chairman. Thank you very much, Mr. Valenzuela.
    And now Ms. Benbow.

  STATEMENT OF CAMILLA P. BENBOW, DEAN OF EDUCATION AND HUMAN 
     DEVELOPMENT, VANDERBILT UNIVERSITY'S PEABODY COLLEGE, 
                         NASHVILLE, TN

    Ms. Benbow. Chairman Harkin, Senator Enzi, members of the 
committee, I appreciate the opportunity to discuss how the 
Federal Government can support States and districts in ensuring 
that all students have great teachers and have great school 
leaders.
    I would point to the critical role of higher education. 
There can be no great teaching without great teacher 
preparation, and we prepare more than 85 percent of the 
teachers.
    To demonstrate that we are part of the solution, consider 
special education. Thanks to schools of education, since P.L. 
94-142 was passed in 1975, teachers trained in special 
education have enabled students to make strides once 
unimaginable.
    Our challenge now is to apply the same intensive effort to 
transform teaching and learning for all students. At 
Vanderbilt, our teacher candidates gain hundreds of hours of 
clinical experience beginning in their first year, including in 
hard-to-staff schools. They become expert at collecting and 
using data to tailor instruction. They double-major.
    To determine their readiness, we are working on a national 
teacher assessment. Our National Centers on School Choice and 
Performance Incentives conduct experiments to evaluate reform 
efforts, while numerous other researchers work to improve 
instruction in reading, math, and science and to pioneer 
strategies like response to intervention.
    We just announced a partnership with Nashville schools to 
improve middle school teaching in math, science, and literacy. 
This highly selective program provides a free customized 
master's degree for teachers in high-needs schools. The program 
will help attract and retain great teachers, strengthen 
instruction and assessment, improve student outcomes, and 
foster systemic change.
    To strengthen school leadership, we devised VAL-ED, a 
performance evaluation for school leaders, developed a 
Principals Leadership Academy, and trained more than 1,800 
superintendents and leaders across Tennessee.
    I offer these examples to illustrate what ed schools can do 
if empowered by strong Federal policy. The Higher Ed Task Force 
on Teacher Preparation has made recommendations to strengthen 
our ability to provide highly effective teachers such as 
keeping the Teacher Quality Partnerships Grant under Title II 
of HEA and investing in teacher preparation reforms under ESEA. 
Both are needed. Higher ed wants to be and should be a valued 
partner in transforming learning for all students.
    Thank you.
    [The prepared statement of Ms. Benbow follows:]
                Prepared Statement of Camilla P. Benbow
                                summary
    This document containing the written testimony of Dean Camilla P. 
Benbow includes the following elements:
    <bullet> A transcript of opening remarks (current as of April 13, 
2010) prepared for delivery on the date of the hearing.
    <bullet> A brief description of Peabody College's National Center 
on Performance Incentives.
    <bullet> A brief description of Peabody College's National Center 
on School Choice.
    <bullet> A program description of a joint effort developed by 
Peabody and the Metropolitan Nashville Public Schools to prepare highly 
skilled middle school teachers in mathematics, science and literacy.
    <bullet> A description of the Vanderbilt Assessment of Leadership 
in Education (VALED), a performance assessment tool for school leaders.
    <bullet> Recommendations regarding funding from the Higher 
Education Task Force on Teacher Preparation.
                                 ______
                                 
    Chairman Harkin, Senator Enzi, members of the committee, I am very 
appreciative of this opportunity to discuss teaching and leadership in 
American schools.
    You asked that we be prepared to address the question of how the 
Federal Government can support States and districts in ensuring that 
all students have great teachers and great school leaders. I would add 
to this question the critical role that institutions of higher 
education play in producing these teachers and leaders. Colleges and 
universities prepare more than 85 percent of teachers; there can be no 
great teaching without great teacher preparation, just as there can be 
no great principals without great principal preparation.
    Schools of education are and must be part of the solution. To 
demonstrate that we can be, permit me to point to special education. 
Thanks to schools of education, since Public Law 94-142 was originally 
passed in 1975, teachers trained intensively to work with students with 
special needs have enabled such students to make strides that were 
unimaginable 35 years ago. The challenge we now face is how to apply 
the same intensive effort to transform teaching and learning in high-
need, urban schools.
    To this end, our teacher candidates gain hundreds of hours of 
clinical experience beginning in their first year of study, including 
in hard to staff schools. They become expert at collecting and using 
data to tailor instruction. They double major. And, to determine their 
readiness, we are among those institutions working to develop a 
national teacher assessment.
    Other strategies include incentives for teachers, school choice and 
charter schools, improved teacher training and evaluation, and new 
roles for school leaders. In each instance, my own institution--
Vanderbilt University's Peabody College--is proud to play a role in the 
transformation of education. Our National Centers on School Choice and 
Performance Incentives, for example, conduct research to assess the 
effectiveness of various reform strategies.
    We also work with partners to strengthen practice by current 
teachers. We recently announced a partnership with the Metropolitan 
Nashville Public Schools to improve middle school teaching in 
mathematics, science and literacy. This highly selective program 
provides master's degree training to early career teachers in high-
needs schools, with tuition underwritten by Vanderbilt and the public 
schools. The program promises to attract and retain great teachers, to 
strengthen instruction (and assessment), to improve student outcomes, 
and to help foster systemic change.
    To strengthen school leadership, we have devised and disseminated 
the Vanderbilt Assessment of Leadership in Education (VAL-ED), a 
performance evaluation for school leaders. Our Principals Leadership 
Academy of Nashville annually prepares aspiring leaders for service in 
local schools. We have provided leadership training to more than 1,800 
superintendents and school leaders across Tennessee.
    I offer these examples to illustrate what more schools of education 
could do if empowered by strong Federal policy. The Higher Education 
Task Force on Teacher Preparation has offered recommendations which I 
believe can strengthen the contributions of our institutions to meet 
the critical need for highly effective teachers. These include full 
funding of the Teacher Quality Partnership grants in the Higher 
Education Act at $300 million and increasing the set-aside for higher 
education in Title II of ESEA to 5 percent. Both are needed. 
Institutions of higher education want to be, and should be, valued 
partners in the effort to transform learning for all students. Thank 
you.
               national center on performance incentives
    Policymakers have grown increasingly interested in innovative 
compensation plans, including performance-based pay for K-12 educators. 
Yet, efforts to reform pay have lacked grounding in a scholarly base of 
knowledge regarding the effectiveness of such plans. Educators, 
policymakers, and the greater public should know whether altering 
traditional compensation practices is an effective path to improving 
teaching and learning. The National Center on Performance Incentives 
was established to examine such questions as: does pay-for-performance 
work, what makes an effective teacher, what are the unintended 
consequences of performance pay, and how cost effective is performance 
pay? The signature research initiative of NCPI is a randomized field 
trial in Metropolitan Nashville Public Schools (MNPS) in which student 
achievement-related bonuses are being offered to teachers.
    To Learn More: http://www.performanceincentives.org.
                    national center on school choice
    Since 2004, the National Center on School Choice (NCSC) has been 
doing research on how school choice affects individuals, communities, 
and systems. The Center's work takes place across multiple disciplines 
and methodologies, and its aim is simple: to provide national 
intellectual leadership on the study of school choice in all its forms.
    Policymakers, educators and families need to know: Does school 
choice raise student achievement or improve school quality? Stratify 
students along racial, class, or ability lines? Spur traditional public 
school districts to change their behavior? Face limitations from 
political and legal constraints?
    To answer these questions, the Center has assembled an expert team 
of scholars--sociologists, economists, psychologists, political 
scientists, curriculum experts, psychometricians, statisticians--from 
some of the Nation's top research organizations. This collaboration 
partners the center's lead institution, Vanderbilt University's Peabody 
College, with the Brookings Institution, Brown University, the Center 
for Evaluation and Education Policy at Indiana University, Harvard 
University, the National Bureau of Economic Research, the Northwest 
Evaluation Association, and Stanford University.
    The Center is conducting major experimental and quasi-experimental 
studies of charter and magnet schools, voucher programs, parent 
involvement and satisfaction, student achievement, and what makes 
schools work. Scholars are also considering school transfer options 
under No Child Left Behind, supplemental education services, and home 
schooling. And they are examining school leadership, governance, laws, 
and policies.
    To Learn More: http://www.vanderbilt.edu/schoolchoice/.
          master's in teaching and learning in urban schools 
  peabody college in collaboration with metro nashville public schools

Curriculum Overview

    Peabody College is collaborating with the Metropolitan Nashville 
Public Schools to offer a set of innovative, customized Master's degree 
programs focusing on improving teaching in urban school settings and 
designed expressly for Metro teachers. Drawing on the rich intellectual 
resources available at Vanderbilt University's Peabody College of 
Education and Human Development and using the Metro schools as an 
applied laboratory setting, this 2-year program will work with cohorts 
of teachers in the upper elementary grades through grade 8 to deepen 
their knowledge and refine their instructional skills in one of three 
areas: literacy, mathematics or science. Admission to the program is 
highly selective.
    The Master's in Teaching and Learning in Urban Schools (TLUS) 
program provides capability for enhanced instructional effectiveness, 
improved student learning, and increased retention of excellent 
teachers within Metropolitan Nashville Public Schools.

The Program Vision

    The new Master's program is designed to achieve the following 
outcomes:

    1. Retain and attract excellent teachers. The program will recruit 
and retain outstanding new teachers. Teachers will want to remain in 
the Metro schools because the program will enable them to become more 
fully intellectually engaged and more professionally adept, and will 
promote networking among teacher colleagues who also attended the 
program and who may share the program's vision of learning and goals 
for continued improvement.
    2. Improve instruction. Teachers will deepen their disciplinary 
knowledge and understanding of learning and refine instructional 
methods as they experiment with new practices in their classrooms and 
discuss their experiences and best practices with colleagues.
    3. Improve student outcomes and change assessment practices. The 
definitive evidence that more effective instruction is being provided 
must come from assessments of student learning, but assessments used 
must align with skills and concepts being fostered. Students will be 
helped to learn to employ new assessments and assessment practices, to 
understand the proper conditions under which those practices may be 
deployed, and to use them to track student learning and make needed 
adjustments in their instructional methods to improve instruction and 
student outcomes.
    4. Foster systemic improvement. This Masters program must do more 
than educate and retain a few stellar teachers. It is designed to 
support development of communities of reflective practitioners in 
participating middle schools.
    Achieving this vision requires that Peabody College design a 
program tailored to the needs of working teachers and the school 
district to create conditions that facilitate teachers' efforts to 
deepen their knowledge, employ new instructional methods, assess 
children's learning and create nurturing professional learning 
communities.

Program Design Strategies

    Peabody College's Department of Teaching and Learning will deliver 
a 30-hour program that also draws on resources in the Department of 
Special Education and the Department of Leadership, Policy and 
Organizations. The TLUS program will be organized around the following 
core design elements:

    1. Cohort structure. Groups of 24 students enter the program 
simultaneously, with the cohort being divided into those specializing 
in literacy, mathematics or science. The three tracks have some classes 
in common as well as domain-specific classes. All students in a track 
take the same classes at the same time thereby ensuring intellectual 
cohesiveness that fosters communication among participants.
    2. Integration of content with practice. Classes are created with 
the intention of providing intellectually rigorous content instruction 
and realistic, research-based instructional methods. Students are 
taught by leading researchers and classes integrate research with 
practice. Each class includes classroom-based applications and supports 
teachers as they grow to understand how the things they are learning 
apply in their classrooms.
    3. Field-based learning. When students take courses specific to 
their instructional specialization they have on-site supervision from 
Peabody faculty who assist teachers in learning methods and reflecting 
on practice. Teachers also are supported as they begin to engage in 
discussions with colleagues about teaching and learning.
    4. Urban focus. The program is designed to assist students in 
understanding and experiencing instructional success working in urban 
classrooms. Every semester students participate in a seminar designed 
specifically for the program that addresses urban issues and provides a 
setting for discussing classroom instruction. Also, depending on the 
program specialization, students take one or more classes that address 
the needs of English Language learners and discuss how to work with 
children who use nonstandard varieties of English in their home.
    5. Reflective practice. The entire program is designed to assist 
teachers in becoming reflective practitioners by enabling them to grasp 
underlying principles governing learning and teaching and guiding them 
in learning how to reflect on their own practice. The ultimate 
realization of these experiences is the students' Capstone that serves 
as the culmination of their Masters program. Students complete the 
Capstone (also bearing 5-credit hours) in the second summer of their 
study, the program's final term.
    6. Create communities of practice. The program supports development 
of sustained reflection on practice at the building level by allocating 
an hour of course credit each semester to on-site discussions. When the 
TLUS students are prepared, these discussions are opened to other 
teachers in the building with interest in participating.

    The following elements are necessary for our vision to be maximally 
realized:

    1. Protected spaces for innovation. Teachers are expected to adopt 
instructional and assessment practices that in many cases are different 
from those currently being used. Teachers need to be in buildings where 
their principals not only allow but support such efforts.
    2. Communities of practice. For teachers to adopt instructional 
innovations that result in sustained improvements they need to be part 
of a community of practitioners who share their vision and understand 
their approach. These communities need to include several teachers who 
are in the same building. The Peabody-Metro cohort program can provide 
teachers settings for professional conversations while they are 
enrolled, but if these conversations and the novel practices are to be 
sustained there need to be several teachers in the same building who 
have participated in the program.
    3. Pathways of innovation. A single effective teacher can make a 
significant difference in a child's skills and knowledge and enthusiasm 
for learning, but for these effects to be retained and fully realized 
children need to experience superior teaching for several years. This 
could occur if the program enrolled teachers who were in the same 
feeder system from elementary into middle school. Having teachers 
across grades involved in the program would also make possible rich 
discussions across grade levels.

    If the vision we have for this program is fully realized we believe 
the result will be schools where teachers are engaged in cutting edge 
instruction that results in exceptional levels of student learning. We 
also believe the Peabody-MNPS partnership could become an exemplar of 
an effective and sustained university-school partnership nationally.

Program Evaluation

    In the program's formative stage, we seek to understand the degree 
to which the program is delivered successfully and its impact on 
helping the teachers establish themselves in their classrooms. Drawing 
on resources in the Department of Teaching and Learning and the Peabody 
Research Institute, we will keep records of what happens in Vanderbilt 
classes, we will intermittently debrief coaches about classroom 
instruction, and through interviews and surveys find teachers' 
reactions to the program. If resources permit, we also will develop and 
use a tool to guide observation of classrooms. We also will work with 
MNPS to track our teachers' success using material the schools 
routinely use to track the performance of middle school teachers.
    The evaluation will help us document the initial start up phase of 
the program, collect formative assessment data that will help to 
improve it, and gain insight into how the program is affecting teachers 
and communication among faculty. One goal is to understand in some 
detail how the program was created so that others can learn from our 
experience and to document effects in hopes that we find effects that 
will encourage others to replicate our program. Once the program is 
established we hope to seek funding from the Institute for Education 
Sciences to conduct an even more rigorous evaluation of its impact on 
teachers' instructional practices and children's learning.

For additional information:

    http://peabody.vanderbilt.edu/Teaching_and_Learning/
Graduate_Programs/Masters_Program_(MEd)/MNPS_Teachers_Masters.xml.
       vanderbilt assessment of leadership in education (val-ed)

About the Program

    The Vanderbilt Assessment of Leadership in Education (VAL-ED) 
utilizes a 360-degree, evidence-based approach to measure the 
effectiveness of school leadership behaviors known to influence teacher 
performance and student learning.

Questions Being Addressed

    Raising student achievement and closing the achievement gaps in 
America's schools depends on school leaders who effectively guide 
instructional improvement. However, the identification and development 
of effective school leaders has been significantly hampered by the lack 
of technically sound tools for assessing and monitoring leadership 
performance.

Funding Sources

    VAL-ED was developed with $1.5 million in funding from the Wallace 
Foundation.

Research to Practice

    <bullet> VAL-ED measures performance in six core components (high 
standards for student learning, rigorous curriculum, quality 
instruction, culture of learning and professional behavior, connections 
to external communities, and performance accountability) and six key 
process (planning, implementing, supporting, advocating, communicating, 
and monitoring).
    <bullet> VAL-ED is aligned with the national leadership standards 
set by the Interstate School Leaders Licensure Consortium.
    <bullet> Results are reported as comparisons to normative national 
profiles as well as proficiency standards (basic, proficient or 
distinguished).
    <bullet> The assessment was field tested in 100 elementary schools, 
100 middle schools and 100 high schools in 53 districts and 27 States.
    <bullet> The assessment incorporates psychometric properties 
typically unavailable in other evaluation instruments.
    <bullet> A review by Learning Point Associates concluded that 
``VAL-ED comes closest to measuring the leadership attributes and 
behaviors that research finds to be associated with how well students 
perform.'' (Education Week, January 6, 2010)

For Additional Information:

    http://peabody.vanderbilt.edu/Faculty_and_Research/
Peabody_Research_
Office/About_Peabody_Research/Funded_Projects/VAL-ED_Project_Home.xm.
          Higher Education Task Force On Teacher Preparation *
    the obama administration's fiscal year 2011 budget for teacher 
                    preparation in higher education
                               background
    <bullet> Taken together, the President's proposals would eliminate 
all targeted Federal support for teacher preparation in higher 
education.
    <bullet> The President's fiscal year 2011 budget eliminates the one 
program in higher education that supports the university-based 
preparation of teachers--the Title II Teacher Quality Partnership 
Grants, currently funded at $43 million (plus an additional $100 
million added as part of the stimulus).
    <bullet> The budget proposes moving these funds into a new 
authority in the Elementary and Secondary Education Act (ESEA) called 
the ``Teachers and Leaders Pathway'' program, under which $405 million 
would be available for competitive grants to support the creation or 
expansion of high-quality pathways to becoming a teacher or principal. 
The role of institutions of higher education is not clear.
    <bullet> In addition, the prior requirement of a 2.5 percent set-
aside for higher education (equal to $72.5 million) in the Title II 
ESEA Improving Teacher Quality State Grant is proposed for elimination.
    <bullet> These eliminations would mean that the sector that 
produces over 85 percent of all new teachers (higher education 
institutions) would not necessarily be receiving any funding for 
preparation of teachers. However, the demanding accountability and 
data-collection requirements in Title II of the Higher Education Act 
would remain in place.
    <bullet> The Teacher Quality Partnership Grants are a new 
comprehensive reform program, just designed in the 2008 reauthorization 
of the Higher Education Act. It was unanimously endorsed by both 
Republicans and Democrats. Only in September 2009 were the first grants 
awarded. While 179 proposals were submitted, funding was only available 
for 28. This program has not had a chance to prove its effectiveness.
    <bullet> Higher education supports competition for funding, as is 
currently required by the Teacher Quality Partnership Grants. 
Institutions of higher education also match Federal funding for teacher 
preparation at 100 percent. This contribution would be lost in the 
Obama administration's proposal.
    <bullet> The purpose of Title II of the Higher Education Act is to 
support reform of teacher preparation in higher education; this purpose 
would apparently become unfunded, while accountability requirements 
would remain.
                              our position
    <bullet> We oppose the elimination/consolidation of the Teacher 
Quality Partnership Grants in the Higher Education Act and the 
elimination of the 2.5 percent set-aside for higher education in Title 
II of ESEA in the fiscal year 2011 budget. We recommend full funding of 
the Teacher Quality Partnership Grants at the authorized level of $300 
million. We recommend that the set-aside for higher education in Title 
II of ESEA be increased to 5 percent in order to meet the critical need 
for high quality effective teachers.
    <bullet> Higher education is committed to innovative evidence-based 
educator preparation. The research demands that we invest in clinically 
based programs.
    <bullet> Our colleges and universities have changed significantly 
in the last decade to respond to the needs of today's diverse K-12 
classrooms by expanding partnerships with K-12 schools, strengthening 
partnerships with arts and sciences, and recruiting career changers 
into teacher preparation.
    <bullet> Higher education continues to be in a unique and 
unparalleled position to deliver effective teacher preparation, 
bringing together the expertise of the arts and sciences and research-
based pedagogy to ensure highly effective K-12 teachers.
    <bullet> Removing funds that strengthen teacher preparation 
programs from institutions that supply 85 percent of teachers entering 
the field will undermine progress toward moving us forward to the 
President's goal of having a highly effective teacher in every K-12 
classroom.

    * Text in this section is from a document prepared by the Higher 
Education Task Force on Teacher Education in March 2010. Members of the 
Task Force include:

    American Association of Colleges of Teacher Education
          Jane <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ce99abbdbae3e3a4b9abbdba8eafafadbaabe0a1bca9">[email&#160;protected]</a>
    American Association of State Colleges and Universities
          Bob <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="612c0e13000f4c4c2c0e13000f132100001202144f0e1306">[email&#160;protected]</a>;
          Blakely <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ffa89796939b9a91d2d2889796939b9a919dbf9e9e8c9c8ad1908d98">[email&#160;protected]</a>
    American Council on Education
          Becky <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="386c51555557564b15155a5d5b5341674c51555557564b78595b5d16565b505d165d5c4d">[email&#160;protected]</a>
    Association of American Universities
          Mollie <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d6f4843570000604241414448726f4843576d4c4c5803484958">[email&#160;protected]</a>
    Association of Jesuit Colleges and Universities
          Cyndy <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="44082d30302821222d2128206969273d2a203d082d3004252b286a272b29">[email&#160;protected]</a>
    Association of Public Land Grant Universities
          Sang <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="561e37387b7b253e37381637263a2378392431">[email&#160;protected]</a>
    National Association of Independent Colleges and Universities
          Stephanie <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c3b15190f191f171951512f08190c141d1215193c121d151f0952191809">[email&#160;protected]</a>
    State Higher Education Executive Officers
          Paul <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81cde8efe6e4efe7e4edf5e4f3acacf1ede8efe6e4efe7e4edf5e4f3c1f2e9e4e4eeafeef3e6">[email&#160;protected]</a>;
          Sharmila Basu <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="71321e1f1614035c5c0213121e1f16140331021914141e5f1e0316">[email&#160;protected]</a>

    The Chairman. Thank you very much, Ms. Benbow.
    And now we will go to Mr. Parmenter.

   STATEMENT OF LAYNE PARMENTER, PRINCIPAL, URIE ELEMENTARY, 
                           LYMAN, WY

    Mr. Parmenter. Thank you, Senator Harkin and Senator Enzi. 
I appreciate the invitation to be here and address this 
committee.
    There are a couple of points I would like to just talk 
about briefly this morning to consider for rural schools.
    Well, first of all, let me back up a little. I would like 
to say that I acknowledge that teachers are absolutely the key 
to our education system. They are the first priority and always 
have been and always need to be in my view.
    I would argue that second to them, that a good principal is 
really key. If you find a good school, you definitely have good 
teachers, but I would argue that you will have a good principal 
in there organizing the efforts. So I think we have an 
important role to play in the whole process.
    To move a little bit to the rural idea, one of the 
proposals, as I understand it, for the reauthorization of ESEA 
is to be competitive for grants. One of the things--that sounds 
good on the surface. We are competitive in America. We are a 
capitalist society. But I think that will disadvantage our 
rural schools. We do not have a grant writer on staff in our 
district. Again, many of our population are here today and have 
kind of depleted the population out in Wyoming. So for us to 
have to compete for those grants is going to be difficult. It 
will not be a level playing field and we just ask that it be.
    The second thing--and I agree. We need to do better at 
evaluation both for teachers and principals. I would say on the 
end for principals, we really need to have more autonomy. I 
understand that to turn the low-performing schools around, that 
there are four proposals. All of them include getting rid of 
the principals. I would say give the principal a little bit 
more autonomy up front because if you just fire them and then 
you bring somebody else in and then let them restructure the 
school however they want--just do that up front. Give the 
principal the autonomy up front, and then if they are not 
cutting it at a certain point, no problem. Then we will find a 
new principal. We need to. We need to have good people both for 
teachers and principals.
    I think we need a little bit better professional 
development for our principals. Almost all of the staff 
development I have seen has been oriented toward teachers. I 
think we have got to train these principals. I did a little bit 
of digging, and 61 percent of our principals in Wyoming have 
been in the job 5 years or fewer. So the demographics are we 
are a fairly young group. We need some good professional 
development, particularly I think in early childhood literacy 
and in how to turn low-performing schools around.
    With that, I need to summarize real quickly. Three ideas I 
think that are important.
    The common core standards I really like. Out there, if we 
do curriculum work, we pull somebody out of the classroom or 
from the office, and those folks have to work on curriculum. So 
a common core of standards, wherever they originate, I think is 
very important.
    Vertical data systems. Those are going to be very, very 
helpful to us to keep track of how we are performing at the 
school district level, ET cetera.
    Finally, I think we need to take a serious look at our 
evaluation systems both for teachers and principals. I believe 
we can improve them drastically.
    Thank you. I appreciate the chance to make these comments.
    [The prepared statement of Mr. Parmenter follows:]
                 Prepared Statement of Layne Parmenter
    Good morning. My name is Layne Parmenter and I am the principal of 
Urie Elementary School in Lyman, Wyoming. I would like to begin by 
thanking Chairman Harkin, Ranking Member Enzi and the members of the 
committee for your leadership and taking up the monumental task of 
reauthorizing the Elementary and Secondary Education Act (ESEA). As the 
sole principal representative before you today, I am honored to share 
the perspective of our Nation's elementary principals, especially those 
serving in rural areas. As you work to improve policies that will 
strengthen the ability of principals and teachers to lead schools to 
excellence, please know that principals wholeheartedly share your 
commitment to give every child a well-rounded education that will 
prepare them for college and successful careers. We know that next to 
good teachers in the classroom, principals are the driving force behind 
improved student achievement and learning outcomes.
    In today's era of accountability, principals are no longer just 
building managers--they are responsible for setting a vision of school 
excellence that centers on teaching and learning. They must work 
tirelessly to gain the support of teachers, parents, and the entire 
school community to take part in a collective responsibility that will 
ensure the academic success of every child. They must devote their time 
day in and day out to improving school conditions. Successful school 
principals know their vision of excellence depends on the ability to 
provide high-quality professional learning opportunities so that all 
teachers are able to improve their knowledge and skills in the 
classroom. They also know school culture must sustain a cycle of 
continuous improvement so that every teacher and student can be their 
best. The job of a principal is not easy--it is complex and demanding, 
but is also rewarding and it brings me great pride to know that the 
strength of school leadership can make a difference in the lives of 
students each and every day.
    For rural schools similar to Urie, the responsibilities of a 
principal are compounded by extreme poverty and the unique needs of the 
students that can rob them of their ability to learn well. Children 
come to school having had many different experiences: oftentimes unfed, 
clothed poorly, and lacking the social and emotional support essential 
for learning. Six out of ten Wyoming public schools are rural, and 
serve one-quarter of the State's public school enrollment. The rate of 
rural students qualifying for special education services is above the 
national average, and the household mobility rate in Wyoming is 
staggering, much higher than all but 8 other States across the Nation.
    These are challenging circumstances in times of dwindling resources 
that inhibit the ability of principals to meet the needs of all 
teachers and students. My school, one of several elementary schools in 
Uinta County School District, spans hundreds of square miles and serves 
280 students in grades K-4, with nearly 30 percent of the students 
eligible for free or reduced priced lunch. We are one of the State's 
concentrated areas of poverty and face challenges similar to other 
rural districts. In spite of this, better than 90 percent of the 
students in my district graduate from high school each year.
    In Wyoming, the correlation between high poverty rates and lower 
performance in high stakes testing, NAEP scores, and graduation rates 
is unmistakable. Despite these circumstances, I am proud to share that 
over 80 percent of the Urie Elementary School children in the third 
grade have met or exceeded State expectations in math, reading, and 
writing. Our students in fourth grade have met their learning goals, 
but we have much more work to do in developing reading and literacy 
skills. As the principal, it is my job to make sure that these learning 
needs do not go unrecognized. Comprehensive and on-going professional 
development opportunities for teachers in effective literacy 
instruction must be an integral part of our teachers' daily jobs. In 
spite of the fact that we work to achieve this goal with fewer 
resources and an increasing number of students come to school far from 
being eager or ready to learn, Urie has been able to make significant 
educational gains. We are proud of what we have been able to accomplish 
and proudly look forward to the work ahead.
    I am here to tell you that rural schools are making great progress 
despite the economic adversity. But we agree with Secretary Duncan--the 
Federal Government has traditionally under-invested in the role of the 
principal, and as a nation, we need to do much more to support and 
empower the leaders of our Nation's schools, no matter the 
circumstances they face.
    School progress, which in no small part is made possible through 
excellent teachers and the contributions of the entire school 
community, however, depends on giving the principal greater authority, 
autonomy, and resources to make key decisions in their schools, 
especially in rural communities. As you consider the many options and 
reforms to ESEA, I respectfully urge you to remember the complex and 
important job of the principal and the unique challenges of those 
serving in rural areas. The Administration has put forward goals in the 
``Blueprint for Reform'' that I believe principals agree with, and am 
happy to note that we are already working to fulfill the vision of many 
of the goals each day. But this work must be supported, especially for 
those in rural areas facing unique circumstances. In many rural and 
frontier areas, principals serve not only as the principal, but 
superintendent, curriculum director, counselor, math and special 
education teacher, facilities coordinator, and football coach. Where 
there is need for school improvement, we are the sole catalysts for 
change in our schools, and this depends on our capacity to best meet 
the needs of the teachers and students.
    Low pay and tough conditions, just like low student performance, 
are by-products of poverty. These problems are compounded in high-
poverty rural districts, which are often isolated and offer few other 
amenities such as good housing or job opportunities for spouses. 
Teachers tend to go where working conditions are easier, pay is better, 
and students face fewer challenges. But what I can tell you is that, 
where there is an excellent school, there is a great school principal.
    Principals currently in the field are responsible for identifying 
and developing leadership to fill the pipeline and next generation of 
our Nation's powerful school leaders. But they need more support 
helping aspiring leaders into the field. Approximately 50 percent of 
elementary school principals nationally have had 5--or fewer--years of 
experience at their current jobs. In Wyoming that number is 61 percent. 
Turning around a low-performing school is an exceptionally daunting 
task. I don't think there's a secret stash of principals out there with 
the experience and expertise to turn around the lowest-performing 
schools, particularly for rural areas.
    As we strive to improve our Nation's education system, the role of 
the school principal has been questioned. We know that school 
leadership matters, and I can tell you that it is unlike any other job 
in the school community. It requires tenacity and a commitment to lead 
a learning community with unwavering standards of excellence, a 
profound understanding of effective instruction, student needs and 
obstacles to their learning, and, in the end, the ability to get the 
job of teaching and learning done. They must be afforded the resources, 
tools, and time to make great things happen, no matter the challenges 
they face. Principals and teachers alike must have access to on-going 
and job-embedded professional development opportunities. For 
principals, this means high-quality standards-based mentoring programs 
that will support them in the profession. Mentoring and on-the-job 
professional development programs could help fill a number of gaps in 
the current models of principal preparation and training, and help 
those new to the field advance, especially in the case where 
relationships change and a teacher moves from supervisor of students to 
supervisor of adults.
    Elementary principals must now expand their knowledge base in early 
childhood education to better understand high-quality early learning 
activities and teaching practices, developmentally appropriate 
assessments and evaluating data to inform instruction, and forging new 
relationships within the community to build successful partnerships. 
Principals must learn how to best align programs that create a seamless 
continuum of learning that recognizes the social, emotional, and 
academic needs of children from disadvantaged backgrounds. Federal 
policies must reflect and support the research and practice that has 
redefined what elementary principals must know and be able to lead 
early childhood learning communities.
    This calls for greater Federal investment in professional 
development opportunities for principals to learn about the value of 
comprehensive systems that will support the work of early learning 
programs in their schools and communities, and provide them the tools 
and resources to drive instructional leadership.
    Now more than ever, it is clear that principals must be provided 
with resources to do their jobs. Rather than feeding into the cycle of 
depleting resources, schools that have the greatest needs must continue 
to receive targeted assistance to improve. While it may be 
unintentional, current Federal policies direct much needed resources to 
urban areas with high concentrations of poverty and leave rural areas 
behind. We must redistribute the weight of title I and other sorely 
needed Federal aid to school districts that have the greatest needs in 
rural and frontier areas.
    Finally, student and school performance in rural areas can be 
better gauged by an accountability system that shows the variety of 
ways in which children learn and succeed academically through the use 
of growth models. Student, teacher, and principal performance must be 
accurately measured and reflect the social and emotional development, 
language fluency and comprehension, creativity, adaptability, critical 
thinking and problem-solving skills of students--in addition to their 
proficiency in core academic content areas.
    Once again, thank you for the opportunity to share the principal 
perspective and the needs of schools in rural and frontier America. On 
behalf of all principals, I applaud the great work that you have begun 
to improve our Nation's education system and how we can better meet the 
learning needs of our children. I look forward to the discussion today 
and answering any questions you may have for me.

    The Chairman. Thank you, Mr. Parmenter.
    And now to close up, Mr. Schnur.

   STATEMENT OF JON SCHNUR, CHIEF EXECUTIVE OFFICER, AND CO-
      FOUNDER, NEW LEADERS FOR NEW SCHOOLS, WASHINGTON, DC

    Mr. Schnur. Thank you, Senator Harkin and Senator Enzi, 
members of the committee.
    I was joking with a member of your team before this got 
started, and she said that school leadership was on the agenda, 
although we are eighth and ninth out of nine. And I said that 
that is--well, last but not least, and that is significant 
progress over the focus that has often been placed on school 
leadership at the principal level and below the principal level 
for a long time. So thank you so much for your leadership on 
education, for this hearing, and for incorporating a focus on 
school leadership.
    I have some specific policy points in my written documents 
and will follow up with but a few points just about our lens 
about what we have learned in the country about effective 
principals and implications for policy.
    First of all, point number one, kind of an obvious point, 
but focusing on school leadership as part of a focus on the 
profession is crucial. And it really has not been done. One 
study came out a year or 2 ago showing $3 billion in title II 
funding, for example, that only 2 percent of Federal title II 
funds are spent on professional development for school 
leadership. It is called the Teacher and Principal Recruitment 
and Training Fund, but only 2 percent is even going to school 
leadership. In most of the school system efforts on teacher 
quality, most but not all forget the point that Mr. Parmenter 
just made, that you cannot get great teachers--there are a lot 
of factors, but you cannot get them without great principals 
who are focused on achievement, focused on instruction, 
attracting, retaining, developing, and holding accountable 
effective teachers. So the focus on it is crucial.
    The research shows that 60 percent of the in-school 
improvement in the school is related to the quality of the 
principal and the quality of the teacher. The teacher is number 
one at a third, but the quality of the principal is number two 
at 25 percent.
    And you cannot keep great teachers per your great points on 
retention without great principals. The Gates Foundation has a 
new study showing that 96 percent of teachers say that good 
leadership is the most important factor to retain teachers. So 
even as a teacher retention strategy, the investment is key.
    So number one, focus on it.
    Number two, it is a hard job. I was speaking with Donald 
Finoy a principal from Charlotte, North Carolina who is here, 
who is one of the best principals in the country. He has made 
dramatic improvements in Charlotte schools. I asked him just 
before the hearing what is the most important advice he would 
give to Senators here about this issue. He said remember it is 
a hard job and it has big implications for policy.
    We used to be number one in the world in education in 
America. We have slipped to the middle of the pack, not because 
we have gone down, but because the rest of the countries have 
gone ahead. Our task is to make dramatic improvements to catch 
up and surpass the rest of the world, and what our kids need, 
especially kids in poverty--the job of doing that is so hard 
that the need for both investments, accountability, and support 
from the Federal Government to do a much harder job than it 
used to be for school leadership and teachers is key.
    Third, my final point is the focus on performance and 
achievement and learning about what works is just crucial. I 
would say our data in our organization has been absolutely 
indispensable to creating a good training program and learning 
from that for principals. The most important thing we have seen 
is that we actually have school principals that are driving 
spectacular gains in student achievement. We have got some who 
do not. And we have tracked the difference. We are out-
performing the school systems we are in, but of our own 
principals, we are transparent. Three years ago, only fifteen 
percent of our very well trained principals were making 
breakthrough gains in achievement. We studied the patterns of 
what those principals were doing. They are so consistent. We 
used a process of continuous improvement based on the data and 
we have gone from 15 percent to 32 percent of our schools 
making breakthrough gains. That does not sound very good, but 
it is double the percentage of schools in our school systems 
making breakthrough gains. The most important lever I would 
close with to improve principal quality is not a laundry list 
of requirements, but is significant funding and a focus on 
transparency and data on achievement to ensure improvement of 
all the institutions that are supporting the principals.
    [The prepared statement of Mr. Schnur follows:]
                   Prepared Statement of John Schnur
                                summary
  prioritizing effective teachers and leaders in esea reauthorization
    Research has shown that nearly 60 percent of a school's impact on 
student achievement is attributable to principal and teacher 
effectiveness, 25 percent being directly attributable to principals. 
Effective principals ensure a high quality teaching staff through human 
capital management and instructional leadership, including the critical 
work of retaining the best teachers. In one recent survey of 40,000 
teachers, ``96 percent rated supportive leadership as absolutely 
essential or very important to retaining good teachers, more than any 
other factor.'' Therefore, whole-school change led by an effective 
principal is a crucial component of any effort to promote improved 
student learning and teacher effectiveness.
    New Leaders for New Schools has analyzed the practices of 
principals making breakthrough gains in student achievement, the kind 
that will be required to close the achievement gap and change the 
trajectory of students' lives. This analysis of proof point schools has 
re-affirmed that: (1) all students can achieve at high levels, and (2) 
the patterns found in these schools can be scaled.
    Given this data on the vital impact principals have on student 
achievement and teacher effectiveness, we recommend that ESEA:

        (1) Place a critical focus on school leadership both in terms 
        of investments and accountability in effective school 
        leadership. Currently, only a tiny portion of the title II 
        funds which make up the largest single vehicle for addressing 
        this need and opportunity goes to school leadership. Senator 
        Franken and Senator Hatch's proposed School Principal 
        Recruitment and Training Act of 2009, which creates a 
        competitive funding stream devoted to school leadership, serves 
        as an important foundation on which Congress can build to 
        ensure truly effective leadership in every school.
        (2) Create a child- and performance-oriented approach to school 
        leadership, including tracking outcomes and strategies for 
        developing leaders to use as a means of accountability and 
        continuous improvement. ESEA can focus on principal performance 
        by:

            a. Incentivizing States and school systems to measure 
        principal effectiveness in a meaningful way that includes but 
        is not limited to looking at student achievement impact and the 
        practices correlating to those gains.
            b. Investing in professional development for principals and 
        other school leaders and tying that professional development to 
        data and results. As instructional leaders, principals are a 
        major driver of professional development for teachers, they 
        play a major role in teacher evaluations, and they are also the 
        number one factor for teacher retention. Investment in the 
        ongoing professional development of principals is crucial to 
        promote teacher effectiveness and student achievement gains, 
        especially in high-need schools and school systems.
            c. Requiring teacher and principal preparation programs to 
        track their graduates and ensure results--including their 
        placement in and impact on high-need schools and districts--and 
        base future investments upon those results, irrespective of 
        their status as traditional or alternative routes to 
        certification.
            d. Investing in research and evaluation of human capital 
        initiatives that are tied to student achievement, so that we 
        can effectively identify what works and doesn't work, what 
        explains the difference and incorporate those lessons into our 
        work at scale.

        (3) Be used as a vehicle to drive innovation and improvement 
        through a much greater focus on competitive and performance-
        based grants. While formula-based funds are critical to 
        ensuring more widespread reforms and results, it is essential 
        that we incent all education stakeholders to drive dramatic 
        change by focusing on quality and results in a competitive 
        system. Building on this direction, we would recommend ensuring 
        clear alignment of all the teacher and leader funding streams, 
        both formula and competitive-based.
        (4) Limit and even reduce the number of compliance-oriented 
        requirements for schools and schools systems. School change 
        does not happen by mandating a laundry list of prescribed 
        regulations; rather, we should be clear around the non-
        negotiable expectations, but still be flexible enough to enable 
        educators to spend more time focusing on student achievement.
                                 ______
                                 
  Prioritizing Effective Teachers and Leaders in ESEA Reauthorization
    Thank you for the opportunity to provide testimony to the Senate 
Health, Education, Labor, and Pensions Committee today on the critical 
topic of reauthorizing the Elementary and Secondary Education Act in 
order to reach the goal of ensuring that every student in every 
classroom achieves at the highest levels.
    Since the 2002 reauthorization of ESEA, the Nation has learned many 
lessons on what has and what has not worked. There are pockets of 
excellence that prove beyond a doubt that all children, irrespective of 
their social and economic status, can excel. An opportunity now exists 
to scale these pockets of excellence into systems of excellence. I 
would like to thank Chairman Harkin and Senator Enzi and the members of 
this committee for their great efforts to take advantage of this 
opportunity and reauthorize ESEA in a bipartisan and effective manner.
    Research has shown that nearly 60 percent of a school's impact on 
student achievement is attributable to principal and teacher 
effectiveness, 25 percent being directly attributable to principals. 
This statistic is not surprising given that principals are responsible 
for hiring teachers, developing school culture, and serving as 
instructional leaders.
    With the other 33 percent of a school's impact being attributable 
to teachers, the principal's role in attracting and retaining effective 
teachers is key to making substantial achievement gains that are 
sustained over time. Effective principals ensure a high quality 
teaching staff through human capital management and instructional 
leadership, including the critical work of retaining the best teachers. 
In one recent survey of 40,000 teachers, ``96 percent rated supportive 
leadership as absolutely essential or very important to retaining good 
teachers, more than any other factor.'' Therefore, whole-school change 
led by an effective principal is a crucial component of any effort to 
promote improved student learning and teacher effectiveness.
    As the Chief Executive Officer and co-founder of New Leaders for 
New Schools, I am pleased to provide some information about our 
learnings so far on improving teacher and leader success from our 
current principal training work in over 400 schools serving 220,000 
mostly low-income students in high-poverty communities in nine States 
across the United States--including: California, Illinois, Louisiana, 
Maryland, New Jersey, New York, North Carolina, Tennessee and 
Wisconsin--as well as the District of Columbia.
    Just as important as our direct work and impact on leaders and 
children, New Leaders has become an innovative action tank blending the 
power of a think tank with the results of and lessons learned from 
dozens of schools and school systems, including documenting and sharing 
practices through our Effective Practices Incentive Community (EPIC) 
across 26 States along with Washington, DC. In addition to our internal 
analyses, we have partnered with RAND, which has designed a 
longitudinal research project that provides critical learning to our 
organization. Using the results of these analyses, we are learning 
what's working and what's not so that we can not only improve our 
principal training program but also share out our learnings to inform 
education policy at all levels.
    Our data show that New Leaders principals are outperforming their 
peers by statistically significant margins. The percent of New Leaders 
K-8 principals beyond their first year making breakthrough gains in 
their schools increased from 15 percent in 2007 to 31 percent in 2009, 
even as our community has increased in size. And New Leaders-led high 
schools are also graduating students at higher rates and increasing the 
percent of graduates by wider margins than other schools.
    Our analysis of the principals that have made breakthrough gains 
reveal that the patterns of what is happening in these schools, 
particularly as it pertains to phases of school improvement and school 
culture, are incredibly consistent. The schools these principals are 
leading serve as proof points that: (1) all students can achieve at 
high levels, and (2) the patterns found in these schools can be scaled. 
It is the data and insights that we have gained from our work in these 
high-need schools that form the foundation of the following 
recommendations for ESEA reauthorization:

        (1) First, the reauthorization must place a critical focus on 
        school leadership both in terms of investments and 
        accountability in effective school leadership. Currently, only 
        a tiny portion of the title II funds which make up the largest 
        single vehicle for addressing this need and opportunity goes to 
        school leadership. Senator Franken and Senator Hatch's proposed 
        School Principal Recruitment and Training Act of 2009, which 
        creates a competitive funding stream devoted to school 
        leadership, serves as an important foundation on which Congress 
        can build to ensure truly effective leadership in every school.
        (2) Second, the reauthorization should create a child- and 
        performance-oriented approach to school leadership, including 
        tracking outcomes and strategies for developing leaders to use 
        as a means of accountability and continuous improvement. ESEA 
        can focus on principal performance by:

            a. Incentivizing States and school systems to measure 
        principal effectiveness in a meaningful way that includes but 
        is not limited to looking at student achievement impact and the 
        practices correlating to those gains.
            b. Investing in professional development for principals and 
        other school leaders and tying that professional development to 
        data and results. As instructional leaders, principals are a 
        major driver of professional development for teachers, they 
        play a major role in teacher evaluations, and they are also the 
        number one factor for teacher retention. Investment in the 
        ongoing professional development of principals is crucial to 
        promote teacher effectiveness and student achievement gains, 
        especially in high-need schools and school systems.
            c. Requiring teacher and principal preparation programs to 
        track their graduates and ensure results--including their 
        placement in and impact on high-need schools and districts--and 
        base future investments upon those results, irrespective of 
        their status as traditional or alternative routes to 
        certification.
            d. Investing in research and evaluation of human capital 
        initiatives that are tied to student achievement, so that we 
        can effectively identify what works and doesn't work, what 
        explains the difference and incorporate those lessons into our 
        work at scale.

        (3) Third, ESEA should be used as a vehicle to drive innovation 
        and improvement through a much greater focus on competitive and 
        performance-based grants. While formula-based funds are 
        critical to ensuring more widespread reforms and results, it is 
        essential that we incent all education stakeholders to drive 
        dramatic change by focusing on quality and results in a 
        competitive system. Building on this direction, we would 
        recommend ensuring clear alignment of all the teacher and 
        leader funding streams, both formula and competitive-based.
        (4) Fourth, ESEA should limit and even reduce the number of 
        compliance-oriented requirements for schools and schools 
        systems. School change does not happen by mandating a laundry 
        list of prescribed regulations; rather, we should be clear 
        around the non-negotiable expectations, but still be flexible 
        enough to enable educators to spend more time focusing on 
        student achievement.

    Thank you again for the opportunity to share our recommendations, 
which are based on New Leaders' 10 years of working in high-need 
schools. I appreciate your continued leadership on these issues and I 
would be happy to discuss these issues in further detail to help inform 
your work to strengthen the ESEA to realize its full potential in 
making major strides in student achievement outcomes for our Nation's 
children.

    The Chairman. Thank you very much, Mr. Schnur.
    Now, a couple of guidelines to help run this smoothly. If 
anyone wants to answer questions being asked or respond to a 
comment, take your nameplate and stand it like that. And I have 
got someone here who is going to try to keep track of the order 
so I can keep it moving. The same goes for Senators who are 
here. If you want to ask a question, just put your nameplate up 
like that and I will call on you and in no particular order.
    [Laughter.]
    And if any of you--are we also going to talk about 
discipline in schools?
    [Laughter.]
    Ms. Fesmire. I tell people all the time that teaching is 
like driving a dog sled pulled by cats.
    [Laughter.]
    The Chairman. If any of you want to leap in or say 
something, just turn your nameplate up or hold it up and I will 
call on you too.
    Senator Franken.

                            Senator Franken

    Senator Franken. Thank you.
    Mr. Schnur, thank you for talking about principals. Senator 
Hatch and I have a bill we have introduced for recruitment and 
training of principals. I just want to talk to you or ask you 
about--obviously, the teachers are the most important thing, 
but you are talking about how principals basically recruit 
teachers themselves and create the ethos in the school and are 
responsible for leading in the school. And yet, we really have 
put very, very, very little focus on the training of 
principals.
    Part of what our bill does is create a kind of a residency 
where you spend a year, if you are an aspiring principal or a 
principal who wants to become a better principal, with a 
principal who has successfully turned a school around. Is that 
a model that you have seen that has worked? And this is open to 
anybody, obviously, but I just thought I would go with you.
    Mr. Schnur. Yes, Senator Franken. Thank you for your 
leadership. The legislation that you have introduced and 
Senator Hatch has introduced on school leadership I think is an 
exemplar of what can be done in school leadership. New Leaders 
for New Schools runs residency-based principal training 
programs in 10 States across the country. We select 7 percent 
of applicants. We invest in a year of training as a residency 
with a great principal, several years of coaching on the job. 
So we have studied very carefully as an action tank. At New 
Leaders, we say it is not a think tank but an action tank of 
lots of schools, lots of data. What have we learned?
    The big message I would give you is I think the results 
from the training programs with residencies are--the principals 
are getting better results than the school systems they are in. 
I think it is a wise investment. I think your legislation's 
focus on performance and tracking that data on achievement, on 
retention, and using that to determine whether on an ongoing 
basis you would fund programs in a performance-based way is 
great not only for accountability but driving the continuous 
improvement that we are seeing in our programs. So thank you.
    Senator Franken. This all comes down to, in every aspect of 
this, in teachers and everything, on evaluation and how you 
evaluate. And I think that is something other Senators are 
going to want to get into. But what I heard as a common theme 
was to use the evaluation of teachers and principals as a part 
of the development, just as the evaluation that we are talking 
about in terms of growth models for kids, that the students--
the evaluation of how the kids are doing be used as a way of 
teaching, be used diagnostically, be able to be used by 
teachers so that the assessment process and the evaluation 
process are part of the learning process. That is not a 
question.
    The Chairman. I assume that all the people who have their 
nameplates up want to respond on point to Senator Franken. I 
will try to keep these in order. We will start with Ms. 
Weingarten, and then Benbow, Moir, Parmenter, Kane, and 
Fesmire. All on this point. Is it a question or a statement?
    Ms. Weingarten. I think Senator Franken is absolutely 
right. We have spent a bunch of time looking at this issue as 
has Senator Bennet and Senator Reed. Both of them have put 
together incredibly powerful bills on how to focus on teacher 
evaluation. They do it a little bit differently, but both of 
them should be commended for the bills that they have put in in 
terms of looking at this.
    But the issue, though, is it has to be teacher development 
and evaluation and it has to be done in a continuous model, in 
some ways just like the speaker all the way to the left, Jon, 
has said because if you just simply look at evaluation, then it 
becomes a got 'cha, and it becomes the end of the road not at 
the beginning of the road.
    But the continuous model that Tom Kane was talking about is 
also important because if you are only looking at data, 
particularly data on what is still very flawed tests--the 
testing systems that we have these days are still quite flawed. 
We have to look at multiple measures. We have to look at 
teacher practice. We have to inform that practice, and then we 
have to look at evidence of student learning.
    So what we are actually trying to get districts to do is to 
see if we can get 25 to 50 districts this year with their 
unions like Douglas County in Colorado to actually start 
building and developing those kind of continuous development 
and improvement evaluation systems and ultimately, if we get 
that, it will work.
    The Chairman. Okay. Ms. Benbow, could you weigh in on this?
    Ms. Benbow. The Principal Leadership Academy of Nashville 
does exactly what you are describing. We take aspiring 
principals and sitting principals. In the summer, they have an 
intensive experience with us where they learn about learning 
because principals should be leaders of learning. They learn 
about how to create change and, of course, other aspects too. 
It is very intensive. Then it is a yearlong program where they 
are attached to a mentor, an experienced principal who has been 
effective. They also have a project. The program continues 
throughout the year. They meet monthly to reflect on their 
practice, that they are learning. And then it continues for 1 
more year beyond that.
    We have been doing this with Nashville in a cohort fashion 
for over 10 years. We have trained almost all principals coming 
through. But it has been extremely effective. It has been done 
in partnership with the Nashville schools. So they were part of 
the design team, and I mentioned this in my comments because I 
think it is an example of effective practice. So I encourage 
you to push forward with your efforts. Thank you.
    The Chairman. Ms. Moir?
    Ms. Moir. Yes. I wanted to just add. I think we have 
underestimated for all these years the critical importance of 
principals. Principal development, principal recruitment, 
selection, support, and development is hugely important. I 
think your bill and that of Senator Reed are just so incredibly 
important to not forget principal development.
    Linking teacher evaluation, just as you just heard, around 
this continuous improvement, not just as an end in its own, but 
as a way for teachers and principals to learn how to become 
better faster.
    The last point I want to make--and it is really tied also 
to your comment and question, Senator Harkin--is who leaves 
teaching within the first 3 to 5 years and why are they 
leaving. Well, we are not exactly sure who is leaving, but I 
would hazard a guess that it is some of your top candidates. 
They are the ones who are leaving because they are very 
frustrated with the system.
    But our teaching and learning conditions indicate that the 
top three reasons why teachers are leaving are, number one, 
because of a principal, lack of solid leadership in the school. 
The second reason they are leaving is because there are not 
good leadership opportunities for them. And third, they are 
leaving because of a lack of mentoring and induction.
    The Chairman. Mr. Parmenter.
    Mr. Parmenter. Yes. I would just certainly agree with that 
last statement. As principals, we definitely need to step up 
and make sure that we are doing a good job in teacher 
evaluation systems, giving teachers feedback so that they can 
improve. There is no question about that.
    But I would also argue that we are a fairly young group 
demographically nationally, and we are going to need some 
training. I thought about if I had to go to a really high-
poverty school--we have some poverty, but say, for example, you 
said to me I have to go to a high-poverty school, not great 
parent support--you can imagine all the different demographics 
you can get and how difficult it would be. That would be a 
terribly daunting thing to do. So I think we need training in 
how to turn schools around, especially if they are low.
    And the other place I mentioned is early literacy.
    We are going to have to find our way a little bit on this 
one, but the total number of days of staff development I have 
had provided to me in my district over 10 years of being a 
principal is about 2. I go out and I get staff development. It 
is not like I do not. And it is kind of a rural school thing. 
We have three principals in our entire school district. So I 
have to go out to get it. It is expensive. It is time-
consuming. I am away from the building. So we do need to 
provide in my mind a funding source that will help us be better 
at what we do. I think there is no lack of desire on the part 
of teachers or principals to do a great job. I think we do 
about the best we know how to do, all of us. So a little bit 
more training I think. A lot more training.
    The Chairman. Well, now, let us see. I want to move ahead 
to other Senators. Mr. Kane and Ms. Fesmire, on this point?
    Mr. Kane. The most important decision a principal makes is 
whether or not to tenure a teacher, and yet today, without any 
objective information, principals tenure pretty much anybody 
who is willing to stick around the classroom 2 or 3 years. They 
punt. So actually I think the most powerful thing we could do 
to help principals do their job is to give them better 
objective data on the performance of their teachers and to 
empower them to make the tough decisions that we are expecting 
them to make.
    Ms. Fesmire. I am really going to be quick.
    The reason I think that we have had such success in my 
district is because our principals have been expected to be a 
part of curricular reform that we have in our district. So our 
principals attend all of the professional development that 
their staff attends. We have continuous improvement and 
advisory days built into our school calendar that our 
principals are a part of grade level meetings. They work with 
instructional coaches. You know, I have been teaching a long 
time, and I will be a long time more.
    But what I have seen about principal effectiveness is my 
principal no longer sees himself as a CEO, as a manager. He 
sees himself as the instructional leader in my building. And I 
think that is what has made a huge difference in our school 
district is having those principals part of the professional 
development that is happening.
    The Chairman. Yes, Ms. Hirsh.
    Ms. Hirsh. Thank you. I just want to follow up on that 
comment to say in addition to a great preparation program, 
great school systems ensure that there is professional 
development for principals as a leadership group and then great 
school districts expect principals to participate in their 
school professional development with their teachers. Teachers 
need to see that principals prioritize what they expect to see 
happen in classrooms.
    The Chairman. Again, I am inviting Senators who are here, 
if you have comments on this point that you wanted to give, 
jump in, go ahead and interrupt. I do not need to even call on 
you if you have something on this point. My card is telling me 
there was Senator Murkowski, Senator Bennet, and Senator 
Alexander, in that order. But again, I did not know if anybody 
had a specific--

                           Senator Murkowski

    Senator Murkowski. I was going to follow up on the 
mentoring aspect specifically, and I appreciate your comments, 
Ms. Moir, because we have seen in Alaska some really very 
promising results with the teacher mentoring program. It has 
been really exciting because we are struggling with some issues 
as they relate to recruitment and retention, and we are really 
seeing those gains within the mentoring.
    But I am curious because not everybody is a good teacher 
and not everybody is a good mentor. Mr. Valenzuela, I was 
interested. You said you were very fortunate you had a good 
mentor, and the two attributes that you listed were that they 
were young and they had 9 years of experience, not necessarily 
indicators that it is going to be a good match.
    Tell me how we make sure that we really have good mentors, 
whether it is for the teachers or the mentors or the 
principals. I think that that has to be an aspect of what we 
are doing to provide for these training opportunities and for 
the professional development. So I throw that out to the group.
    The Chairman. Before you answer, is this sort of on your 
point?

                              Senator Reed

    Senator Reed. My point was to say that Ms. Fesmire made a 
point more eloquently than I have made in a long, long time, 
which is principals have to be educational leaders not bus 
monitors, milk fund trustees. We all know of principals that 
have to look out in poor schools to make sure kids have coats. 
This ties into accountability too. If we are going to hold 
principals truly accountable--I mean, we say they are 
instructional leaders, but what really gets them fired is if 
the buses do not run on time or the buildings leak--then they 
are going to have to be educational leaders. We have to orient 
our accountability systems and our evaluation systems so that 
at the end of the day principals survive or fail based upon 
their interaction with teachers and the development of 
teachers. And if we do that, I think we will be in good shape. 
You made the point better, and I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Weingarten and Ms. Benbow.
    Ms. Weingarten. Senator, you can do this in terms of 
residency programs and some career ladder programs that some of 
the districts are doing, some are not. But if you create career 
ladder programs and some of these kind of residency programs 
that some of the speakers are talking about--Ellen has created 
them. Others I am sure have created them. We have created them 
in New York City when I was there.
    But a career ladder program would be one where you identify 
great teachers. I am always leery about using one point of 
data. Through a multiple measure process, you create lead 
teachers. We did that in the South Bronx. We then had them work 
intensively with new teachers, and we saw the South Bronx 
scores soar in the next year. So there are ways of doing that 
in terms of both growing your own in residency programs as well 
as career ladders.
    The Chairman. Ms. Benbow.
    Ms. Benbow. Yes. We have actually developed an instrument 
to measure the effectiveness of school leadership, and if you 
want to have a mentor, you want an effective school leader. 
Through the research, we have identified several components of 
what makes a good leader. There are high standards for student 
learning. They promote rigorous curriculum. They themselves can 
demonstrate quality instruction. They promote a culture of 
learning and professional behavior. They are strong connections 
to the community, and they believe in performance 
accountability. There are other things like planning, 
implementing, and supporting, but yes, there are ways of 
identifying who are the effective principals, and those are the 
ones that you want to be mentors. Of course, there are other 
attributes of being a mentor, to being able to be a coach, and 
so on that goes beyond that, but I think that is the first stop 
that you need to get to.
    Thank you.
    The Chairman. Mr. Valenzuela, did have a point on this?
    Mr. Valenzuela. Yes. I just wanted to say that it is not 
just that my mentor was young. She was 31 at the time but had 
spent 9 years teaching across different districts. So it was 
not just that, but I think her open-mindedness about allowing 
another individual into the classroom--I know other teachers 
can speak to this, but there is something territorial about a 
classroom that you want to run your show in the way that you 
are comfortable. And I think good mentors allow 
experimentation. They allow teachers who are learning the craft 
to try different things. So I think it is not that a resident 
is your assistant and photocopier and gets coffee. It is that 
you are really trying things that you are learning in graduate 
courses.
    And mentors definitely need training. I know our program 
spends a lot of time giving mentors opportunities to learn 
about how to include teachers in the process of planning, 
instruction, all the things that have been mentioned here.
    So I think on the very fundamental level, mentor-resident 
relationships are just that. They are a relationship that 
requires teacher collaboration at the most essential level 
because you are with a mentor for an entire year. You spend a 
lot of hours with that person. So those are the things that I 
could say make a strong relationship.
    The Chairman. Ms. Moir, then Mr. Schnur. Then we will go to 
Senator Bennet.
    Ms. Moir. I will just tie into what Jose just said. I think 
historically we sort of think of a mentor or a coach as the 
buddy next door who has time on their timetable. We are talking 
about something very rigorous, about careful selection. And so 
the criteria we think about is that the teacher him or herself 
has to be an expert teacher and you have to use, as Randi just 
said, multiple measures, multiple ways of assessing through 
interview, through looking at student achievement test score 
data, by looking at the kind of literacy approach a teacher has 
in their classroom, by just making sure they are meeting school 
benchmark assessments, that these teachers themselves or even 
principal coaches are outstanding in the work they do. It could 
be a terrible waste of money if we just had the status quo and 
people that are not very good are teaching people how to be not 
very good. So again, it is stepping up that level of rigor.
    The final point I want to make is tying this into a career 
lattice or a career ladder is critically important. It gives 
teachers a chance to see a pathway for a career that includes 
teaching kids but also includes the best and the brightest 
teaching other teachers or other principals how to teach or be 
principals.
    Mr. Schnur. I would just add 10 years ago when New Leaders 
for New Schools began a principal mentoring residency-based 
program--and we sort of pioneered and many think of us as the 
leading national example of this kind of approach for school 
leadership. What I would tell you is I wish we had known 10 
years ago what we know now because we learned a lot about what 
works and does not work. And I think the implications are very 
direct for the Federal Government.
    Just very briefly. One is there are a set of qualities that 
we have seen, a set of behaviors and qualities for school 
leaders that are very consistent for the school leaders that 
are getting big gains and for whether people are becoming 
principals or principal mentors or teacher leaders who are 
moving into other leadership positions. There are very 
consistent qualities that essentially boil down to people who 
understand how to drive instructional improvement with data, 
how to create cultures of high expectations and personal 
responsibility among adults in the school for student outcomes, 
the code of conduct in the school that allows there to be 
discipline, focus on learning with a caring environment, a 
focus on talent, finding great talent, developing great talent, 
evaluating talent well, and being willing to counsel people out 
and dismiss people when they have had support and had fair 
measures, but nonetheless should not be in the school anymore.
    And finally, the personal leadership that they need. There 
are certain values. The blend of both having a spine to stand 
up for what is right, but having the interpersonal skills, the 
leadership to understand how to bring many, not everybody, but 
many people along. And those qualities I think have been the--
most program selecting principals or mentors for principals 
have not looked at those qualities.
    The other point I would make is no matter how good a 
program it is--and our program I think is considered quite 
good, and I do think there is a role for external organizations 
like New Leaders for New Schools and partnering with school 
systems and others. In the end, I think the way this gets done 
on scale is through school systems that are both holding people 
accountable but then have the dollars to really invest day in/
day out in people's leadership so that your mentor is not just 
your mentor, but your associate superintendent who is managing 
the principal understands how to play that role. If they are 
held accountable in exchange for investments at all levels in 
the school system from the time you are a third-year teacher, 
the time you are a master principal or what Ellen was saying, 
having a career ladder and lattice--the opportunity to do 
competitive grants in my view for programs in districts 
creating examples that could be documented and evaluated for 
how school systems could take what is learned and take it to 
scale is a big opportunity for the Senate.
    The Chairman. Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. I appreciate it. I 
wish I could be here all day. I am running out for a Holocaust 
remembrance. My mom and her parents survived the war, the 
Holocaust in Warsaw, and then my mom was a proud product of the 
New York City public schools. So it is nice to see you here.
    I want to remind us for a moment why we are here. I think 
there are roughly about 100 people sitting around this table 
today. If these 100 people were children in poverty in our 
country, eighth graders, 15 of them would be proficient in 
math, and if they were ninth graders, roughly 9 of them would 
graduate from a 4-year college. So that is where we are today 
in terms of our outcomes.
    I admire everybody that is up here and actually agree with 
everything that has been said. My own personal view is that as 
long as we have a system that was largely designed in colonial 
America and we have a human capital system that was designed in 
the labor market that discriminated against women, our chances 
of changing those odds no matter what we do are very unlikely.
    I wonder if any of you that feel a response to anything 
that I just said--and take it in the spirit in which I am 
saying it as a supporter of the work that all of you are 
doing--how important it is for people in this town to 
understand what value we attach to innovation versus keeping 
the system the way that it is and what implications that has 
for the way we should think about the very underpinnings of how 
the Federal Government approaches the funding of public 
education in this country.
    The Chairman. Well, you know, can I raise mine? Where is 
mine?
    [Laughter.]
    I have said for many years, can someone show me in the 
Constitution of the United States where it says that elementary 
and secondary education is to be funded by property taxes? 
Where is that? Why do we do that?
    What first got me onto this is in the 1980s when I read 
Jonathan Kozol's book, Savage Inequalities.
    Why are there poor schools in poor areas and nicer schools 
in nice areas? Well, look at your property tax system. Now that 
started in colonial times.
    Senator Bennet. Right.
    The Chairman. Now, it started in colonial times because 
that is the only taxing system they had at the time, property 
taxes and some excise import. They had some tariffs and stuff 
that they used at that time to fund education.
    And in pre-colonial times, they wanted to have a free 
public education in America. They wanted free public education, 
well, for white males. But then that extended on and we kept 
having that system of funding through property taxes.
    And then later on, it morphed into a system of what I call 
subtle segregation. If you lived in a better area of town, you 
had your property taxes. You had your school system. You did 
not have to let those other people into your schools. I am not 
just talking about racial segregation. I am talking about 
economic segregation. And so we continued that whole policy all 
the way through.
    The Federal Government never got involved in elementary and 
secondary education. Never. It never really got involved in 
education until--the first was the land grant colleges. Mostly 
it was in higher education. Not until the Elementary and 
Secondary Education Act of 1965. It was the first time the 
Federal Government ever got involved in trying to level that 
field a little bit.
    Now, some States have had equalization formulas. Our State 
has one. They work somewhat. Some States do it better than 
others, but it is a hodgepodge around there.
    So I think Senator Bennet has raised the essential 
question. If we do not change this underpinning of how this is 
all funded and how this is all paid for--I do not know if that 
is the essence of your question, Senator Bennet, but it is sort 
of the underpinning of how this is structured.
    I have often said that the genius of the American education 
system is its diversity, the experimentation, the innovations 
that go on in Wyoming or in Tennessee or Alaska because you do 
not have this top-down, everybody learns the same thing kind of 
structure that I have seen in other countries that they tout as 
a good education system. Nuts. It is not a good education 
system. The diversity and the innovation we have in this 
country has been an inspiration for other countries. That is 
the genius of the American system.
    The failure of the American system is how we pay for it. 
And we always pay for it through a screwed-up system called 
property taxes. And it seems to me the essential question is 
how do we keep that genius part, the diversity, the 
experimentation, the innovation type but pay for it in a 
different way that equalizes it. And let us make sure that 
these under-performing schools have the wherewithal to hire the 
best teachers, get the best technology, the equipment, the new 
kinds of technologies that kids will need to be able to work in 
the future.
    Well, anyway, I did not mean to go off on that, but you 
triggered that.
    Senator Bennet. Well, if you do not mind, I just want to 
jump off and add a couple things, and then I want to hear from 
the panelists.
    I actually did not have that in mind, but it is also a huge 
part of the issue. In an America where everyone lived in town, 
using the property tax was actually a pretty progressive way of 
funding education because you had wealthy people living in the 
town. You had poor people living in town. Everybody made a 
contribution to the system. And that, of course, has not been 
true in this country for many, many, many years. We do not live 
that way anymore. We have suburbs and we have spread out from 
our towns.
    But I also have in mind the fact that our kids--a lot of 
you talked about continuous improvement. Our kids and adults 
are in their buildings for 9 months out of the year. Then they 
are interrupted for 3 months of the year. It belongs to that 
calendar that you are talking about. It is not very 
constructive for continuous improvement.
    People on this panel have fought and fought and fought to 
get 2 days at the beginning of the year, for example, to be 
able to do professional development with teachers. Well, we 
have got 3 months in the middle of the summer when we could be 
using that for other things.
    We once lived in a labor market where a teacher knew, 
because she was a woman, that nobody was ever going to ask her 
to be an engineer, and therefore, she would gladly teach Julius 
Caesar every year for 30 years because nobody was ever going to 
ask her to do anything else. That has not been true, thank 
goodness, for 30 years.
    But we are, year after year after year, losing 50 percent 
of the people from the profession, or whatever the number is, 
but that is the number the chairman used. And somebody here 
observed that we have got to hire 1.5 million new teachers and 
replace half our workforce over the next 7 years. Are we 
seriously going to do that with a theory of human capital that 
belongs to the 1950s or before?
    So I will stop. Let me get off my soapbox.
    The Chairman. Everybody has got their cards up on this. 
What the heck.
    [Laughter.]
    Ms. Weingarten. As Senator Dodd came in--Senator Bennet and 
I have had these conversations privately for a very long time. 
But as Senator Dodd came in, I just want to say we are looking 
at trying to figure out how you do actually change systems. It 
is not just the agrarian model. It is the Industrial Revolution 
model. Basically our high schools and junior high schools 
around the country are basically factories, and in some ways, 
the testing has made them even more like factories because 
people say, okay, let us just do well on that English or that 
math test. And there has been a real narrowing curriculum.
    So the one thing I would like to say is what is happening 
in New Haven, Connecticut is actually a really incredible model 
because the city, the mayor, the education system, the 
foundations, the teachers union are actually trying to change 
the entire system of education. They did an agreement to agree 
in October. I was sitting with the mayor yesterday. They have 
met every single one of their benchmarks. They are filing for 
two I-3s right now for both the wraparound services that kids 
need so we can compete with poverty, as well as the money to 
really revamp the evaluation and the training systems, as we 
have just discussed. I would watch what is going on in terms of 
New Haven because that is a city that is actually trying to 
change the entire system.
    The Chairman. Interesting.

                              Senator Dodd

    Senator Dodd. I thank you, Randi, for bringing that up. 
Actually we got everyone together and unfortunately Secretary 
Duncan could not make it, so we had him call in. He was over 
the top in his praise of the efforts that have been made by the 
mayor and others.
    Michael knows New Haven well. This is not just an urban 
setting. There are some very, very strong neighborhoods 
financially in New Haven. It is a very diverse population 
within the city. So when you think of an urban setting, 
sometimes we have a tendency to think of it as being just poor. 
You can go down the road to Bridgeport, Connecticut. It is a 
different story economically, but New Haven is different.
    So Randi's point here is that really is an incredible model 
for bringing these elements together.
    What we might do, Mr. Chairman, is it might be interesting 
to maybe just do something on the New Haven model at some point 
here and have people get familiar with it.
    Ms. Weingarten. That would be great.
    Senator Dodd. But I thank you, Randi, for bringing it up.
    The Chairman. Ms. Fesmire. We will just go on down.
    Ms. Fesmire. In my district, when we looked at curricular 
reform and we looked at literacy best practices and an 
elementary math initiative, we looked at improving all of our 
schools. All the schools in our district, save the one on our 
wonderful Air Force base, are all title I schools. We have 
socioeconomic challenges in my school. And we are in southern 
New Mexico. So we also have linguistic challenges and cultural 
challenges too.
    But when we looked at improving our teachers and improving 
our education, we looked at improving everyone. My school came 
from a performing school with scores that met the criteria with 
scores in the 40s and 50s up to scores in the 80s and 
outranking every school in my State with mathematics mastery 
scores.
    But the school right down the street from us that sits near 
the Federal housing--we brought a principal from a high-
performing school to that school. We brought in new teachers 
from our new teacher program, and moved excellent teachers from 
other schools into that school. And that school went through 
the same training that we did and they doubled their scores. So 
they moved out of the not meeting into the meeting 
expectations.
    I think we have to think about not just moving people who 
are not proficient, not just looking at things that are not 
working, but moving everyone forward, bringing change to all 
parts of schools. So schools that are doing well do even 
better. Schools that are not doing well continue to do better.
    And I think something we have not mentioned today that is 
critically important is that we recognize the importance of 
technology not only the technology that is going to be needed 
by our students because who knows what jobs they are going to 
have when they graduate. Those kids that are in my elementary 
school are going to graduate in the 2020s. What kind of jobs 
are going to be available for them? I am not sure. We have to 
look at the technology that they need.
    But we also have to utilize the technology that is 
available to us in education. When we did our elementary math 
initiative, we looked to Denver public schools who had done an 
elementary math initiative several years prior to that. And the 
reason we were able to make that connection is because they had 
posted on their Web site all that information about how they 
made that math initiative work in their school district. So our 
little, tiny district does not have the funds to create a math 
initiative like Denver did and hire all those people. But we 
were able to use their research on how they were able to do it 
because it is part of the worldwide web, because we can share 
with teachers all over the world. We can globally share 
innovations and things that are working if we use the 
technology that our students already know how to use.
    The Chairman. And they do know how.
    Yes, Mr. Daly.
    Mr. Daly. I would like to thank Senator Bennet and Senator 
Harkin for raising this issue of equity, and I think this is 
something we should pause over a little bit because it was not 
mentioned nearly enough at the front end of the hearing.
    You pointed out very accurately that we started funding 
education at the Federal level in 1965, which was not a 
mistake. It really was about equity. The purpose of funding 
education is equity for poor kids, equity for children with 
disabilities.
    We had already achieved access to school without Federal 
intervention in education. Everyone was going to school in 
1965. The reason that we have Federal funding is because they 
were not getting access to education.
    We have, unfortunately, not made a whole lot of progress 
since 1965 at helping the poor and minority children. We are 
still getting really horrible outcomes for poor kids. What they 
need access to is not just equity of resources, which is 
important, but they also need access to excellent teachers and 
excellent schools. Frankly, we do not have the tools in the 
Federal Code right now to deliver that because we do not know 
who the excellent teachers are. There is no information. If you 
were to look and say where is this resource that we are 
supposed to make sure kids get equitable access to these great 
teachers, tell us who they are, the school districts could not 
tell you because every single teacher in most districts is 
getting a high rating. And these teachers are not assigning 
these to themselves. It is not the teacher's fault. It is that 
we have never demanded of States and districts that they have 
any kind of legitimate evaluation system, so you all could even 
know whether you are getting equitable distribution or not.
    So I would urge you to think carefully about the levers 
that are available in the legislation to push for this finally 
because it has been way too long since poor kids got a fair 
shot at this.
    The Chairman. Why, Mr. Daly, then--as I said in my opening 
statement, in high-poverty schools it is twice as common--that 
we will have teachers who are unqualified to teach in subjects? 
Why is that happening?
    Mr. Daly. We do know about their qualifications, and that 
is important.
    The Chairman. Does that have to do with money?
    Mr. Daly. Does that have to do with money? It has something 
to do with money, but it does not have nearly as much to do 
with money as you might think.
    Ms. Fesmire. It has a lot more to do with working for a 
great leader and having instructional support and professional 
development.
    The Chairman. You go to these high-poverty schools. They do 
not have good heating and ventilation systems. The physical 
structures are bad. They do not have high-tech equipment that 
they have in high-income schools in the suburban schools. They 
do not have all the niceties. They do not have a nice swimming 
pool. They do not have all those kinds of nice things. So 
teachers would say, well, if the pay is the same, I would 
rather teach in a really nice school.
    Senator Alexander. I just wanted to add something onto 
Senator Bennet's question because we are going down the aisle, 
and I just wanted to make sure I got it from all of those 
there.
    When a Governor or a superintendent like Senator Bennet 
turns around and says I would like to pay good teachers more so 
that we can keep them in the classroom, I would like to 
identify the best teachers to send them over to this failing 
school and turn it around, I would like to offer the best 
teachers 10- or 11-month contracts for some extra programs that 
we have, the difficulty is that there is no one to answer the 
question about how do we figure out who the best teachers are. 
And I am just so pleased to see even this discussion today 
based on where--I mean, in 1983 I asked that question as a 
Governor when not one State paid one teacher 1 penny more for 
teaching well, and I suggested, well, I will raise taxes and we 
will pay teachers 70 percent more if they will go up a career 
ladder and be master teachers. Albert Shanker said if we can 
have master plumbers, we can have master teachers and helped to 
create an environment where we could figure that out.
    But basically the response from the educational community 
was you cannot pay some teachers more than others. That is one. 
And two is there is no way to figure it out anyway what an 
effective teacher is. And three was we will do everything we 
can to kill your idea.
    So we came up with a plan, after a year-and-a-half brawl, 
that included all of the things that have been mentioned today. 
Mr. Kane, you mentioned many of them. It included a student 
portfolio, the principal evaluation. We used a panel of 
teachers from outside the school district, including one who 
was a teacher of that particular--no teacher had to do this. 
This did not interfere with tenure. It was all on top. Ten 
thousand teachers voluntarily went through it. It was sort of 
the Model T of rewarding outstanding teaching. And when I left 
office, of course, gradually the NEA killed it in our State.
    Now, what I am hearing from everyone here is that great 
progress has been made, and I have watched it being made. And 
Ms. Weingarten in her testimony says that if all we need to do 
is to separate effective and ineffective teachers for purpose 
of compensation, then we can do that.
    I guess what I would like to hear from Mr. Kane and 
everybody else is if a Governor today or a school 
superintendent or anyone turns around to say can you give me 
some ways so that I can figure out who the effective teachers 
are in my district, are there multiple answers for that? And if 
there are not, what can we do to encourage more of that? I 
should say in fairness that we now have a President and an 
Education Secretary who have said figuring that out is sort of 
the holy grail of education.
    The question we have here is what can we do to create more 
projects, for example, like the one you have at Harvard, Mr. 
Kane, or the one Vanderbilt has or there may be others. 
Specifically what can we do to encourage those of us who are 
elected who ask the question, how can we figure out what an 
effective teacher is, how can we relate effective teaching to 
student performance and then use it in the multiple ways that 
we want to use it?
    The Chairman. Well, Mr. Kane, you are up.
    Mr. Kane. So I think that the best thing the Federal 
Government can do to try to answer that question, Senator, is 
to say two things, not to get too prescriptive about exactly 
what measures get used, but to say two things.
    One, in the grades and subjects where it is possible to 
track student achievement gains over the course of the year 
because there are assessments in those grades and subjects, 
student achievement gains need to be part of a teacher 
performance evaluation.
    And then second, any other non-test-based measure, whether 
it is a classroom observation, a rating by a principal, a 
rating by an external observer, whether it is student 
evaluations or some other approach to doing performance 
evaluation that we have not even thought of yet, if a State 
wants to use that as part of their teacher performance 
evaluation system, they need to show that in the grades and 
subjects where they have both student achievement gains and 
these other measures, that they are identifying the same 
teachers.
    Senator Alexander. Well, Mr. Kane, it is one thing to 
require it. I mean, our law required it in 1984, but there was 
not any way to do it.
    Mr. Kane. So these days, a lot has changed, as you know, 
since 1984. So in 1984, it would have been really hard to track 
students and attach them to teachers and track gains in 
achievement. That is much easier these days now that States 
have invested in data systems. There are a few that could do it 
very quickly, that are already positioned. Tennessee, for 
instance, has a data system that would be capable of that. 
There are many other States that are not quite there yet. But 
there could be a timeline for saying, okay, if you do not have 
a way of establishing a teacher of record for each tested 
student in the tested grades, you have got to develop one 
within a year or within 2 years and start to track that and 
have that be part of the system.
    The other parts--as I said, it will be--you know, we are 
testing a new approach to doing classroom observation using 
digital video. We actually think it is a cheap way. We are 
trying to drive down the costs of doing it. One of these 
cameras that we use for this is about $2,500 per school. So 
that starts to get into the more affordable range. But lots of 
other States and districts will just decide to do it the old-
fashioned way with an adult in the back of the classroom and a 
checklist.
    Now, if they decide to do that, fine, but they are going to 
have to be able to show that the scores that come out of that 
process are related to student achievement gains. If they are 
just giving everybody a satisfactory, then that is not going to 
be predictive of student achievement gains, and as a result, 
that kind of evaluation would not turn out to be acceptable 
under this framework. So if there were some minimum 
relationship between these non-test-based things and an 
objective measure of student achievement in the grades and 
subjects where you can do that that would be a quality control 
mechanism you guys could require.
    The Chairman. Ms. Hirsh.
    Ms. Hirsh. I want to approach this maybe slightly 
differently. Because we do not have data in every subject 
area--we do not test in every subject area--and yet we do have 
outcomes that we expect for students in whatever subject they 
are taking or whatever grade they are in at the moment. What 
our ultimate desire is that the students successfully achieve 
those outcomes.
    So while we are developing new systems--and I am excited 
about all the investment in the new systems for evaluating 
principals and evaluating teachers--students are in school 
today. And we can ask teachers to work in collaborative teams 
to identify the benchmarks by which their students will be 
measured, if it is in art, music, PE, math, or language arts. 
We can say here is what our students will be able to accomplish 
at the end of the year and here is the evidence that we will be 
able to give you. And we can ask our teachers to work together 
collectively and share responsibility for the results of all 
their students, and they can pull together the portfolios, the 
data, the student practice, student performance data, and they 
can document for school leaders, for the district leaders how 
their students have moved this year.
    We have all talked about the importance of multiple forms 
of data, and I think teachers are the best ones to go to to say 
in this particular course, this is the way students can 
document that they have achieved the outcomes. And at the same 
time, we can promote that good practices and the knowledge and 
skills of the best teacher in the grade level or the subject 
area are shared across the team. We do not want some students 
in a classroom where a teacher is struggling right next door to 
a teacher who is having great success not to have the incentive 
to work together.
    So we can start today changing the way we organize schools, 
without having to think about how we blow up schools, very 
simply asking and setting systems where teachers are expected 
to collaborate. And it is what teachers say. In the most recent 
MetLife study of the American teacher, 67 percent of principals 
and teachers said collaboration was key to student success in 
all schools.
    The Chairman. Ms. Moir, I just got notified we have two 
votes starting at 12:10. So we have got about 25 minutes to go.
    Ms. Moir. Okay. I will make just three comments on this.
    The first is to Senator Bennet who is not in the room any 
longer. But I want to just highlight that never in the history 
of education, to my knowledge, have we placed teachers in such 
a prominent role in American education. And I want to urge us 
to capitalize on this opportunity. Data is important. 
Observation feedback. Knowing who is effective and who is not, 
knowing how to help people move from good to very good to 
excellent is key to success around issues of equity and around 
improving student learning in schools.
    And we can blow this opportunity if we are not careful. We 
can blame teachers for all the problems that are happening in 
America's schools. I want to urge us to each think for a moment 
of a teacher that made a huge difference in our lives. Teachers 
are inspiring, engaging, thought-provoking, and incredibly 
important, and I want to make sure that the most 
underprivileged kids in America get those teachers.
    The second point I want to say is that it is incredibly 
important to think about the New Haven model for a second. 
There is no way in American education, even in the finest 
innovations of just a school, a classroom, and teachers that we 
can possibly build out the kind of infrastructure and support 
that we need to ensure that the communities surrounding schools 
in high-poverty areas get the kind of resources they need. So I 
would like to broaden the definition and think together about 
ensuring that it is not just a school, but schools are situated 
in the context of communities and we are bringing those 
supports to bear.
    The third point I want to make, which is in my sweet spot 
in the New Teachers Center's work, is to build out standards 
across America so that every new teacher knows that whether 
they go into a low-performing school in Tennessee or in Alaska 
or in California, that they are going to get the kind of 
instructional support that they need to be on that path to 
excellence. We cannot leave this to chance.
    The Chairman. Did you have an intervention on this point, 
Ms. Weingarten?
    Ms. Weingarten. Yes. This may be a bit controversial.
    The difference, Senator Alexander, between what you were 
talking about and Mr. Kane, Tom, was talking about and what I 
am talking about is when you look at individual teachers, which 
is what Mr. Kane is trying to do, you actually are going to 
make the system worse, not better because individual teachers 
have always been isolated. So this is another way of, in some 
ways, isolating them. I am not saying that we do not do new and 
different evaluation systems. You know I have been out there 
talking about that and figuring out what the Rosetta Stone is 
in terms of evaluations.
    But teaching is fundamentally different than business. And 
ultimately what we are all saying, if you look at the Gates 
studies, if you look at what the school practitioners are 
talking about, we are talking about how you change systems to 
make them really collaborative and collective where people are 
building on each other's knowledge. So the schools people on 
the panel will talk about support, not about accountability, 
will talk about how we make this real for all kids, like we are 
trying to do in New Haven, but we are talking about it in terms 
of a collective work, not individual work.
    So that is why if we just look only at the data from flawed 
achievement tests now, achievement tests we are now throwing 
out and saying they have become the race to the bottom not the 
race to the top, then all we are doing is making the system 
worse not better.
    So I am all for flexibility. I am all for looking at 
student learning, but we have to figure out how to do this 
thoughtfully, which is what in some ways Gates is doing with 
the two districts it is working on, in some ways, Senator, 
Benwood did. They initially did things in the way of like just 
looking at individual raw scores of teachers and saying, we are 
going to throw teachers out if their raw scores do not work. 
And then they decided to do a different process, a multiple-
measured, collaborative process to turn around schools and that 
Benwood School District in Tennessee is doing outstandingly 
now.
    Senator Alexander. Mr. Chairman, I do not quite understand 
that. Are you saying you cannot--it is not a good idea to 
determine whether an individual teacher is effective?
    Ms. Weingarten. No. I am not saying that.
    Senator Alexander. It sounds like it.
    Ms. Weingarten. What I am saying is that we have to do 
individual evaluation systems.
    Senator Alexander. Right.
    Ms. Weingarten. But for individual teachers.
    What I am saying is that the way in which Tom was 
approaching it with everything based upon the testing score and 
radiating out from that is not a good idea. Student learning, 
evidence of student learning as part of a teacher evaluation is 
very important, but it has to be done in a multiple-measured 
way.
    Senator Alexander. You are disagreeing with Mr. Kane.
    Ms. Weingarten. I am disagreeing with Mr. Kane.
    Senator Alexander. I got it.
    Ms. Weingarten. But what I am saying is that we have to 
figure out how to do evaluations better, more differentially, 
more thoughtfully. But what you have done in some ways in 
Tennessee in Benwood is a good exemplar. What some of the folks 
at Vanderbilt have done is a good exemplar. What Douglas County 
is starting to try to do is a good exemplar. It has to be done 
thoughtfully with a notion and understanding that this is a 
collective or collaborative venture not just individual.
    Senator Alexander. Thank you, Mr. Chairman. I would like 60 
seconds more and then I will----
    The Chairman. No. You have been very----
    Senator Alexander. I agree with Mr. Kane about relating the 
rest of the evaluation somehow to student achievement. I do not 
disagree with you that in the end the teaching enterprise is a 
collective enterprise. All I am saying is that the worst 
possible people to have to figure this out are people like me 
and even school superintendents. You really do not want 
Governors and Education Committee chairmen and the United 
States Senators to be figuring out a teacher evaluation system. 
You want to make it easy for a new Governor of Tennessee to 
turn around to someone and say I want to do all these things, I 
want to put my political capital on the line, raise taxes, and 
improve the schools, can you please give me five ways to tell 
me who the effective teachers are and how we can make it easy 
for me to do this because I am a politician not an educator. 
That is where I think the teachers unions and the colleges of 
education have, to put it constructively, done a lot better in 
the last 25 years than they did 25 years ago.
    I understand it is hard. I do not know how to do it well, 
but I hate the idea that Governors and school superintendents 
are the ones who have to figure it out. I think the 
professional educators ought to figure this out and help us use 
these evaluations in whatever is the best way. And then I think 
we can get a lot more money in education. I can go sell up and 
down the street, paying a lot more money for Race to the Top 
and excellence. More money for more of the same is hard to sell 
politically. So that is my frustration.
    Ms. Weingarten. So one of the reasons--I am sorry.
    The Chairman. Ms. Benbow, I know you have been anxious to 
get in on this.
    Ms. Benbow. Yes, I have because we are actually working on, 
right now, a national teacher performance assessment. We have 
partners in several States. So we are the lead institution in 
Tennessee, and every institution in Tennessee is working on it 
but also with other States and also with AACTE.
    We are using value-added measures. Of course, gains in 
student learning has to be part of the equation, but we are 
also looking at other factors. There are things like routines 
that teachers need to know and have in their quiver to be able 
to pull out when they need to do an intervention, and we are 
looking at them. We are also looking at teacher advance so they 
can see how are they teaching, how effective are they. What 
about their subject-matter knowledge? So, yes, value-add. 
Learning is part of it but there are many others.
    What I would say is what can the Federal Government do. 
Help fund the research. We are doing it on our own. And I would 
encourage the Institute for Education Sciences to support 
research that can develop these instruments. So that is exactly 
what we are trying to do.
    I would like to add one more thing while I have it. Money 
does make a difference. Look what happened in special 
education. Ever since 1975, we have invested mightily in 
special education and we have shown results.
    I would say too that in terms of growing up the system or 
doing things, we are doing an experiment on performance 
incentives. We should have the results soon, whether 
performance incentives work. But I think we have to pay people 
more to work in hard-to-staff schools. Otherwise, why would 
they stay there and go there? And that is what we see. The best 
teachers leave those schools very, very quickly, and so we need 
to give them extra compensation.
    The other final thing I would say is we also need to do 
early childhood. When students come to school, there already is 
an achievement gap. What teachers have to do is immediately 
begin remediation. Why can they not start on a level playing 
field?
    Again, I would say money does make a difference. Sure, 
there are working conditions, but money is important.
    The Chairman. I could not agree more. And I am going to 
call on Mr. Kane next.
    I have a house out in Fairfax County. My two kids went to 
Fairfax County public schools. They have great public schools. 
They have all the facilities, the technologies. They have great 
teachers, principals. That is a rich county. A lot of rich 
people live out there, people like us who make a lot of money.
    Go across the river right from where our house is. Go 
across the Potomac over to Prince George's County. Low income, 
poorer schools.
    Take a really good teacher getting ready to go into 
teaching. Where is he or she going to want to go? They are 
going to want to go to that Fairfax County school. They have 
all the great money and all the great supports and everything 
else. Why would they want to go across the river to Prince 
George's?
    Mr. Kane.
    Mr. Kane. What I was describing before by validating these 
non-test-based things against value-added is, I think, 
essential to create some discipline on the system. Otherwise, 
it just becomes like my opinion of what good teaching looks 
like or somebody else's opinion of what good teaching looks 
like, or it becomes favoritism on the part of a principal or 
peer group. All I am saying is we have to have these non-test-
based measures. We have to have classroom observations. There 
has to be student evaluations, I would argue, that would be 
part of it.
    But rather than sort of foist upon people things that are 
just our opinion, we ought to be able to show that the teachers 
who score better on whatever rubric we are using, the teachers 
who are using the practice that we are saying, okay, here is 
the practice we want you to be using in your classroom, we 
should be able to show that the people who do that are getting 
better student achievement gains because if they are not, we 
are wasting their time.
    Now, on the State test, people may be unhappy with the 
State test. We are in the process of trying to improve those 
State tests. But also as part of the study I described--and by 
the way, one of the districts that is part of this is Memphis 
in Tennessee--we are adding on, on top of the State test, some 
of these open-ended, constructed response type items that probe 
more creative, problem-solving tasks, and we are going to be 
able to validate against those too.
    States could do the same thing. If they are unhappy with 
the degree to which their assessments are incorporating those 
skills, they could add more items like that into the mix and 
still be able to, again, confirm that the folks who are doing 
the things that they say constitute effective teaching are 
actually getting bigger gains on whatever assessment you are 
using.
    The Chairman. I do want to get to Mr. Valenzuela and Mr. 
Schnur, but I noticed that Senator Franken wants to say 
something on this point, in this area?
    Senator Franken. I think that growth is an important model 
here. Does everyone know McNamara's fallacy? Is that familiar? 
You mentioned, Mr. Kane, talking about results of tests of 
things that can be measured. And McNamara's fallacy is that 
things that can be easily measured will be measured and will be 
considered important, and things that cannot be measured easily 
will not be measured and will not be considered important. So 
what we measure is reading scores and math scores, but what we 
do not measure are the other things that are just hard to 
measure and people do not consider them important anymore. So 
critical thinking or creativity or all the other kinds of 
intelligence that the employers that I talk to want from 
students, from graduates, those we are not measuring.
    And it is really interesting that today's discussion has 
talked about evaluating principals. In evaluating principals, 
we have to evaluate how their teachers have done. To evaluate 
teachers, you have to evaluate how the students have done. So 
it all boils down to how we make these assessments. So that is 
what we have gotten down to today, and that is what we are 
going--it a huge deal of what we are figuring out as we 
reauthorize ESEA.
    The Chairman. Mr. Valenzuela.
    Mr. Valenzuela. So this is actually just a point to Senator 
Bennet's question or comment. I went to one of those colonial-
era schools. I attended Boston Latin School, which is the 
oldest public school in the country, 1635.
    [Laughter.]
    Very old. And one of the things I remember from my 
experience is that with the exception of excellent teachers, my 
ethnicity, my background was not valued in school.
    I think one of the things we have to measure as an 
effective teacher is what the Boston public schools calls safe 
and respectful communities and learning environments so that 
teachers have to create those as well, and that is part of what 
Boston and the Boston Teacher Residency is working with 
teachers on doing. And it is not to say that a person of color 
has a distinct advantage in an urban setting over their white 
counterparts, but it is to say that all teachers need to be 
cognizant of the fact that in front of them are students that 
have a range of backgrounds, whether it is socioeconomic, 
whether it is their ethnicity.
    In my room, it is a full range. I have kids with iPhones 
and kids with no cell phones at all. I have students from 
Jamaica, Haiti, Liberia, the Dominican Republic. I could go on. 
And what I know for a fact is that all of them can contribute 
something very special in that room. And I think that it is not 
enough to say that we need to get effective teachers. We need 
to include that diversity in the teaching force as well so that 
students get to see more than just the white female teacher. No 
offense, Ms. Fesmire. But to say that we need to definitely 
include a range of diverse backgrounds from the bottom to the 
top.
    That is all I wanted to add.
    The Chairman. That is one thing we have been discussing 
here. Only 2 percent of all teachers nationally are African-
American men--2 percent. That is not right. I mean, there is 
something wrong with that when you have that kind of a 
situation.
    Mr. Schnur.
    Mr. Schnur. Just on that, I think there are exemplars that 
could be scaled. New Leaders is one example. We have had 10,000 
applications for 700 slots. Two-thirds of our new leaders are 
people of color, age range, 25 to 55. We have talent 
everywhere. If you set a very high bar and a goal to do 
outreach, probably you will get excellence and diversity 
intertwined. It is a crucial point.
    I think Senator Bennet's question earlier underscored the 
starting point, in my view, for this next reauthorization. We 
have these examples of individual schools where kids in 
poverty, kids with disabilities, kids who are English-language 
learners, kids of color, kids who have been underserved are 
achieving fantastic results in pockets. At scale, we have 
slipped from number one in the world in high school graduation 
rates and college completion rates to the middle of the pack. 
So our kids can do it. We have the examples of kids from all 
backgrounds. As a society and as an education system, we have 
not gotten worse. Actually those rates have not gotten worse. 
They are the same. The problem is the rest of the world is 
moving ahead. The demands and the expectations are moving 
ahead. The question is not have we failed. The question is how 
we make much more dramatic progress to achieve these goals. 
Michael Bennet as superintendent led an exemplar of this in 
Denver, which you can learn so much from.
    I think to get there, the central question you are asking 
today is how do you, at the national Federal level, support 
school systems supported by innovative nonprofits and research, 
but school systems to basically do vastly better, ensuring that 
kids who need it the most have access to great teachers and 
principals is the fundamental question. And in my view, in the 
short term, you can require some things. I would not do a 
laundry list, and I have seen some legislation on both sides of 
the aisle that is too much of a laundry list of requirements 
that I think is trying to mandate systems from the Federal 
level. I think you have to pick your spots about what you 
require.
    But what you can do now, I think, 4 years from now can pay 
off hugely if you support high-quality, college and career 
assessments, and if you invest--I would argue strongly for at 
the national level, since Federal spending is only 10 percent 
of K-12, to invest in more competitive funding for school 
systems and innovative efforts to support them, research and 
nonprofits, to create exemplars of how do you evaluate 
teachers, how do you hold teachers accountable, how do you 
evaluate principals, how do you hold principals accountable, 
how do you develop them, and create more of an evidence base. 
As long as you have the evaluation, this legislation's biggest 
contribution in some ways to the future of our kids would be 5 
years from now when systems that are tackling this, that you 
have created examples with evaluation that the whole country 
can take to scale.
    The Chairman. Ms. Hirsh.
    Ms. Hirsh. I have two sentences. One is if we want to 
identify effective teachers, then we need better evaluation 
systems, but if we want to ensure that there is effective 
teaching in every classroom, then what Congress can do is make 
sure that we have better professional development for all 
teachers.
    The Chairman. Mr. Parmenter.
    Mr. Parmenter. I would like to echo that. I think we need a 
funding stream in the United States for training principals so 
we do better at evaluation. I think we can do better. There is 
no question in my mind. We are going to require some training.
    And I think also I would really favor something systematic. 
I am very intrigued with what Vanderbilt is doing as far as 
creating evaluation systems. Something systematic would be 
nice. Otherwise, we end up with Alabama doing something 
different from Montana. It is a little hard to get a handle on 
all that when we are comparing apples and oranges.
    I do know the National Association of Elementary School 
Principals is creating some language for some staff 
development, training sorts of legislation. So we would 
appreciate support on that if you could do that.
    The Chairman. Any other things here?
    Mr. Franken, do you have anything else?
    Senator Franken. I am good.
    The Chairman. Mr. Kane, did you have something else?
    Mr. Kane. I had one thing on professional development 
because I think more money for professional development is key. 
But we have to be careful there, though, because imagine if you 
were trying to invent Weight Watchers in a world where there 
were no bathroom scales and there were no bathroom mirrors. You 
could spend a whole lot of money creating a system, but if 
people do not have any way to know whether they are getting 
better or whether they are moving in the right direction, it is 
going to be a wasted effort. And I think there is a huge amount 
of professional development out there now that is not having a 
big impact on student achievement.
    The Chairman. Did you have something, Randi?
    Ms. Weingarten. I wanted to say part of this is--and I 
think Ms. Fesmire said that earlier--that when principals 
become instructional leaders instead of having to do so many of 
the other things and when there is a real focus on curriculum, 
a broad curriculum, not a narrow curriculum, then there is 
something that you then create the tools and conditions for 
teachers around that. I think what has happened is in the 
absence of that, that is why there is this struggle of looking 
at math and English scores and growth on math and English 
scores, and everything has gotten very, very narrow as opposed 
to broadly thinking about critical thinking, as Senator Franken 
has said.
    I would put my bet on the teachers and principals in 
schools these days if we actually had good ways of evaluating 
them, of training them around curriculum that they should be 
using and giving them the tools and conditions and supports to 
do that. I think the Federal Government can do that by helping 
us with pilots on evaluations either the way Jon talked about 
it or other ways but ultimately in the development of other 
things.
    The Chairman. Ms. Moir?
    Ms. Moir. Great. I want to echo Senator Franken's point. 
The things that can be counted are easy. Let us get this ESEA 
reauthorization to think about how we start counting things 
that are more complex but ultimately have an impact on 
improving student learning.
    And the final point I want to make is that teaching 
learning conditions that now is part of the Gates study and is 
in Tennessee and Delaware's Race to the Top applications I 
think is another important piece that we should be looking at 
that we may have forgotten along the way. It is hard to be an 
effective teacher if the working and teaching conditions do not 
allow for good learning.
    The Chairman. Someone mentioned standards for induction--
you mentioned that earlier in your opening comments.
    I am sorry we got a little off. I am partly responsible for 
that, getting off a little bit on something else, but we were 
talking about how do we focus on--and what support can the 
Federal Government provide to States and school districts to 
allow them to implement policies that ensure that all students 
have high-quality teachers and leaders, principals and 
teachers, and how do we use evaluations?
    I think Senator Franken is right. Some things are difficult 
to measure. You can measure some things. Some things are very 
difficult. And how do you evaluate--I said that at the 
beginning--a really good teacher? Is it on the basis of test 
scores of kids who remember and have rote memory drilled into 
them? Or can you evaluate somehow how they think abstractly, 
how they solve problems that are new to them? How do they apply 
learning to solving new problems rather than just standard 
problems that they have learned in class?
    I do not know. I wrestle with this all the time. And I am 
not certain that out of all of this, there is any cookie cutter 
type of an approach that if we just do one, two, three, subpart 
A, B, and C, it is all going to be good. This is just one area 
where I think we are still going to wrestle with this on title 
II and how we use these funds in title II going forward.
    I think we are all pretty good on how we are going to 
change the evaluation system and growth for the AYP and stuff. 
I think we are all pretty much there.
    How do we get to this other thing, though, of the best 
teachers and the best principals and highly qualified? How do 
we turn around under-performing schools if in fact their income 
base is low and neighboring school districts are high? I do not 
know how we crack that nut. I really do not. Again, we are 
trying to wrestle with this.
    This has been an enlightening session for me, I think for 
all of us.
    The record will be left open. I would ask each of you--you 
are all extremely knowledgeable in this area--as we proceed on 
this, I hope that you will feel free to continue to send us 
your thoughts and suggestions as we develop this legislation, 
as we go into markup, hopefully next month sometime. You know 
how to contact our staff by e-mail, I hope. You should. And 
please continue to send it to us--we will be looking at it. We 
will take your inputs further on down later this month or next 
month as we proceed on this bill.
    It is still my hope, for those of the press who are still 
here, that we will get this bill in committee sometime in the 
May-June timeframe and ready for the floor sometime in the late 
June or July timeframe. That is still my goal. Now, whether or 
not we can get it on the floor is another question, but I 
intend to get the committee's work done sometime in that May-
June timeframe.
    So continue to give us the benefit of your wisdom and your 
knowledge in this area.
    The record will stay open for 10 days until April 25th, but 
beyond that, please give us your best thoughts.
    I will close by thanking all of you for all you have done. 
Many of you have been involved in this for many, many years. I 
thank you. We rely upon you to give us guidance and direction 
on how we should go. But we have got to figure out a way to 
have better evaluations, better standards, and getting better 
qualified teachers into under-performing schools. We have just 
got to figure out better ways of doing it. You have been very 
helpful in moving this process forward. Thank you all very 
much.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

              National Education Association (NEA),
                                      Washington, DC 20036,
                                                    April 14, 2010.
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator: The National Education Association, representing 3.2 
million educators across the Nation, would like to share with you the 
enclosed materials in advance of tomorrow's hearing in the Committee on 
Health, Education, Labor, and Pensions on ESEA Reauthorization: 
Teachers and Leaders.
    Attached for your information and use are:

    <bullet> NEA Backgrounder: ``Elevate the Profession to Attract 
Great Educators and Leaders for Every Public School,''
    <bullet> NEA White Paper: ``Ensuring Every Child a Quality 
Teacher,''
    <bullet> Key Findings from NEA's 2009 Report, ``Children of Poverty 
Deserve Great Teachers,'' and
    <bullet> Selected links to articles and stories on innovative 
programs to ensure great educators.

    A growing body of research confirms what school-based personnel 
have known for years--that the skills and knowledge of teachers and 
education support professionals (ESPs) are the most important factors 
in how well students learn. In turn, the presence of strong and 
supportive school leaders is critical to recruiting and retaining 
accomplished teachers and ESPs. For too long, we have paid too little 
attention to ensuring that today's best and brightest choose teaching 
as a career. As an entire generation of educators nears retirement age, 
there is an urgent need to address all aspects of working in public 
schools. It is time to elevate the profession.
    We hope the enclosed materials will be useful to you as Congress 
moves forward on these critical issues. Thank you for your attention to 
this important information.
            Sincerely,
                                              Kim Anderson,
                                  Director of Government Relations.
                                 ______
                                 
     Elevate the Profession to Attract Great Educators and Leaders 
                        for Every Public School
    A growing body of research confirms what school-based personnel 
have known for years--that the skills and knowledge of teachers and 
education support professionals (ESPs) are the most important factors 
in how well students learn. In turn, the presence of strong and 
supportive school leaders is critical to recruiting and retaining 
accomplished teachers and ESPs. For too long, we have paid too little 
attention to ensuring that today's best and brightest choose teaching 
as a career. As an entire generation of educators nears retirement age, 
there is an urgent need to address all aspects of working in public 
schools. It is time to elevate the profession.
    How do we do that? Federal and State policies can help draw new 
talent to teaching careers, but that won't be enough. What we need is a 
bold new initiative to raise the profile and status of the teaching 
profession--such as creating a national education institute. Such an 
entity would be in a position to attract top college graduates and 
talented second-career professionals all over the country.
    Also, we know that all teachers, even the most accomplished, are 
more effective when they are supported by skillful instructional 
leaders. We need more top-notch principals and other school leaders 
serving as mentors and coaches for classroom educators. Federal 
policies, therefore, must foster well-prepared and effective school 
professionals of all ranks and positions, including administrators. And 
it is time to recognize and truly value the work of all education 
professionals: administrators, classroom teachers, aides, office staff, 
cafeteria workers, and others. Every one who works in a school is 
essential to that school's success.
    Finally, we must ensure that every school, whether high- or low-
achieving, has access to great educators. The Federal Government must 
develop policies and provide funding to enable struggling schools and 
districts to offer incentives and conditions that will attract and 
retain accomplished and effective educators.
                    is this really a pipeline issue?
    Yes. Research shows that infusing the educational system with great 
educators requires attention be paid to each segment of the educator 
pipeline--from promoting education as a career to rigorous standards 
for entry into the profession. It also includes induction and 
placement, certification and licensure, mentoring, professional 
development, advancement, and retaining accomplished educators. 
Ultimately, we must develop systems to recruit legions of top 
undergraduate students and professionals leaving other professions, to 
prepare them effectively, and to nurture and safeguard their path to 
careers in education.
can we foster excellence while establishing attainable standards within 
                        the teaching profession?
    Teachers need more than high-quality preparation from schools of 
education because much of their learning comes from their real world 
classroom experience. We need policies that foster continuous learning 
in the form of high-quality, job-embedded professional development, 
mentoring programs, common planning and reflection time, and timely and 
continuous feedback from peers and school leadership.
    More teachers need financial support to become certified by the 
National Board for Professional Teaching Standards, and those who earn 
this credential should be deemed highly qualified.
    Federal policy also should recognize that some teachers--rural, 
special education, or elementary and middle school teachers--must teach 
multiple subjects. Therefore, teacher quality standards also must 
provide accommodations for teachers in special circumstances and give 
them reasonable, common sense opportunities to improve or increase 
their skills and breadth of certification.
              what can we do to improve school leadership?
    We must ensure that school principals and other administrators--as 
well as teachers and education support professionals--receive adequate 
preparation, mentoring, and continuous professional development and 
support to improve their craft. They must receive timely and useful 
feedback from school staff as well as other administrators and be 
evaluated fairly and comprehensively. And they must have the resources 
and the staff necessary to create and maintain a successful school.
    We also must look for ways to promote the leadership skills of 
teachers and education support professionals. All staff benefit from 
such opportunities.
 how would a national education institute fit in with state and local 
         reform of teacher and principal preparation programs?
    Elevating the profession means ensuring that the most talented 
individuals in the Nation have access to world-class education 
preparation programs. Establishing a National Education Institute 
(NEI), a highly competitive public academy for the Nation's most 
promising K-12 teacher candidates in diverse academic disciplines, 
would allow the Federal Government to attract top undergraduates as 
well as second-career professionals and prepare them as leaders of 
school reform around the Nation. NEI would provide an intensive 1-year 
path (free tuition, room, and board in exchange for a 7-year commitment 
to service in select public schools) to full licensure, school 
placement, induction, along with lifetime professional development and 
mentoring opportunities from NEI faculty/ graduates/master teachers.
    NEI also would partner with existing teacher preparation programs 
to establish a highly competitive ``National Scholars'' program in 
select universities that would foster regional and local excellence in 
teacher preparation, licensure and induction. Additionally, NEI would 
sponsor a principal or leadership development program for top 
candidates who have served as teachers for at least 3 years and wish to 
enter an intensive program to become a principal or school leader in a 
hard-to-staff school.
       can we do more to recognize and support education support 
                             professionals?
    Education support professionals (ESPs) comprise a critical part of 
the education team. They include school secretaries, custodians, bus 
drivers, teacher aides, food service personnel, paraprofessional 
laboratory technicians, telephone operators, medical records personnel, 
bookkeepers, accountants, mail room clerks, computer programmers, 
library and reference assistants, audio-visual technicians, and others. 
Schools cannot function without top notch ESPs. The Federal Government 
should create incentives and provide funds to recruit certified and 
qualified ESPs and ensure they are included in job growth and 
professional development opportunities.
can we recruit and create incentives for high-quality educators to work 

                       in hard-to-staff schools?
    The NEA supports financial and other incentives to encourage top 
educators to work in hard-to-staff schools. Such incentives are most 
effective when they are voluntary, locally agreed upon, and include 
non-financial incentives such as access to continuous professional 
development, mentoring, paraprofessional assistance, effective school 
leadership, sufficient resources, planning time, class-size reduction, 
and other factors that improve job quality and effectiveness. 
Inexperienced or new teachers should not automatically be placed in 
hard-to-staff schools because they need to be prepared to deal with the 
challenging environment.

NEA Recommendations to Congress

    <bullet> Focus on undergraduate preparation and educator 
recruitment, preparation, certification and licensure, induction, 
professional development, mentoring, tenure, advancement, and 
retention.
    <bullet> Foster continuous learning and rigorous yet attainable 
standards for all school staff.
    <bullet> Develop and support school leadership at all levels and 
positions within schools.
    <bullet> Create a prestigious national education institute and 
provide incentives to States to create world-class teacher preparation 
programs that attract the top tier of college graduates nationally.
    <bullet> Recognize the contributions and achievement of education 
support professionals.
    <bullet> Offer both financial and non-financial incentives to those 
who teach in hard-to-staff schools.
                                 ______
                                 
                 Ensuring Every Child A Quality Teacher
                                summary
    The National Education Association* believes the essential 
characteristics of a quality teacher include:
---------------------------------------------------------------------------
     *No organization in America has done more to support and promote 
quality teaching than the National Education Association. Throughout 
its long history, the NEA has advanced the profession of teaching and 
worked toward a goal of a qualified teacher in every classroom. From 
being a founding member of the National Council for the Accreditation 
of Teacher Education, to supporting the creation of the U.S. Department 
of Education, to organizing over a dozen independent State teacher 
standards boards, to helping establish the National Board for 
Professional Teaching Standards, NEA has been in the forefront of 
innovation, research, and policy to support teacher quality.

    <bullet> Knowing his/her subject matter;
    <bullet> Knowing how to teach that subject matter; and
    <bullet> Understanding how students learn and what it takes to 
reach them.

    To ensure every student the opportunity to learn from a quality 
teacher, we must support teachers along every point in the Teacher 
Quality Continuum.
Protect and promote high standards for entry into the profession
    <bullet> Recruit talented and committed professionals to the 
teaching profession and develop a teacher workforce that reflects the 
diversity of the student population and nation as a whole.
    <bullet> All teachers entering the profession must demonstrate 
subject matter competence, pedagogical skills, and teaching ability 
before entering the classroom as a teacher-of-record. Alternative route 
programs must maintain the same standards as other teacher preparation 
programs and must be equal in rigor and content.
Support and measure new teacher performance
    <bullet> Policies and funding should focus on comprehensive new 
teacher induction systems that treat new teachers as ``residents'' or 
``interns.'' This would mean more support and training, less demanding 
classroom assignments, and significantly more focused performance 
assessments for all beginning teachers, regardless of their preparation 
and routes to licensure.
Improve teaching and learning conditions
    <bullet> Teaching and learning conditions--time, teacher 
empowerment, school leadership, professional development, and 
facilities and resources--are critical to increasing student 
achievement and retaining teachers.
    <bullet> Teachers must be intimately involved in every phase of 
their ongoing training, with high-quality professional development 
programs focusing on pedagogy and helping teachers develop the deep 
understanding of how students learn.
    <bullet> Principals should also be provided with high-quality 
professional development so they can serve as instructional leaders in 
their schools and work collaboratively with teachers to improve student 
learning.
Strengthen teacher evaluation systems
    <bullet> New policies and funding should create teacher evaluation 
systems based on a set of standards that measure teacher practice. 
Professional development and teacher learning programs should be 
aligned to meet the needs of both students and teachers--needs that are 
determined at the local level through measures of student performance 
and teacher evaluations.
Enhance and reward teacher skills and knowledge
    <bullet> Provide teachers with job-embedded professional learning 
opportunities and create systems for regular collaboration among 
educators within schools and districts.
    <bullet> Ensure a $40,000 minimum salary for all teachers in every 
school in the country.
    <bullet> Provide financial recognition to individual teachers who 
demonstrate superior teaching skills (such as National Board Certified 
Teachers) and to those who take on additional responsibilities (such as 
mentor teachers), and provide school-wide bonuses for improved student 
learning.
Ensure that students in high-poverty and other hard-to-staff schools 
        have access to quality teachers
    <bullet> Provide an array of incentives to attract and retain 
qualified teachers to such schools.
    <bullet> Improve teaching and learning conditions, including by 
reducing class sizes and ensuring safe modern facilities.
                                 ______
                                 
                             i. background
    In 1996, the National Commission on Teaching and America's Future 
published its groundbreaking report, ``What Matters Most: Teaching and 
America's Future'' (NEA was a primary partner in the development of 
this report). This report offered definitive evidence on two major 
issues:

    1. What teachers know and do is the most important influence on 
what students learn; and
    2. Students most in need of high quality teachers are least likely 
to have them.

    This report rekindled the now 10-year-old policy debate about what 
makes a quality teacher. Policymakers often look to define a quality 
teacher in a quick sentence or catchy phrase. In reality, however, 
teaching is a complex and demanding profession, and what great teaching 
looks like is hard to define in a single sentence or sound bite. All 
too often, this search for a simple definition leads to an overly 
simplistic concept of what it takes to be a good teacher (i.e., be 
really smart and know math really well). Yet, research and practice 
have shown that being a great mathematician is not synonymous with 
understanding the science of teaching math to a room with 25 to 30, 13-
year-old middle school students.
    NEA believes that defining a quality teacher can best be achieved 
using a set of principles and standards, combined with a process of 
preparation, licensure, support, and assessment. NEA's ``Principles of 
Professional Practice'' define the knowledge, skills, and dispositions 
a quality teacher should possess.
A Quality Teacher
    <bullet> Designs and facilitates instruction that incorporates the 
students' developmental levels, skills, and interests with content 
knowledge;
    <bullet> Develops collaborative relationships and partners with 
colleagues, families, and communities focused on meaningful and deep 
learning;
    <bullet> Provides leadership and advocacy for students, quality 
education, and the education profession;
    <bullet> Demonstrates in-depth content and professional knowledge;
    <bullet> Participates in ongoing professional learning as an 
individual and within the professional learning community;
    <bullet> Utilizes multiple and varied forms of assessment and 
student data to inform instruction, assess student learning, and drive 
school improvement efforts;
    <bullet> Establishes environments conducive to effective teaching 
and learning;
    <bullet> Integrates cultural competence and an understanding of the 
diversity of students and communities into teaching practice to enhance 
student learning;
    <bullet> Utilizes professional practices that recognize public 
education as vital to strengthening our society and building respect 
for the worth, dignity and equality of every individual;
    <bullet> Strives to overcome the internal and external barriers 
that impact student learning.

    Attaining knowledge and skill in each of these practices is not 
easy and cannot be measured effectively by one snapshot in time (such 
as a single classroom observation or a single standardized test of 
teacher knowledge).
           ii. the role of the federal government and states
    To ensure a quality teacher for every child, the Federal Government 
and States must support a systemic approach that recognizes, supports 
and measures a teacher's growth and ability along the various stages of 
a quality continuum--a continuum that includes recruitment, 
preparation, licensure, hiring, induction, professional development, 
on-going performance assessment of teaching skills and practice, and 
advanced certification. Specifically, they must take affirmative steps 
in the following areas:

    <bullet> Protecting and promoting high standards for entry into the 
profession;
    <bullet> Supporting and measuring new teacher performance;
    <bullet> Improving teaching and learning conditions;
    <bullet> Improving the distribution of quality teachers in hard-to-
staff schools;
    <bullet> Strengthening teacher evaluation systems; and
    <bullet> Recognizing and rewarding teacher skill and knowledge.

1. Protecting and Promoting High Standards for Entry into the 
        Profession
    Ensuring that new teachers enter the profession with the necessary 
skills, knowledge, and abilities is the most important function of 
Federal and State policies governing teaching. Current policies 
supported by ESEA allow a new generation of ``trial and error teachers 
into classrooms--usually those with the most needy children. These 
policies and programs allow people with little or no preparation to 
``try'' teaching and to learn on the job (too often without legitimate 
mentoring and support). The fact that teachers in alternative route 
programs can be considered ``Highly Qualified'' under ESEA is a clear 
example of this ``trial and error'' approach.
    NEA believes that all teachers entering the profession should be 
required to demonstrate subject matter competence, pedagogical skills, 
and teaching ability before entering the classroom as a teacher-of-
record. Alternative route programs must maintain the same standards as 
other teacher preparation programs and must be equal in rigor and 
content.
                       a. Teacher Recruitment \1\
    We must recruit talented and committed professionals to the 
teaching profession and we must develop a teacher workforce that 
reflects the diversity of the student population and nation as a whole. 
There is significant evidence that these programs work but there has 
been little policy and financial support for these strategies.
---------------------------------------------------------------------------
    \1\ See, Clewell, B.C., Villegas, A.M. (2001) Evaluation of the 
DeWitt Wallace Reader's Digest Fund's Pathways to Teaching Careers 
Program. The Urban Institute. http://www.urban.org/url.cfm?ID=410601; 
www.urban.org/UploadedPDF/410601_Pathways.pdf.
---------------------------------------------------------------------------
    To strengthen teacher recruitment efforts, NEA supports:

    <bullet> Funding programs that provide financial incentives for 
qualified individuals to enter the teaching profession, and for 
collaboration among school districts, teacher unions, and institutions 
of higher education for the development of programs that facilitate the 
recruitment and retention of a qualified, diverse group of teacher 
candidates.
    <bullet> Creating incentives such as loan forgiveness that 
encourage teachers to gain licensure in shortage subject areas.
    <bullet> Developing ``grow-your-own'' recruitment programs for high 
school students, community college students, paraprofessionals, and 
mid-career changers.
                  b. Teacher Preparation/Licensing \2\
    Quality teacher preparation and comprehensive performance-based 
state licensing systems help to ensure that candidates have the 
knowledge, skills, and ability to be effective beginning teachers.
---------------------------------------------------------------------------
    \2\ See, Darling-Hammond, L., Holtzman, D.J., Gatlin, S.J., & 
Heilig, J.V. (2005). Does teacher preparation matter? Evidence about 
teacher certification, Teach for America, and teacher effectiveness. 
Education Policy Analysis Archives, 13(42). Retrieved [date] from 
http://epaa.asu.edu/epaa/v13n42/.
---------------------------------------------------------------------------
    NEA supports:

    <bullet> Allowing multiple pathways for entrance to the teaching 
profession and for attaining full licensure. These pathways should 
provide options so that candidates may select the one that best 
provides a pathway to full licensure. None should be considered 
superior or inferior to the other.
    <bullet> Requiring every teacher preparation program (alternative 
and otherwise) to complete a single national accrediting process. The 
National Commission for the Accreditation of Teacher Education (NCATE) 
is the proven leader in teacher education accreditation and should be 
the sole accrediting body.
    <bullet> Giving independent, teacher-led standards boards authority 
over developing State preparation and licensure standards for all 
teachers.
    <bullet> Closing Federal and State loopholes that allow unlicensed 
and/or unprepared teachers into classrooms.
    <bullet> Rejecting testing-only approaches to licensure that allow 
for ``trial and error'' teachers to enter the classroom without 
demonstrating they possess the necessary teaching knowledge and skill.
    <bullet> Requiring that measures of actual performance be part of 
every State licensure system. This would require that teachers be 
granted an initial license to teach but granted a professional license 
only after demonstrating effective practice during their first few 
years of teaching.
          2. supporting and measuring new teacher performance
    Teaching is the only profession in which a brand new, untested 
professional is asked to perform the exact same duties with equal 
proficiency as a seasoned and proven professional. Policies and funding 
should focus on comprehensive new teacher induction systems that treat 
new teachers as ``residents'' or ``interns.'' This would mean more 
training, less demanding classroom assignments, and significantly more 
focused performance assessments for all beginning teachers, regardless 
of their preparation and routes to licensure.
a. New Teacher Support, Induction, and Retention \3\
    The key to helping beginning teachers improve their practice and to 
slowing the revolving door of teacher turnover is to support policies 
and funding that provide a comprehensive induction experience for every 
new teacher--induction experiences that are tailored specifically to 
individual needs and school/district/State circumstances.
---------------------------------------------------------------------------
    \3\ See, Ingersoll, R., (2005). ``Teacher Shortages and Educational 
Inequality,'' National Education Association Research Brief. http://
connect.nea.org/edstats/images/Ingersoll.pdf.
---------------------------------------------------------------------------
    To this end, NEA supports:

    <bullet> Instituting formal systems of comprehensive teacher 
induction for at least the first 2 years of teaching, under the 
supervision of experienced and/or accomplished teacher-mentors.
    <bullet> Creation of incentive grants to districts to develop peer 
assistance programs that focus on the improvement of staff knowledge 
and skills.
    <bullet> Providing new teachers with a reduced course load and/or 
less demanding classroom/school assignments that permit them to 
participate in organized professional development, induction 
activities, and planning during the school day.
    <bullet> Regularly assessing new teachers' classroom performance 
and basing their professional learning directly on the results of this 
assessment.
    <bullet> Increasing training, accountability, and support for 
school administrators, particularly in schools/districts with high 
teacher turnover.
    <bullet> Implementing policies and providing funding to improve 
significantly the teaching and learning conditions in schools/districts 
with high teacher turnover. These conditions include class size, 
physical infrastructure, teacher input into school policies, and school 
safety.
             3. improving teaching and learning conditions
    Emerging research from across the nation demonstrates that school 
teaching and learning conditions--time, teacher empowerment, school 
leadership, professional development, and facilities and resources--are 
critical to increasing student achievement and retaining teachers. A 
safe and supportive environment with sufficient instructional resources 
is a necessity if teachers are to be successful with students. 
Districts need to work with local teacher unions to survey principals, 
teachers, and other school staff about their teaching and learning 
conditions. Such surveys can be powerful tools to obtain information 
that can identify improvements needed in schools throughout the 
district to help spur student achievement. The New Teacher Center 
(www.newteachercenter.org/tlcsurvey/#survey) has been a leader in using 
teacher working condition surveys. States working with the New Teacher 
Center in 2008-09 included Alabama, Colorado, Fairfax County (VA), 
Illinois, Kansas, Maine, Maryland, Massachusetts, North Carolina, 
Vermont, and West Virginia. Texas is slated to do this work in 2010. 
Other States utilizing survey tools include Arizona, Nevada, Ohio, and 
Mississippi.
    Teachers must be intimately involved in every phase of their 
ongoing training, with high-quality professional development programs 
focusing on pedagogy and helping teachers develop the deep 
understanding of how students learn. The information needs to be 
timely, research-based, and relevant--information that one can use 
immediately upon returning to the classroom.
    NEA supports:

    <bullet> Designing professional development programs in a 
collaborative fashion between school districts' leaders and local 
teachers to ensure that teachers--and other educators--receive 
professional development directly linked to their and their students' 
needs and tied to the school's and district's curriculum and 
instructional needs and strategies.
    <bullet> Encouraging skills- and knowledge-based staffing 
arrangement environments. Programs should encourage collaboration 
between the school administration and the local organization 
representing teachers and other educators, as well as increased 
collaboration among teachers and between teachers and other education 
staff, to promote innovation in the way teachers' and support 
professionals' roles and responsibilities are defined.
    <bullet> Continuing Federal support for the National Board for 
Professional Teaching Standards to assist more teachers to obtain 
National Board Certification.
    <bullet> Providing Federal financial incentives for board-certified 
teachers to go to and stay in hard-to-staff schools.
    <bullet> Assessing whether teachers believe their schools are good 
places to teach and learn and using that information to spur data-
driven reform strategies.
    <bullet> Reducing class sizes to improve student learning.
  4. improving the distribution of quality teachers in hard-to-staff 
                                schools
    Greater support is needed for programs and policies that encourage 
quality teachers to stay in the classroom and to teach where they are 
needed most. To address teacher distribution in its totality, the 
government should work to understand the issues involved in teacher 
quality and to place teacher recruitment and retention at the forefront 
of policy agendas.
    NEA supports:

    <bullet> Providing financial incentives for qualified individuals 
to enter the teaching profession.
    <bullet> Funding programs that facilitate collaboration among 
school districts, teacher unions, and institutions of higher education 
for the development of programs that would facilitate the recruitment 
and retention of a qualified diverse group of teacher candidates.
    <bullet> Ensuring all newly hired teachers quality induction and 
mentoring services from trained veteran teachers.
    <bullet> Funding incentive grants to districts to develop peer 
assistance programs that focus on the improvement of staff knowledge 
and skills.
    <bullet> Ensuring teacher involvement in every phase of their 
ongoing training, with high-quality professional development programs 
focusing on pedagogy and helping teachers develop a deep understanding 
of how students learn.
    <bullet> Continuing to provide support for the National Board for 
Professional Teaching Standards to assist more teachers to obtain 
National Board Certification.
    <bullet> Providing additional compensation for teachers who pass 
the demanding performance-based assessments of the National Board for 
Professional Teaching Standards and agree to teach in hard-to-staff 
schools, and/or take on additional roles such as mentoring, peer 
support, and other professional development activities.
    <bullet> Encouraging skills- and knowledge-based staffing 
arrangements environments.
    <bullet> Identifying and addressing teaching and learning condition 
issues that discourage teachers from staying in the profession or in 
hard-to-staff schools.
            5. strengthening teacher evaluation systems \4\
    No district-union contract in America states that ``bad teachers 
can never be fired from their jobs.'' Yet, too often, district-teacher 
union contracts are blamed for inadequate, ineffective, and misused 
teacher evaluation systems. New policies and funding should create or 
enhance standards-based teacher evaluation systems. Professional 
development and teacher learning programs should be aligned to meet the 
needs of both students and teachers--needs that are determined through 
local measures of student performance and teacher evaluations.
---------------------------------------------------------------------------
    \4\ Milanowski, A.T., Kimball, S.M., White, B. (2004) The 
relationship between standards-based teacher evaluation scores and 
student achievement. University of Wisconsin-Madison: Consortium for 
Policy Research in Education.
---------------------------------------------------------------------------
    The most effective way to improve the quality of practicing 
teachers is to implement policies and funding that support standards-
based teacher evaluation programs that have as their primary goal the 
improvement of teacher practice.
    NEA supports:

    <bullet> Using multiple measures to provide a full picture of 
teacher quality. For example, measuring teacher performance based on 
standards associated with student learning, and evaluation of teaching 
practices associated with desired student outcomes and achievement of 
school goals (collection of evidence about teacher planning and 
instruction, work with parents, etc.)
    <bullet> Assessing all teachers regularly throughout their careers, 
for the primary purpose of improving teaching practice in ways that 
enhance student learning.
    <bullet> Removing ineffective teachers within the context of a 
comprehensive assessment and support system that is developed in 
collaboration with teachers (via collective bargaining agreements in 
States that provide for such, or through the support of local teachers' 
organizations where bargaining does not exist).
        6. recognizing and rewarding teacher skill and knowledge
    Rewarding (or punishing) teachers based on student test scores is a 
flawed approach to improving the quality of teaching or enhancing 
student learning outcomes. Providing teachers with job-embedded 
professional learning opportunities and creating systems for regular 
collaboration among educators within schools and districts have been 
proven to improve teacher practice and student performance.
a. Teacher Compensation \5\
    Besides a parent, no other individual has as much influence on 
children and young adults as a teacher. And yet, teachers' salaries 
currently do not reflect the great work that they do every day to 
improve the lives of America's future generation. Too many teachers 
have been denied professional pay for too long.\6\ Working in public 
schools should not be an act of charity--and teachers should not have 
to sacrifice their families' needs when they choose a career in public 
education. Education is complex, demanding work that extends beyond the 
hours spent in a classroom or working directly with students. To 
attract and retain more dedicated, committed professionals into the 
field, we need salaries that are literally ``attractive.''
---------------------------------------------------------------------------
    \5\ See, Behn, R.D. (2000). Performance, People, and Pay. Bob 
Behn's Public Management Report; Harris, D.C. (2007). The promise and 
pitfalls of alternative teacher compensation approaches. Great Lakes 
Center for Education Policy & Practice; Heneman III, H.G., Milanowski, 
A.T., Kimball, S.M., (2007) Teacher Performance Pay: Synthesis of 
Plans, Research, and Guidelines for Practice (RB-46). University of 
Pennsylvania: Consortium for Policy Research in Education; Pfeffer, J 
(1998). Six dangerous myths about pay. Harvard Business Review.
    \6\ According to a recent study by the National Association of 
Colleges and Employers, the teaching profession has an average national 
starting salary of $30,377. Meanwhile, computer programmers start at an 
average of $43,635, public accounting professionals at $44,668, and 
registered nurses at $45,570.
---------------------------------------------------------------------------
    The intrinsic rewards of an education career are often used as a 
rationale to compensate for poor starting salaries. But, low teacher 
pay comes at a very high cost. Close to 50 percent of new teachers 
leave the profession during the first 5 years of teaching, and 37 
percent of teachers who do not plan to teach until retirement blame low 
pay for their decision to leave the profession.
    NEA supports:

    <bullet> Ensuring a $40,000 minimum salary for all teachers in 
every school in this country.
    <bullet> Evaluating any proposed compensation system on whether it 
is designed to improve student learning through improved teacher 
practice rather than advancing short-term political goals. A 
comprehensive pay system must encourage the factors that make a 
difference in teaching and learning--such as skills, knowledge, and 
experience.
    <bullet> Using creative ideas to enhance the single salary 
schedule, while ensuring that criteria used to determine whether 
education employees receive the additional compensation are clearly 
stated, subject to objective measurement, and related to the school 
district's educational objectives. Such ideas include:

        <bullet>  Incentives to attract caring and qualified teachers 
        to hard-to-staff schools. Local teachers, school boards, 
        administrators, and communities know best how to provide those 
        incentives.
        <bullet>  Incentives for the achievement of National Board 
        Certification.
        <bullet>  Incentives for teachers to mentor newer colleagues.
        <bullet>  Group incentives that offer teachers the opportunity 
        to gain greater autonomy and discretion in all school matters 
        and improve professional practice and student learning.
        <bullet>  Incentives for accepting additional responsibilities 
        such as peer assistance or mentoring.
        <bullet>  Additional pay for extended contract years, extended 
        days, and extra assignments.
        <bullet>  Additional pay for teachers for knowledge and skills 
        gained that are directly related to the missions of their 
        schools and/or their assignments.
        <bullet>  Additional pay for teachers who have advanced 
        credentials/degrees directly related to their teaching 
        assignments and/or the missions of their schools.
        <bullet>  Group or school-wide salary supplements/bonuses for 
        improved student achievement.
b. Alternative Pathways to Professional Pay
    NEA believes that specific guidelines must be followed to enhance 
the successful creation, implementation, and sustainability of pay 
systems with alternative routes to professional pay:

    <bullet> Base Salary. Start with a professional level base salary 
and salary schedule. NEA supports a starting salary of at least $40,000 
for all teachers entering the classroom.
    <bullet> Current Salary. No teacher's current salary shall be 
reduced as a result of the implementation of an alternative 
compensation system.
    <bullet> Funding. Alternative compensation models must have 
adequate funding, both initially and ongoing with a sustainable source.
    <bullet> Resources. Time, relevant professional development, and 
opportunities for collaboration must be available to teachers and 
support staff to ensure success.
    <bullet> Accessibility. Any alternative compensation system should 
be accessible to everyone who is eligible with no quotas.
    <bullet> Collaboration. Alternative compensation should promote 
collaboration; not competition.
    <bullet> Size of Incentives. Incentives must be large enough to 
make a difference.
    <bullet> Phased in. The system should be implemented incrementally, 
with proper training.
    <bullet> Classroom Teaching is Honored. Alternative compensation 
systems should be structured to attract and retain quality staff and 
keep them in the classroom.
    <bullet> Association Involvement. The system must be negotiated as 
a collective bargaining agreement or agreed to by at least 75 percent 
of the members in locations where there is no collective bargaining and 
allow for voluntary participation.
    <bullet> There is no one plan. Proposed plans must be flexible and 
structured for the context in which they will be implemented. 
Compensation may take many forms, including training and experience 
(steps and lanes), current extra compensation options, as well as other 
emerging pay opportunities.
    <bullet> Transparency. The system must be understandable to 
educators and the public.
    <bullet> Objective Criteria. Criteria used to evaluate professional 
expertise must be objective, understandable, and predictable.
    <bullet> Assessment. There must be an annual assessment of the 
system to determine its effectiveness in improving teacher salaries, 
teacher practice, and recruitment/retention of quality staff, as well 
as its administrative cost-effectiveness.
                                 ______
                                 
              Children of Poverty Deserve Great Teachers*
    Across this country, thousands of dedicated, hardworking teachers 
show up to work, determined to provide the best possible education to 
students from some of our most poverty-stricken communities. These 
heroes and heroines perform amazing tasks, often with the least amount 
of support and resources. Our children are fortunate to have these 
dedicated individuals in their classrooms. However, we need to do more 
to support not only our students, but the teachers who show up every 
day, despite the odds, to help ensure that they get the best education 
possible, regardless of the conditions.
---------------------------------------------------------------------------
    * (Full Report Available at: http://www.nea.org/teacherquality)
---------------------------------------------------------------------------
    Everyone is talking about supporting our students in their ``race 
to the top.'' The key to turning out great students is great teachers. 
Great teachers, with the right policy supports, are the ideal agents of 
meaningful and sustainable change in our most challenged schools.
                                teachers
    <bullet> Teachers cannot do it alone. Every member of the community 
has a role and is responsible for the conditions of our schools and for 
providing a safe and secure learning environment for our children.
    <bullet> When it comes to attracting and retaining teachers in 
high-needs schools, it is not about the money. Working conditions are 
of paramount concern when it comes to decisions about working in high-
needs schools. Teachers want to be successful, and we should do what we 
can so that they are not set up to fail.
    <bullet> Teachers, like surgeons, require a well-equipped 
environment in which to do their best work. We cannot expect them to be 
successful if we do not provide the tools and resources needed to do 
the job.
    <bullet> It is important that we not only recruit new teachers to 
work in high-needs schools, but that we foster an environment that 
encourages professional development and continual learning 
opportunities for teachers within our schools and districts to help 
meet the needs of students. We also must ``grow our own'' accomplished 
teachers and not rely solely on new recruits for our staffing needs.
    <bullet> A child's learning environment is a critical factor in his 
or her long-term success. We cannot hold teachers accountable for 
conditions beyond their control and must acknowledge that conditions of 
teaching and learning are key to achieving high levels of student 
learning.
    <bullet> Too often, school district recruitment and hiring 
practices rest on outdated mid-20th century organizational assumptions 
about teaching, learning, gender roles, and the career mobility 
patterns of today's young adults. Few systems are developing new 
teachers from within their own high-needs communities.
    <bullet> Additionally, few are partnering with universities and 
nonprofits to make strategic investments in new teacher residency 
programs that can both drive improved working conditions and assure a 
steady supply of well-prepared, ``culturally competent'' teachers for 
high-needs schools.
                               strategies
    Children of Poverty describes four strategies that will move us 
toward research-driven policies that can transform every high-poverty 
school in America into a high-performing school, fully staffed by 
effective teachers.

    <bullet> Recruit and prepare teachers for work in high-needs 
schools.
    <bullet> Take a comprehensive approach to teacher incentives. 
Lessons from the private sector and voices of teachers indicate that 
performance pay makes the most difference when it focuses on ``building 
a collaborative workplace culture'' to improve practices and outcomes.
    <bullet> Improve the right working conditions. We need to fully 
identify the school conditions most likely to serve students by 
attracting, developing, retaining, and inspiring effective and 
accomplished teachers.
    <bullet> Define teacher effectiveness broadly, in terms of student 
learning. We need new evaluation tools and processes to measure how 
teachers think about their practice, as well as help students learn.

    Effective State/school district strategies to recruit and prepare 
new teachers include:

    <bullet> Launching a long-range campaign to recruit and prepare 
teachers for urban and rural high-needs schools by offering high-
quality residency programs, recruiting 20,000 to 40,000 new educators 
per year for 10 to 20 years. These well-trained, well-supported 
recruits will be prepared to lead a 21st century teaching profession 
that works closely with the health care and community services needed 
by students in high-needs schools.
    <bullet> Cultivating effective teachers from within the 5,000 
schools targeted as highest need, ``growing'' National Board Certified 
Teachers in those schools.
    <bullet> Developing compensation systems, including performance pay 
systems, that include financial incentives designed specifically to 
attract and retain, as well as grow effective teachers in high-needs 
schools.
    <bullet> Working with teachers and teacher associations to 
transform teacher assessment and evaluation systems into effective 
instruments for helping teachers to improve their practice; and 
integrate these systems into individualized professional development 
programs based on the needs of teachers and students.
                                 ______
                                 
    Selected Multimedia Resources on Effective Teachers and Leaders
Teacher Talk: Weighing In on National Board Certification
Stories from educators around the country who decided to take on this 
professional development challenge. http://www.nea.org/home/18661.htm

Profiles in National Board Certification
National Board Certified teachers answer questions about the 
certification process and how it has affected their practice. http://
www.nea.org/home/17736.htm

Peer Review: Colleague, Mentor--Judge? How some local unions take 
responsibility for improving teacher quality
Cover story from NEA Today, NEA's flagship publication, March/April 
2010
http://www.nea.org/home/38150.htm

A Network of Sharing: As Mentors, Retired Educators Support The Next 
Generation Of Teachers 
Cover story from This Active Life, NEA's publication for active retired 
educators, March 2007. http://www.nea.org/home/13654.htm

MetLife Survey: Resources, Collaboration Key
Article on NEA's new daily news Web site (www.neatoday.org) on the 
third and final part of the MetLife Survey of the American Teacher: 
Collaborating for Student Success, which focuses on teaching as a 
career and details findings based on surveys of public school teachers, 
principals and students.
http://neatoday.org/2010/03/25/metlife-survey-resources-collaboration-
key/

Examples of innovative strategies featured on NEA's Priority Schools 
Web site (www.neapriorityschools.org):

        Transforming Phoenix's Mitchell Elementary
        http://neapriorityschools.org/2010/04/08/transforming-phoenixs-
        mitchell-elementary/

        Collaboration Results in Transformation at Maryland School
        http://neapriorityschools.org/2010/03/11/collaboration-results-
        in-school-transformation-at-maryland-school/

        Peer Review Begins at Teacher-Led School
        http://neapriorityschools.org/2010/02/17/colorado-1/

    [Editor's Note: Due to the high cost of printing, previously 
published material is not reprinted. To view: NEA's Initial Legislative 
Recommendations for Reauthorization of the Elementary and Secondary 
Education Act go to: www.nea.org/assets/docs/NEA_ESEA_Proposals.pdf.]

    [Whereupon, at 12:14 p.m., the hearing was adjourned.]

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
